<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Publishing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants
                                ________

                                 PART 7
                                                                   Page
 Secretary of the Interior........................................    3
 Bureau of Land Management........................................  235
 U.S. Fish and Wildlife Service...................................  351
 National Park Service............................................  533

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-327                      WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director









=======================================================================  

                       Department of the Interior

                       Secretary of the Interior

=======================================================================











DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                         Tuesday, March 10, 1998.  

                       DEPARTMENT OF THE INTERIOR

                                WITNESS

HON. BRUCE BABBITT, SECRETARY OF THE INTERIOR
    Mr. Regula [presiding]. I call the meeting of the 
Subcommittee of Appropriations on Interior and Related Agencies 
to order. We are happy this morning to welcome Secretary 
Babbitt and to hear your testimony. I am quite sure you have a 
number of important things you would like to share with us.
    Your statement will be made a part of the record, and you 
can summarize any way you choose. So thank you for coming.

                       Opening Statement, Summary

    Secretary Babbitt. Mr. Chairman, thank you very much. I 
appreciate the chance to be back here and talk about what we 
have been doing during the past year, and where we go from 
here.
    I guess I should start just briefly with--Congressman 
Dicks, good morning.
    Just start briefly with the numbers. The President's 
request for the Department for fiscal 1999 represents a 
decrease of one half of one percent, but I would hasten to add 
that that is computed by including Title V funds from last 
year.
    If you remove the Title V funds and look just at the 
operating and regular side of the budget, the request is for an 
increase of approximately 6.5 percent.
    I know the committee is always interested in staffing and 
FTE numbers, so I would start by pointing out that the 
downsizing of the Department from the 1993 base is the second 
highest percentage of any civilian agency--arguably the 
highest, in any event, from the 1993 base of 78,000.
    We were down in 1997 to 66,000, and that is a decrease of--
Mary Ann, what is the percentage?
    Ms. Lawler. 17%.
    Secretary Babbitt. Now, with that prelude, the request this 
year does have an FTE increase of approximately 1,400. It is 
driven principally by the need for more personnel in the land 
management agencies--Fish and Wildlife Service; very, very much 
the National Park Service driven by the visitor demand and by 
some increases which I can explain a little later on; in the 
Bureau of Indian Affairs; in Trust Management Probate; a 
variety of related areas.

                      construction and maintenance

    Mr. Chairman, I think I am going to start today by talking 
about a subject which we have discussed with the committee and 
with you at some length and on which I think we are making real 
progress, and that is your concern for the construction and 
maintenance budgets in the land management agencies.
    So I guess starting with this could be seen as a form of 
pandering to the chairman's expressed concerns.
    Mr. Regula. Pretty good choice of topics. [Laughter.]
    Secretary Babbitt. Well, I think we are in fact making some 
real progress. I acknowledge that your interest and at your 
urging we have made a lot of progress.
    We have presented the construction and maintenance budget 
under the title of Safe Visits. Now what we have done under the 
leadership of Mr. Berry is attempt to refocus construction and 
maintenance toward maintenance and upgrading of properties 
throughout the land management agencies based on a rating 
system.
    All of the projects have now been presented in a rank 
ordered manner which says our first priority is going to be 
health and safety. We do not have enough money to do all of the 
maintenance, but we have to do priorities first.
    What is health and safety? Well, in some of the parks, it 
is going to be waste water treatment facilities. In other 
parks, upgrading the fire protection for buildings. So there is 
a long list. We have rank ordered it, and we will present that 
to you.
    Now, reflecting the emphasis on maintenance, the 
maintenance budget request this year is up by $82 million 
dollars, and the construction part of the budget is down in the 
request by about $14 million dollars.
    The construction priorities all relate to the health and 
safety issue and obviously to finishing projects which are 
already underway.
    I would like, briefly, to talk about some of the cross 
cutting issues in the budget. Each year, as we come back here, 
it seems more and more that, rather than going through one 
agency at a time, you can get a better picture of what is going 
on by looking at the large multi-agency issuesthat are 
increasingly characteristic of this Department.

                   the pacific northwest forest plan

    Of course, we have talked about the Forest Plan over the 
last five years. It continues to unfold, I think, as one of the 
great conservation success stories of this Administration. The 
request for the coming year is down slightly at $68 million 
dollars.
    The BLM has met its timber harvest commitments and will 
meet them again next year. Much of the money, of course, is for 
restoration which will have important impacts on the salmon 
streams of the northwest and provide us a leg up on some of the 
oncoming listing issues for the various stocks of Pacific 
salmon.

                         everglades restoration

    Mr. Chairman, I believe you have been in the Everglades 
recently. I think the restoration of the Everglades is again a 
great success story characterized by bipartisan cooperation 
both in the Florida delegation and in the Florida legislature; 
and more generally, a high degree of involvement by the State 
of Florida, by the Water Management District, and by local 
governments.
    We are moving, in the coming year, toward a very important 
decision point which will come in the summer of 1999. That is 
the completion of the so-called restudy by the Army Corps of 
Engineers, which will bring us back before these committees to 
review how it is that all of these strands come together in the 
ultimate reconstruction and restoration of the entire 
Everglades ecosystem.
    In the meantime, our budget request is for $144 million 
dollars. A large part of that is land acquisition, science, and 
funding ongoing commitments.
    Mr. Yates. Good morning, Mr. Secretary. Sorry I am late.
    Secretary Babbitt. Mr. Yates, I heard a----
    Mr. Yates. You did?
    Secretary Babbitt. I heard a discouraging rumor that this 
will be my last appearance before you in this committee, and I 
just want to say that I can hardly believe that an institution 
of your quality and longevity is----
    Mr. Yates. Longevity certainly. [Laughter.]
    Thank you, thank you. I appreciate that very much. Even 
though it was mostly unsaid, I appreciate it very much. 
[Laughter.]
    Secretary Babbitt. Well, it has been an extraordinary 
pleasure.
    Mr. Yates. It has been fun. It has been fulfilling, and we 
are glad to welcome you here, Mr. Secretary.
    I am sorry to have interrupted, Mr. Chairman.
    It is very kind of you to say those things. I appreciate 
it.
    Secretary Babbitt. Well, let us see. We have been through 
the Forest Plan, the Everglades segment.

                    california bay-delta restoration

    A word about the California Bay Delta Restoration issue. 
This is a project which is now coming to fruition very nicely 
with many of the same characteristics as the Everglades, 
characterized by bipartisan cooperation with local governments, 
the California legislature, the Congress, and a high degree of 
cost sharing in the form of a large bond issue passed by the 
California voters.
    It has unfolded over the last three or four years in the 
Bay-Delta Accords in the resolution of the water supply issues 
under the Central Valley Project Improvement Act.
    Now there will be within the next couple of weeks the 
unveiling of an environmental impact statement for the final 
configuration of flood control, fish and wildlife, and water 
supply issues in the San Francisco Bay-Delta.
    We are really within striking distance of one of the most 
historic achievements in a long time, actually bringing 
together northern and southern California, the competing urban/
agricultural and environmental interests.
    The request, which I recognize is mostly outside this 
committee, but not entirely because it is a multi-agency 
request, is for $143 million dollars.

                     interior columbia river basin

    Mr. Nethercutt is not here, but I will pretend that he is 
because I would like to say a word or two about the Columbia 
Basin. I know that is on the minds of both him and other 
committee members.
    In the wake of the President's Forest Plan, the Forest 
Service and the BLM, at the President's request, moved to the 
upper Columbia River across the Cascades to see if we could put 
in place a large scale plan for the management of the forest, 
fishery, grazing, and mineral resources.
    We have been at it now for three, perhaps four years. And 
the draft environmental impact statements are now out. What is 
driving this Columbia River process is, of course, resource 
management and our desire to avoid litigation--this piecemeal 
litigation which results in injunctions against activity 
because of the courts on a piecemeal basis--and a failure of 
compliance with water quality, Endangered Species Act, and the 
other issues.
    The environmental impact statements, which would be the 
blueprint for administration of this area by the land 
management agencies, have not been met with much enthusiasm 
either by the environmentalists or by industry.
    That has led some to suggest that we should step away from 
the commitment to try to do this. My response to the critics is 
that the alternatives are all worse. If this is not a perfect 
plan, we need to engage people, keep at this process, and see 
if we can find some consensus on the big issues in the Columbia 
River Basin which are forest health, the use of controlled fire 
and thinning to restore health to the forest----
    Mr. Kolbe, good morning. Excellent timing. I am just coming 
to the southwest from the Columbia Basin.
    Mr. Kolbe. That is a big change.
    Mr. Skeen. That is a good change.

                           southwest strategy

    Secretary Babbitt. Yes. And in that context, I would simply 
say to the committee we have made some modest requests to keep 
moving forward with this. I think it is essential that we keep 
working with Idaho, Oregon, Washington, Montana, the states up 
there. We have to move forward on the forest health and 
restoration and on the stream, watershed, and fisheries issues.
    I just do not think we can walk away from this. It would 
not be in the public interest and ultimately not in the 
interest of the local governments. We will see if we cannot 
find something--very likely a repeat of what happened on the 
west slope of the Cascades with the avalanche of injunctions 
that came down in the 1980's.
    Now, to the southwest. I believe at the instigation of Mr. 
Kolbe last year, there was a footnote in our budget saying, if 
I can sort of summarize it, get moving proactively to deal with 
the southwestern issues.
    And that advice was given in the context, I think, of us 
being behind the curve. No question about it.
    The litigation developing over a variety of issues--
theEndangered Species Act; the listing of the Southwest Willow 
Flycatcher with large impacts potentially upon grazing; the renown 
ferruginous pygmy owl which has made its appearance in the suburbs of 
Tucson causing some concern; a whole variety of issues relating to 
timber plans and water; and in the eyes of some, kind of the makings of 
an oncoming regional crisis.
    We are getting on top of those issues. We are not entirely 
there, but I do think that we have heard the message. We are 
going to try to deploy some of the techniques out in the 
southwest that have worked pretty well in other areas of the 
country such as the northwest and elsewhere by looking into 
conservation agreements, habitat management, these broader 
scale proactive efforts to avoid disruptions in the local 
economy.
    There are modest increases in the budgets once again of 
several agencies--the Bureau of Land Management, the Geological 
Survey, and notably, the Fish and Wildlife Service.

                       endangered species issues

    Just a word about the endangered species issues in this 
budget. There are substantial increases in the agencies I just 
mentioned for the administration of the Endangered Species Act.
    Those requests were originally put in with the expectation 
that this would be the year to reauthorize the Endangered 
Species Act. There is a bill--a consensus bill--which moved out 
of the Senate Environment Committee, but its fate beyond there 
is, at this point, I would say, uncertain even though it passed 
by a 15:3 margin with bipartisan support.
    In any event, if we are going to stay ahead of the curve on 
the Endangered Species Act, we need the resources to keep these 
habitat conservation plans, safe harbor agreements, and other 
issues moving. I would urge your close attention to those 
requests.

                             science issues

    Okay, two more issues. The first is science, and there are 
three subjects briefly on my mind. The first is a $15 million 
dollar request to fund an interagency, multi-agency disaster 
information network.
    We are finding out several things about this. One, it seems 
like each year we have more and more natural disasters: floods, 
mud slides, fires. It seems to be kind of a continual 
progression. And secondly, our ability to respond to natural 
disasters is improving by leaps and bounds.
    I was out in Menlo Park last week amidst all the water in 
California and saw just one example of it with the ability of 
the Geological Survey to bring down satellite information, 
geological information and respond to the mud slides.
    Actually, they are going out in some of these areas along 
the Pacific coast and prioritizing the problems in these 
neighborhoods and ``red taging,'' as they call it, particular 
structures by combining all this knowledge and saying, ``the 
problem in the next 48 hours is going to be here and here and 
here is a kind of predictive capacity.'' They have already 
managed to do that almost to perfection with volcanic problems, 
but they are still struggling in terms of earthquakes.
    The reason for the disaster information network concept is 
the need to bring together the information from literally 
dozens of sources and get it out in real time as these disaster 
scenarios start to unfold.
    The reason for doing it--for centering it at the Geological 
Survey--is because of their information processing capability. 
Much of this information now comes down from satellites, 
including the use of a variety of classified resources.
    This committee and the Congress, over the last years, have 
funded a secure facility out in Reston which is the appropriate 
place to bring this information together through the security 
screens and all of the different sources.
    There are proposed increases in the Geological Survey water 
research accounts. I would call your attention to those simply 
because we used to think of the water issues as western issues 
driven by drought and reclamation.
    But in fact, the water issues are now national issues. They 
come at us from all kinds of different quarters. We have the 
pfiesteria problem in Chesapeake Bay. We have nitrification 
problems now spreading out in the Gulf of Mexico beyond the 
mouth of the Mississippi River. We have contamination plumes in 
ground water. It is a national problem. The Geological Survey 
is not a regulatory agency, but it is the best base from which 
to power up the kind of data and scientific research that we 
need.
    The other science issue is fire science. We have discussed 
that in the last several years, and we are making real 
progress.
    I think we have gathered a consensus now about the 
importance of managing fire hazards through the management of 
the landscape and the fuel accumulation on the landscape. This 
means spending money to get back into these forests, thin them 
out, and try to restore some semblance of the natural fire 
cycle that these forests evolved with and which in fact is the 
key to keeping them healthy and free of insect outbreaks and 
disease and nutrient deficiencies.

                            native americans

    A word quickly about Native Americans and the increases 
that are proposed in the budget. I would like to focus on just 
a couple of issues. One is law enforcement. The reservations in 
this country have a serious onrushing of criminal activity, a 
crime problem.
    It has many roots, of course, but one is the lack of law 
enforcement capability which by any measure is vastly 
underfunded. You will see in the budget a $25 million dollar 
increase request for uniformed police, criminal investigations, 
and detention facilities.
    It is matched by a very important commitment from the 
Justice Department, which I think is in the neighborhood of 
$100 million dollars, for investment in detention facilities 
and related issues.
    The Indian Trust Account Reconciliation issue is again 
present in the budget. This is a problem which has accumulated 
for 150 years in terms of records and accounting of the trust 
funds that have been handled by the bureau across that time 
period.
    It is a very complex issue. I think we are now on course to 
begin cleaning up the accounts and putting in new accounting 
systems.
    A small footnote about the Alaska subsistence issue. This 
is an issue that relates to whether or not the Department will 
be required by law to intervene in the management of Alaska 
fisheries to protect the subsistence priority for Alaska 
natives. We are working with the Alaska delegation to try to 
avert that by an amendment to the Alaska constitution and 
legislation to put it into effect.
    It will be a close call as to whether or not that getsdone. 
If it is not done, we may well be back for a substantial budget request 
to implement a Federal subsistence program. We have done our best for 
the last six years to find some way around that issue.
    Again, this is a 100% bipartisan issue. We are all working 
on it, the delegation, the governor, but we are not there yet.
    There are many other items that we could be talking about--
the land and water acquisitions, oil production in the Gulf of 
Mexico, the upcoming lease sale decisions on the Alaska slope 
and others. But in aid of time, perhaps I will rest my account 
there and invite you to flail me in your customary, generous, 
and high-spirited fashion.
    [The information follows:]


[Pages 10 - 20--The official Committee record contains additional material here.]



    Mr. Skeen. Are you volunteering this or----
    Secretary Babbitt. Absolutely.
    Mr. Regula. Thank you.
    What we will do is take questions in the order of 
appearance. Try to hold these to five minutes per member. Then 
we will come back around for another series of questions.

                             land exchanges

    My first concern is some of the policies on land exchanges 
on use of park assets. First of all, the Wall Street Journal, 
as you are well aware, had a report on a $50 million dollar 
land exchange involving the ``highest price ever paid for a 
private home in the United States.''
    It was an unprecedented deal, involved a major developer, 
the Bureau of Land Management and the Forest Service. And the 
Wall Street Journal article was obviously quite critical.
    Tell me about this exchange. Was this initiated by the 
Federal agency or the private sector? And if it is complete, 
who is going to benefit from it? It seems to me, at least 
reading the story, that we are giving away a lot more than we 
are getting.
    Secretary Babbitt. Well, the issue, of course, is 
appraisals. Land exchanges involve the question of the 
appraisals being appropriate and reasonable. It is complicated 
by the fact that in a land exchange half of the land exchange 
goes from private into public, and the appreciation and value 
stops on the public side. We saw this in the acquisition of the 
San Pedro conservation area notably in which the efforts of Mr. 
Kolbe, the governor of Arizona, and others resulted in a land 
exchange which brought down the Arizona press like a fire storm 
on all of us alleging every kind of skullduggery imaginable.
    It was one of the best things that ever happened in 
Arizona, and the citizens of Arizona and the press will tell 
you that to this day.
    Now, Nevada. Number one, I have recused myself from all 
land exchanges involving the Del Webb Corporation from 1993 to 
the present. There is no legal requirement to do that. I have 
done it. Therefore, my observations on this are not as a 
decision maker.
    I believe those land exchanges will bear scrutiny from any 
source. The appraisal record is crystal clear. Those land 
exchanges were elevated to the national level and the 
appraisals were reviewed and redone in several cases.
    I do not hesitate to tell you that I think that Wall Street 
Journal article is an outrageous piece of innuendo.
    Mr. Regula. Well----
    Mr. Yates. Is it not true?
    Secretary Babbitt. Yes.
    Mr. Regula. I think the facts that they set out in the 
article are based on the information they have, and I think any 
land exchange ought to be scrutinized with the greatest care to 
ensure that the United States is not losing something.
    Secretary Babbitt. Mr. Chairman, I would be happy to bring 
the record of that exchange over. Again, I am recused from it, 
but I can bring the facts over. And I would meet any person 
anywhere in a public forum to talk about it. That is an 
outrageous smear on the agencies involved. That is just the 
bottom line.
    Mr. Regula. I would suggest then that a summarization of 
the facts be brought, and we will include it in the record.
    Secretary Babbitt. I would be happy to do that. I really 
would.
    [The information follows:]


[Pages 23 - 26--The official Committee record contains additional material here.]



                            sale of microbes

    Mr. Regula. Next is an article from the Salt Lake Tribune 
about the sale of microbes. It said, ``The microbe suit puts 
park in hot water.'' And apparently there is a licensing 
agreement in Yellowstone to Diversa Corporation of San Diego in 
which we, the government, receive a small yearly fee.
    And the question is, is it proper to give an exclusive 
contract to one organization for access to these microbes which 
apparently they can commercialize to their advantage?
    Secretary Babbitt. Mr. Chairman, I have to tell you 
something. This really stretches the bounds ofreasonableness. 
For 100 years, the national parks have been allowing people to come in 
and take these kinds of resources for free.
    Now under my administration, I said to the National Park 
Service it is time to do what other countries in this world 
have done, notably Costa Rica. That is to say, to the extent 
that someone is using a public resource, whether it be grazing, 
timber, minerals, whatever, it is appropriate for the public 
and the taxpayer to get a return.
    This contract is the first time in the history of the 
United States Government that the National Park Service has 
moved to make a deal. I am absolutely astounded that that kind 
of innovation immediately provokes this kind of response.
    Now, is there a lawsuit? Sure, there is a lawsuit. There 
are always lawsuits. This is some group up in Seattle, 
Washington that has a--well, I will not describe their agenda. 
It is all a matter of public record.
    The contract was negotiated by reference to contracts that 
have been negotiated elsewhere. Now, there are not many of 
them. The Merck Company has some of these contracts for bio-
prospecting in Costa Rica.
    There are a few in other areas. This is the first one that 
has ever been done in the United States. I guess the bottom 
line is no good deed goes unpunished. Once again, I would be 
happy to come up here, haul out those contracts and go through 
them with this committee line by line by line to make one 
simple point: we are finally getting a return on public assets 
for the first time.
    Mr. Regula. Well, Mr. Hansen, who is chairman of our 
counterpart committee, and the authorizers advise me that he 
tried to get the information on this deal from the Department 
and they refused to give him this information.
    Now that does not square with what you are saying this 
morning.
    Secretary Babbitt. I would be happy to bring the 
information to this committee or Mr. Hansen on 24 hours notice.
    Mr. Regula. I will so advise Mr. Hansen.
    Secretary Babbitt. There is an issue in these contracts 
about public disclosure of the exact terms of the royalty. Why 
is that? That is because the commercial practice is not to 
paste the royalty rates in these biological prospecting things 
on every bulletin board, thereby setting the maximum for every 
future deal.
    It is the way the Costa Rican ones are done, the Merck ones 
are done. That is standard practice. But again, Mr. Hansen, 
rather than acquainting himself with the facts in the 
commercial practice, is busy spreading all this innuendo.
    And I resent it. And I would be perfectly happy on 24 hours 
notice to bring the contracts and have it out.
    Mr. Regula. Well, I think we have signed a letter 
requesting that, so----
    Secretary Babbitt. Okay, you have got it.

                      charging fees for movie sets

    Mr. Regula [continuing]. There will be a response. I have 
more questions such as whether you charge for movie sets. They 
use a lot of our public lands and likewise ski resorts. But my 
time is up.
    Secretary Babbitt. Mr. Chairman, in the history of the 
United States, no one has ever proposed charging for the use of 
public lands for movies. Now what I want to know is why all 
this innuendo when we make a proposal?
    For the first time, we are saying the taxpayers ought to 
get a return, and all of the sudden there is all this innuendo.
    Mr. Regula. On movies?
    Secretary Babbitt. Yes.
    Mr. Regula. Well, I agree with you.
    Secretary Babbitt. Okay.
    Mr. Regula. Mr. Obey.

                            hudson dog track

    Mr. Obey. Mr. Secretary, I would like to raise the issue of 
the infamous Hudson dog track in Wisconsin because frankly, the 
more I see what is written about this, the angrier I get.
    And so, Mr. Secretary, I simply want to thank you for 
making the right decision in turning down that ridiculous 
request to allow some failing dog track owners in Wisconsin to 
turn a losing economic proposition into a money maker by 
abusing the ability of tribes to take land into trust under the 
Constitution of the United States and Treasury of the United 
States.
    The way this story is portrayed normally is that this is an 
issue of rich tribes versus poor tribes. The fact is, this was 
an issue of rich dog track owners in the State of Wisconsin 
trying to take a losing proposition and turning it into a money 
maker by getting a number of tribes that had nothing to do with 
the area to come in and take over land and thereby enable them 
to add a casino facility to the dog tracks.
    The impression given by a lot of these stories is that you 
have three poor Wisconsin tribes who are trying to establish 
casinos on their reservation in order to increase their income.
    In fact, all three of the tribes in question have casinos 
on their reservation. I have a map of the State of Wisconsin 
here. Hudson is over here at the end of the state. The three 
tribes that wanted to establish their casinos in Hudson are 
located here, here and here.
    The nearest is 100 miles away in a different congressional 
district. Two of the three tribes who wanted to establish those 
casino rights happen to be from my district, and one had been 
from Congressman Roth's district.
    All three of them wanted to establish a casino in Mr. 
Gunderson's district. And Mr. Roth, Mr. Gunderson and I all 
opposed their request because of the ludicrous nature of that 
request. What we had here, in my view, is simply an abuse of 
the trust privilege which tribes have in this country, or at 
least an attempt to abuse that trust privilege.
    If you take a look at public opinion in Wisconsin on this 
issue, you will discover that on the April ballot in 1993, the 
Wisconsin legislature got fed up with dealing with all of these 
gambling issues because we have gone in just a few short years 
from a state that allowed no gambling into a state that looks 
like a second rate Las Vegas in some places.
    And so the legislature put six questions on the ballot. 
Ballot question number one, ``Do you favor a law that would 
allow gambling casinos and excursion vessels in the state on 
the Mississippi River, Lake Michigan and Lake Superior?''
    The entire State said no by a 44% to 56% vote on the 
ballot. And in the Hudson area in question, the populace said 
no by a vote of 27% to 72%. On the second question, ``Do you 
favor a constitutional amendment that would restrict gambling 
casinos in this State,'' the entire vote stood at 61% to 39% 
for those restrictions.
    In the Hudson area, they voted 70% to 30% for those 
restrictions.
    On ballot question three, ``Do you favor expanding gambling 
to allow video poker and other forms of video gambling in the 
state,'' 34% yes, 66% no statewide. And in the Hudson area, 29% 
yes, 71% no.
    On the last question, asking whether or not the 
constitution should be revised to clarify that all forms of 
gambling should be prohibited except bingo, raffles, parimutuel 
on-track betting and the current state-run lottery, the entire 
state voted 59% to 41% to shrink gambling.
    The Hudson area voted 67% to 33% to shrink gambling. The 
only two questions--there were two questions on the ballot 
which asked whether the votes would like to wipe out gambling 
totally, and there the state voted no on one question by a 
narrow margin. But even in those two cases, the Hudson area 
votes voted overwhelmingly to wipe it out. So I simply want to 
make that statement to say that I have no idea what the 
internal actions of your Department were, but on the merits on 
the issue, you made the right choice.
    We have, I think, a serious problem in this country where 
anytime a gambling high roller decides he wants to expand his 
profits, he can go to a tribe and say hey, why don't we work it 
out so you can buy a piece of land that has nothing whatsoever 
to do with the reservation, which is hundreds of miles away, 
take it off the tax roll, give it to the tribe, and what have 
you got?
    You have a new gambling casino. I have one tribe, the Ho-
Chunk Tribe, which is at least 100 miles from the community in 
question. They wanted to take a piece of land into trust and 
put a gambling casino on it two blocks from a school in my 
district.
    I strongly support the concept of tribal sovereignty, and I 
support the ability of tribes to be able to recapture their 
land on their original reservations so that they can have a 
sensible economic entity. But I think we have a real problem in 
this country when you can have huge financial interests 
manipulating the right of tribes to engage in this legitimate 
rebuilding of their reservations for the purpose of making huge 
profits for somebody who has no relationship to the tribe--
except that he is trying to use them to establish profits for 
his own business.
    So I do not know how events are going to proceed legally, 
Mr. Secretary, but I am mad enough on this question to simply 
tell you that I think that you did the right thing. The people 
of the State of Wisconsin certainly believe you did the right 
thing.
    The congressional delegation certainly thinks you did the 
right thing. And most certainly the people in the community of 
Hudson think you did the right thing because they removed from 
office every single official who was on the side of granting 
the tribe that ability to establish that casino.
    And I just wanted to say that because I am hot under the 
collar on it and I wanted to get it off my chest.
    Secretary Babbitt. Thank you.
    Mr. Yates. Mr. Secretary, the first time Mr. Obey ever got 
mad. [Laughter.]
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. With that great introduction, Mr. Secretary, 
great to have you here.

                 environmental groups in the southwest

    I note that we have an increasing frustration by the action 
of the so-called environmental groups in the southwest, and I 
would like to ask that in your Southwest initiative outreach 
effort on endangered species issues that groups which threaten 
to sue and collect legal fees over and over with the designer 
ECA Environmental Species Act lawsuits, not be invited to 
participate.
    These groups have made it clear through their words and 
actions that they do not want to see these issues resolved. And 
they have also made it clear that they will not be happy until 
all but the environmental elite are fenced out of the public 
lands and forests.
    Having said that, I will be waiting for details on your 
initiative for the southwest endangered species crisis.
    As a follow up to that displeasure, the Department's 
failure to appeal many of these Environmental Species 
lawsuits--as you are aware, the 9th Circuit Court does not have 
a very good record on appeals with the Supreme Court. Also, by 
not appealing and accepting the lower court adverse decisions, 
you open up a whole new funding stream for these so-called eco-
legal terrorists in the southwest. It is quite a group.
    As I recall in one case, even though the Department's 
position was in opposition to identifying critical habitat, 
because it would not add one bit of protection to the Southwest 
Willow Flycatcher, they still decided not to recommend an 
appeal. And the Department expended funds for an effort that 
did not benefit the species at all.
    And as I understand it, in many of these cases the 
plaintiff then is allowed to collect legal fees which they use 
in turn to turn around and file another designer lawsuit. And 
this leads to the belief by the victims of the eco-legal 
terrorism that you are working hand in hand with these groups.
    I realize that this is not the case because you and I have 
had great conversations about this issue before. But there is 
widespread belief in the southwest of this type of collusion, 
and I would like to have your comment and assurance that this 
is not the case.
    Secretary Babbitt. Well, Mr. Skeen, it is not the case. And 
again, I am astonished at the tone that this hearing has taken. 
I must say I have been over here for--this is the sixth year I 
have been here, and I do not----
    Mr. Skeen. You should be used to it by now.
    Secretary Babbitt. Well, no, frankly, I do not recognize 
what is going on here today. Clearly quite extraordinary. We 
have yet to discuss a budget issue of any kind. I do not know 
who orchestrated this, but something is going on.
    Okay, now, in the spirit of your question, I must say that 
I am administering the Endangered Species Act according to the 
law. I am proud of the record that we have put together. We 
have introduced a great variety of innovations that I think 
have won a lot of acquiescence in the business community and 
the timber community.
    Any implication that we are colluding with environmental 
groups, I must say, is (a) false; and secondly, I resent the 
implication.
    Mr. Skeen. I understand that, but that feeling is there and 
I want to let you know that it is there because you did not 
appeal some of these cases. It gives the impression----
    Secretary Babbitt. Mr. Skeen, the decision not to appeal is 
made by the solicitor and it is made in accordance with 
myjudgment of the best way to administer this law.
    Mr. Skeen. But it is also funding a stream of legal 
response that goes to the same question once again, that the 
environmental groups over there get paid for putting these 
lawsuits together.
    Secretary Babbitt. Mr. Skeen, the provision for attorney 
fees is in the law. It was passed by the United----
    Mr. Skeen. I understand that.
    Secretary Babbitt [continuing]. States Congress.
    And if you have a problem with people collecting attorney 
fees, rather than an innuendo against me, you might examine the 
law.
    Mr. Skeen. We are not presenting innuendo--this is bare-
faced fact.
    I will submit additional questions for the record.
    Mr. Regula. Yes, we will have another round.
    Mr. Skeen. Thank you.
    Mr. Regula. Let me assure you, Mr. Secretary, there is no 
orchestration here, and these questions do have relevance. A 
$50 million deal in Tahoe has some budget implications.
    Mr. Skaggs.

                    environmental groups in colorado

    Mr. Skaggs. Maybe I can provide a quick antidote in that 
there are some environmental groups in Colorado that are 
worried that we may be end running the Endangered Species Act 
by current efforts to deal with a working group looking toward 
a habitat conservation plan on the Prebles Meadow Jumping 
Mouse.
    So there is some concern even from the environmental side 
that the administration of the Endangered Species Act may not 
be rigorous enough by the Department.
    And not that you need to comment on that, but I do hope 
that as we get down toward mark up, the effort that the 
committee was kind enough to make to allocate a little bit of 
money to try to avoid the proverbial train wreck in this 
particular pending listing matter will be continued, because it 
is far preferable and your leadership in trying to avoid 
confrontational incidents with the ESA I think has been a very 
healthy and welcome one.
    I do not know whether you wish to comment.
    Secretary Babbitt. Mr. Skaggs, I think the issues that you 
referred to are really ripe for the very kind of effort that we 
have made in southern California and the northwest and 
elsewhere.
    I was in Denver yesterday and heard a great deal of 
discussion about this, and it seems to me that we ought to be 
able to work this one out. Whether or not there is a listing, 
there is a problem, and I believe we have the tools at hand to 
work it out.
    Mr. Skaggs. You bet.

               prioritizing maintenance and construction

    I wanted to pick up on one of your opening comments about 
how you have prioritized the maintenance and construction 
budget as a function of health and safety risks. I hope it is 
not the case, but I wanted to ask you whether there comes to 
mind any instances in which that scheme of prioritization may 
get in the way of what needs to be done to preserve 
particularly historic structures that are in decay.
    And those being irreplaceable, the question would then 
possibly arise whether we need to examine exactly what the 
prioritization scheme ought to be.
    Secretary Babbitt. Congressman, I think it is a fair 
question. What we have done with these lists that have been 
submitted is set up the matrix and laid out the priorities. I 
would guess that in most cases, if an historic structure has 
fallen into that state of disrepair, it is probably bumped into 
the health and safety category for obvious reasons.
    Mr. Skaggs. Perhaps Mr. Berry, who I know is superintending 
this effort for you, could see whether there are any of those 
sorts of trade offs that we ought to be aware of.

                              ellis island

    I recently had a chance to visit Ellis Island for the first 
time since I left the New York area as a boy and was just 
stunned by its power and effect, and also by the fact that the 
Park Service, for all of its good work there, and while doing 
substantial renovation, has much left to be done.
    There is no fee charged at Ellis Island. It would seem to 
me that this might be a real likely candidate for our efforts 
to invite the public to help with the kind of work that 
obviously still needs to be done at Ellis Island.
    If the group that I was with is any measure, I think people 
wish that they had been asked to contribute because it was 
clear that this was a place that needed even more attention, as 
beautiful and meaningful as it already is.
    Secretary Babbitt. Mr. Skaggs, we have had a vigorous 
discussion about the Ellis Island issue. It is complicated by 
the fact that visitors already pay--I think it is a seven 
dollar fee on the circle line to get out there.
    And there is a sense among many members of both the New 
York and New Jersey delegations that that is an adequate price 
to pay. It is mostly transportation. But the fact is, it is 
tantamount to an admission fee because it is the only way to 
get there.
    We have not managed to find a consensus on that.
    Mr. Skaggs. Do you need permission to make voluntary 
contributions available or a place for visitors to do that as 
we do at the Smithsonian?
    Secretary Babbitt. No, we do not, and there are in a fair 
number of parks those kinds of----
    Mr. Skaggs. I think that would be a----
    Secretary Babbitt [continuing]. Facilities. That is a good 
suggestion. I would be happy to have a look at it.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Yates. What is the state of the bridge?
    Mr. Skaggs. What is the state of the bridge, Mr. Yates 
inquires.
    Mr. Yates. So you do not have to have the circle trip 
there.
    Secretary Babbitt. Well, the bridge was built to----
    Mr. Yates. From land to the island.
    Secretary Babbitt. It was built from the New Jersey side to 
facilitate construction.
    Mr. Yates. Right.
    Secretary Babbitt. There is a vigorous difference of 
opinion as to whether or not--the bridge would need a lot of 
upgrading if it were to become a permanent facility, and I 
believe that the New York delegation is very strongly opposed 
to that.
    Mr. Regula. Mr. Dicks.

                       habitat conservation plans

    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Secretary, I want to welcome you here today. I want to 
thank you and appreciate your efforts on the northwest timber 
plan. We, I think, made some considerable progress, and I 
appreciate the fact that the Administration was willing to 
extend this beyond the first five years in terms of the 
Community Assistance Program and to work on watershedsand--all 
of which will not only help us in terms of the habitat for the Spotted 
Owl and Marbled Murrelet, but in our efforts to restore salmon runs, 
which is very important.
    One of the things in your budget and that I have strongly 
supported, and I think is one of the best ways to deal with 
many of the endangered species issues, is Habitat Conservation 
Plans. In my State of Washington, we had the first multi-specie 
HCP done on the lands of Murray Pacific.
    I know you are very well aware of this, and may have been 
there when we actually signed that agreement. And I notice that 
you are trying to expand that effort, and there has been some 
resistance from the environmental community on this.
    Can you tell us where the Administration is on HCP's and 
how you see the future for them?
    Secretary Babbitt. Congressman, I believe that the Habitat 
Conservation Plans and the Conservation Agreements, which is 
sort of a pre-listing version of it, are really the future for 
the Endangered Species Act because it addresses the problem of 
how you reconcile species protection with the land owner's 
expectation of a reasonable economic return.
    The Pacific northwest has really been the proving ground 
with Murray Pacific, Plum Creek, Weyerhauser, and a variety of 
other timber companies. What we have managed to work out is an 
accommodation in which the timber companies make some 
concessions about the length of the rotation, maintenance, 
stand structure, buffers along streams.
    The Fish and Wildlife Service and marine fisheries then 
agree to issue a so-called takings permit, which simply 
acknowledges that there may be some inadvertent taking of the 
species. It is working in an urban context in southern 
California now, and I think we are going to see it increasingly 
with the salmon runs that are now candidates in the Pacific 
northwest.
    Our hope was that we could get a reauthorization bill that 
would, in effect, sanction these in legislation, but I do not 
know whether that will happen or not.
    Mr. Dicks. Does the Administration remain committed to the 
``no surprises policy?''
    Secretary Babbitt. Congressman, the answer from this member 
of the Administration is yes. Because there is no other 
incentive for a land owner to enter into a Habitat Conservation 
Plan if it is open ended and the agencies can come back, say, 
in a year or five years or whenever and take a second, third, 
or fourth bite at the apple.
    There is a good debate going about the experience and the 
conditions with no surprises. How long should a Habitat 
Conservation Plan run? Is 100 years too long? Fifty? Thirty? I 
think it depends on whether it is resource extraction or 
subdivision development or whatever.
    There are some questions that have been raised about 
monitoring, about the use of science. These are all fair 
questions, and we are learning as we go. Again, we kind of 
started from ground zero.
    Mr. Dicks. The only criticism that I have heard that 
troubled me a little bit was the question about--that some of 
the university professors had raised recently in an article 
suggesting that maybe there was not enough science underpinning 
these HCP's.
    And my experience with them is that the people who are 
working on these things at the Fish and Wildlife Service are 
very trained and skilled biologists. I kind of resented the 
implication that somehow there was not a good scientific 
underpinning.
    I think that is one thing we need to make certain that we 
can explain to the public is that there is good science behind 
these HCP's.
    Secretary Babbitt. Yes, I think we can do better on this. 
But I think the understandable tendency of professors is to say 
there is never enough science because we never have a perfect 
understanding of an ecosystem, and on the margins judgments 
have to be made.
    But I think we can do better, and I think we can learn from 
those kinds of critiques.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Miller.

                   coordination of everglades project

    Mr. Miller. Mr. Secretary, hi.
    I am not in the Everglades area of Florida, but I am close 
by and have a special interest in it. I was with Mr. Regula 
when we visited the Everglades in January, and it was a very 
educational. We spent two days down there.
    I have to commend the Administration, actually Congress 
too, for giving a high priority to trying to address the 
problems of the Everglades, which are caused by a variety of 
things from development to agriculture and such.
    One thing I learned was how complicated the whole process 
is. It is something like--is it 23 different Federal, State, 
local, and regional agencies involved? I mean, at the Federal 
level, the coordination between the Corps of Engineers, the 
Bureau of Indian--BIA to, the Park Service is amazing.
    At this stage how do you feel we are doing with the 
coordination of the Everglades project?
    Secretary Babbitt. Congressman, I think it is a remarkable 
phenomenon down there. I think it is probably the first time, 
certainly in my knowledge, that we have had agencies working 
together on this scale.
    The Corps of Engineers and the Interior Department are 
obviously kind of the lead, but everybody else is in--
Agriculture, the Bureau of Indian Affairs because of the 
Miccosukees and the Seminoles--it goes on and on and on.
    How do you get coordination? I think the answer is a 
mandate from the top to the agencies. In this case, that was 
really the Vice President at the Federal level and the governor 
at the State level, and I am quite satisfied that we are all 
moving together.
    Mr. Miller. You mentioned a couple of possible problem 
areas. One, we have lost about half of the Everglades also and 
we are never going to totally recover from that. But, control 
of water down there as water flows through the Everglades.
    We have had a lot of success in the restoration of the 
Everglades recently, but it is mainly because of heavy rains 
over the past number of years. We have had a lot of rain in 
Florida.
    Secretary Babbitt. Too heavy.
    Mr. Miller. Yes, too heavy. But it has helped increase the 
flow of water through the Everglades. And then, of course, all 
the land acquisition is going to help in the future.
    But one concern is, who is going to control the water? I 
mean, we have the Corps of Engineers versus the Water 
Management District--South Florida Water Management District. 
But the Interior Dept. is not part of that.
    It is really outside of your controlbecause there are two 
different agencies responsible. Does that put us in a secondary 
position because we are not involved? Controlling water is one of the 
keys to the successful restoration of the Everglades.
    Let me ask you that question. How much of a concern is 
that?
    Secretary Babbitt. Well, I think the existing law is okay. 
What it basically does is recognize, as I think is appropriate, 
that the primary management of the water resource is a State 
function, which in this case, is by the South Florida Water 
Management District.
    The Federal Government should not be making broad scale 
allocation issues. The Corps of Engineers gets into this 
because, in a typical flood control project like the one that 
is on the ground in south Florida, there will be a master 
agreement laying out how the project is to be operated to meet 
the multiple objectives.
    So my view is that that is appropriate.
    Mr. Miller. What happens if you get into conflict--you 
know, with the development--they need more water for the people 
living down in Broward County or Dade County versus, you know, 
the concerns of the endangered species, the sparrow, the 
alligators, what have you?
    Who is going to make the choices? How are we going to make 
decisions versus development for drinking water?
    Secretary Babbitt. Well, there is a very interesting 
example of that going on right now. We have too much rain in 
Florida. Rain is now backing up in the water conservation 
areas, and it is a system which is full of water and we are 
operating it kind of on the margins.
    The question is, who is going to take the hit if we step up 
our releases through the system? Will it be the wildlife in the 
east side of the peninsula, or will it be some flooding of 
roads and some infrastructure on the east side where the 
development is?
    Those issues have to be worked out between the Corps as the 
operator of many of the structures and the Water Management 
District. Now, they refer to Federal and State law. So we are 
involved because the Endangered Species Act obviously sets some 
guidelines on how that system ought to be operated.

                             talisman tract

    Mr. Miller. Well, obviously the answer has not--we have not 
reached that stage yet, but I see a potential conflict, you 
know, years in the future as to who is controlling for what 
purpose and what goal.
    Let me ask you a question about land acquisition. Lots of 
money is going to the Land Acquisition Fund, and there is a 
significant unobligated balance sitting there right now, and I 
think you requested another $80 million dollars.
    This year they are trying to finalize the purchase of the 
Talisman tract, which, of course, I think we all agree is 
critical down there, at least most of that land is critical. 
But the question is, when you start spending huge amounts of 
money and you announce the Federal Government is going to pay 
for it--and I know you talk about appraisals.
    It is hard to say what the value of swamp land is. Years 
ago, the developers sold swamp land and made a lot of money in 
Florida which was wrong, and we are having to buy some of that 
back, as you know, in some of those developments.
    But the rumor in Florida is that we may pay more for the 
Talisman tract than its worth. Now, it is sugar land and I do 
not know if we did or not. But you know, all of a sudden you 
say, ``Well, how do you know we are not overpaying for land?''
    And this goes back to the question Mr. Regula asked 
earlier. How do you know we are not getting a bad deal when the 
Federal Government says we are going to buy your land 
regardless?
    Specifically on the Talisman tract, do we feel comfortable 
we have not overpaid?
    Secretary Babbitt. Well, the issue of appraisals is always 
going to be controversial. The law makes it very clear what it 
is the Federal agency must do. You must get appraisals. And 
this Talisman tract, I think, has been appraised six ways from 
Sunday.
    The problem with appraisals is that they are not 
numerically objective coming out of a computer. An appraisal is 
a judgment. And beneath all of the stuff ultimately is 
judgment. It is hard when there are not a lot of comparables.
    The alternative is condemnation, in which effectively a 
judge or a jury makes the determination. So the appraisal has 
to be weighed by us against the pros and cons of using----
    Mr. Miller. Could I get a report verifying that you are 
comfortable with the valuation and that we are making a fair--I 
do not think that has been closed yet anyway. But as I say, we 
all agree on the goal of it, but the question is----
    Secretary Babbitt. Certainly.
    [The information follows:]

                Appraisal Report on the Tailisman Tract

    The Department of the Interior has reviewed the two-year 
old appraisal of the State and is conducting a current 
appraisal on the value of the Talisman tract. The Department 
expects to be able to provide the appraisal report to the 
Committees by June 1, 1998.

    Mr. Miller [continuing]. Are we really not overpaying for 
that. And I have a concern when you have multiple people 
contributing money to it because it is not just Federal dollars 
and such.
    Is my time up, Mr. Chairman, or do I have time for----
    Mr. Regula. We will be coming around again. And we will 
hold the record open for a submission of that.
    Mr. Yates.

                     relationship with subcommittee

    Mr. Yates. Mr. Secretary, you have been in office now for, 
what, five years, six years? A long time. Has the Department of 
the Interior prospered under your administration? Are there 
things that you want----
    Mr. Regula. Here comes a softball right across the plate. 
[Laughter.]
    Mr. Yates. Have you done everything you wanted to do, or 
are there things that the Department should have done that you 
would have liked to do? Have you received full cooperation from 
this committee?
    We have the impression that you have. And with that 
cooperation, were you able to do the things that you thought 
the Department needed?
    Secretary Babbitt. Well, Mr. Yates, notwithstanding the 
rocky start this morning, I must acknowledge gratefully that we 
have had a very nice relationship with this committee. I would 
say that----
    Mr. Yates. What do you mean rocky start?
    Secretary Babbitt. This morning?
    Mr. Yates. Have you had a rocky start?
    Mr. Dicks. You were not here at the beginning.

                          lack of legislation

    Secretary Babbitt. Well, we just had a vigorous discussion 
of a few items.
    I would say the most interesting thing to me over the last 
five or six years or longer is that, in these resource areas 
and environmental areas, there has been virtually no 
legislation, almost none.
    We have passed in six years two pieces of legislation 
involving my Department. That is it, other than sort of 
administrative and operational tidying up. Only two: the 
California Desert Protection Act at the end of '93 and an 
Organic Act for the Refuge System this past year.
    So all----
    Mr. Yates. Is that what you wanted? Or did you want other 
legislation?
    Secretary Babbitt. Well, I have proposed again and again 
and again each year a whole variety of issues relating to 
wilderness areas: reform of concessions in the National Park 
Service, reform of the mining law--to name a few.
    But there is not in the Congress in the 1990's a sort of 
direction or the votes to do that. In contrast, the things that 
we have done in this committee, I think, add up quite 
impressively. And that is why I deliberately highlighted these 
multi-agency regional restoration plans.
    This is a new chapter in conservation history, and we 
should not underestimate the importance of the Forest Plan, the 
Everglades, the Bay-Delta; these issues where we are bringing 
agencies together using the appropriation power; looking for 
stakeholder consensus, State match, and local participation.
    A lot of that is happening under the Endangered Species 
Act, and I think it is really quite remarkable. You know, the 
impetus comes through this committee because it is about money. 
It is not about new laws.

                           indian trust funds

    Mr. Yates. One of the things with which this committee was 
concerned, and I think has not yet been solved, is what happens 
to the Indian Trust Funds? We had been trying for years to find 
some procedure which would assure that the Indian interests 
were protected by an appropriate depositary.
    I do not think that the Department of the Interior has an 
outstanding record on this subject. It seems to me, oh, several 
years ago when we were attacking this problem that the Indians 
were losing a great deal of money as a result of what I thought 
was the mishandling of their trust funds.
    At least not being handled adequately, and that there was a 
lawsuit against the United States by the Indians for having 
mishandled their funds. What is the status of the trust funds 
now?
    Secretary Babbitt. Mr. Yates, I spoke briefly to that in my 
opening statement.
    We have made considerable progress. First of all, you may 
remember that we did set up a special trustee to deal with 
these issues three or four years ago.
    Mr. Yates. Right.
    Secretary Babbitt. And appointed a trustee who has now laid 
out a plan. It is a daunting task. It is 150 years of records 
which are in some cases there, and in some cases they are not. 
There is now litigation on all fronts.
    But the plan is now moving forward. It has essentially 
three parts. One is to get at the individual trust account. 
Second is to get at the history of the tribal trust funds. And 
the third is to sort of dredge up the past and sort it out to 
get information and data systems which can from here forward 
deal with it.
    Now, the information systems for the individual accounts 
are going to be put up on a trial basis in the Phoenix area, 
and rolled out to the remaining areas by March 2000.
    The reconciliation of past accounts is going forward. It is 
wrapped up very much in a couple of lawsuits. There is one 
thing I would like to get from this Congress on the authorizing 
side in which we have been unable to do, and that is 
legislation dealing with the fractionation of the allotments.
    This is simply the issue under the Dawes Act when they 
began breaking up the Indian reservations with individual 
allotments, which are all held in trust. And typically, say, 40 
acres which was allotted to an individualin 1890 has now 
descended through six or seven generations and is owned in common under 
existing law often by as many as two or three hundred people--tenants 
in common on 40 acres of land. Part of our record keeping problem is we 
spend, hypothetically, maybe ten or twelve dollars a year on each of 
those accounts and, in many cases, the accounts earn maybe five or ten 
cents a year as the sort of prorata share of a grazing fee on a piece 
of desert land.
    We need legislation to take care of that one.
    Mr. Yates. What is your appraisal or your view as to what 
the status of it is now? Are you on the way to achieving some 
kind of solution of this terrible mess?
     Secretary Babbitt. Yes, absolutely.
    Mr. Yates. Thank you.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Secretary.
    Before I ask two questions, let me convene the bipartisan 
Sidney Yates fan club--again, I was reminded a moment ago that 
this is one of the last times, if not the last time, that Mr. 
Yates will have the distinguished Secretary of the Interior 
come before this subcommittee.
    And for a person who spent the first half of my life as a 
Democrat and the second half of my life as a Republican, I just 
want to say again you are a class act and we are going to 
sorely miss you. You are a real credit to this country.
    I appreciate your tutelage here in just the short time that 
I have been here, and I want to recognize that again.

               park service construction and maintenance

    My two questions, Mr. Secretary, both had bipartisan 
concern expressed as we had two hearings----since your last 
appearance here, we had two hearings where there were some 
bipartisan concerns expressed around the Park Service 
construction problems such as the infamous outhouses and the 
employee housing that ran too high.
    And through that, the IG and the GAO exempted any 
accusations towards the Denver Service Center, but they did 
identify what they called serious management problems at the 
Park Service. I just want your assessment of that, what is 
being done to improve the management of the Park Service--that 
is question one.
    And question two is another hearing we had about 
maintenance backlog where three agencies under your purview--
BLM, Fish and Wildlife, and the Park Service--were unable to 
clearly articulate a definition for backlog maintenance.
    There were new construction projects like visitor centers 
and land acquisition that were included in the backlog 
maintenance budget. And we are trying to make sure that there 
is adequate funding to address backlog maintenance, yet no one 
could really put their finger on how they determine backlog 
maintenance.
    It looks like there are a lot of new things being thrown in 
there. I think it is fair to say at both hearings, there was 
bipartisan concerns about those two issues. So if you could hit 
them both, please, sir, and thank you for coming.
    Secretary Babbitt. Mr. Wamp, I will take the second one 
first because it is, I think, the easiest one. We have put 
together, at the urging of this committee which recognized the 
problem, a prioritized list of every maintenance repair and 
rehabilitation issue on all of the land agencies. It is real, 
it has been scrubbed down, and I believe is the appropriate 
starting point for this.
    If we can, working together, keep the available funds 
focused at this list without too much leakage out to special 
priority projects and keep from inflating the construction 
budget because of member requests and stay with this--I 
recognize the reality, but your criticism in years past was 
well founded. I believe that John Berry is going to do a staff 
briefing for the appropriation subcommittees on both sides on 
the response that we have prepared, and I believe you will be 
satisfied. We have really made a major effort, and I think it 
is a quality result.
    Mr. Yates. May you yield, Mr. Secretary?
    I just want to say thank you very much.
    Secretary Babbitt. You are welcome.
    With respect to Park Service construction, we are kind of 
at the front end of dealing with this problem. Let me first see 
if I can kind of explain why I think the problem arose, just 
very briefly.
    Some years ago the Park Service set up the Denver Service 
Center as a way to kind of rationalize and utilize architects, 
engineers, estimators, impact statement writers, all that sort 
of stuff.
    It was a correct thing to do. But what has happened, and I 
think you can understand, is that with two centers of decision 
making, things kind of fall between the cracks. The 
superintendent at Yosemite National Park says the Denver 
Service Center, which reports to Washington, is overseeing 
this, so I do not need to spend quite as much time out looking 
at that housing thing.
    The Denver Service Center, because of its budget structure, 
has a different set of priorities which are not quite as 
tightly linked to the budget as the superintendent of the park.
    Everything kind of falls in the cracks. We have 
commissioned a study by the National Academy of Public 
Administration and it is underway. And you and I know that the 
National Academy of Public Administration is not the answer to 
every problem, but I think it is a good starting point.
    We recognize the problem. That study will be final in June, 
and we are prepared to act on the recommendations and discuss 
them with you and tell you what we can get from it. Because it 
is a problem. I mean, it is absolutely undeniable.
    Mr. Wamp. Let me just point out in closing that we were 
looking for a person that would either accept responsibility or 
that we could determine was responsible, and there was no one 
to be found. And there are agencies in the Federal Government, 
and I will just use the Post Office, for example.
    Marvin Runyon accepted the accountability at the Post 
Office I think up and down the line. I think that is 
commendable and they are going in the right direction. I would 
really encourage that, that we improve the management 
practices.
    I would commend you for the things you are doing well, but 
there is still much more to be done. I will come back on the 
next time around.
    Thank you.
    Mr. Regula. I would say, Mr. Secretary, I think the NAPA 
report requested by this subcommittee onstudy of the Denver 
Service Center will aid us in addressing the accountability problems.
    Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Secretary, I certainly do not want to be 
confrontational here, but I do think--I just feel compelled to 
say--that the comments you made to Mr. Skeen were really 
uncalled for. I do not think you can find in the evidence that 
there is an orchestration or anything here.
    I do not think you would suggest that Mr. Obey's comments, 
which immediately preceded, were orchestrated by the chairman 
of this committee. So, I just do not think that is correct.
    I also think that it is a legitimate oversight function of 
this committee to ask questions about policy, to ask questions 
about exchanges or any of the other multitude of legislation 
that comes under the jurisdiction of your agency.

                   del webb corporation land exchange

    So I just wanted to get that off my chest. I do have some 
budget questions, but I do have just one question. Frankly, I 
do not think that Wall Street Journal article is terribly 
unfair to you.
    It raises some legitimate questions about the whole process 
of appraisals and it raises some legitimate questions--or 
perhaps you may think they are not legitimate questions--about 
the Department and the way appraisals and exchanges are 
handled.
    I have been through enough of these exchanges. I know the 
difficulty of this. I know the problem that exists in Las 
Vegas, the lack of land that is available up there.
    But just one question that I did want to ask on that, 
because the only thing in there that in any way involves you, 
it seems to me, is the question about whether or not the 
priority list was approved by you, and I think that is an 
accurate statement. Is it not true?
    Secretary Babbitt. Mr. Kolbe, here is the problem with that 
and why I find it so absolutely outrageous.
    I came to work for the United States Government in January 
of 1993. Now the ethics rules, as I understand them, say that 
you must recuse yourself for one year on matters where you had 
some connection.
    In this case, I had done some work for the Del Webb 
Corporation. The issue is recusal for one year.
    Mr. Kolbe. And you have continued to recuse yourself even 
beyond that.
    Secretary Babbitt. My point, Congressman, is that there is 
no requirement of any kind beyond one year. And in year five, 
in an excess of caution, no requirement of any kind, I have 
still recused myself. This guy comes along in year five and 
says, ``Ah ha, but in year five, you were a party to a 
discussion in which some broad scale decisions were made about 
land exchanges in Nevada.''
    Now, I have to tell you, I really resent being smeared on 
the front page of the Wall Street Journal five years later when 
the recusal requirement expired after one year.
    Mr. Kolbe. I am not going to pursue this, Mr. Secretary. It 
was three years, January '96, exactly three years after.
    Secretary Babbitt. Three years.
    Mr. Kolbe. But it was--you are correct. And you have 
continued to recuse yourself for the obvious reasons.
    Secretary Babbitt. But the reasons are not even obvious. I 
have done this----
    Mr. Kolbe. Well, they must have been if you decided to 
recuse yourself.
    Secretary Babbitt. Well, I am trying to be as careful as I 
possibly can.
    Mr. Kolbe. I understand that.
    Secretary Babbitt. Had I not recused myself, presumably, 
they would have been satisfied, and I simply do not understand 
the results. And that is why I tend to get excited when this 
article is waived in my face.

                          streamlining savings

    Mr. Kolbe. Mr. Secretary, on the budget, you have said in 
your statement that you have aggressively streamlined the 
agency and reduced headquarter staff management layers, 
reengineered processes; you have improved efficiency 
effectiveness of customer services, and I think that is all 
very, very good and well.
    I assume from all of this you have saved some money. Do you 
have any way of quantifying for us what you think you have been 
able to save for the Department? Is there any way to quantify 
that?
    Secretary Babbitt. Could I give you an example?
    Mr. Kolbe. Yes, I was--okay, sure.
    Secretary Babbitt. I would like----
    Mr. Kolbe. That does not quantify it, but----
    Secretary Babbitt. I had some discussions with the 
committee last summer when a great crisis arose about Menlo 
Park and its facilities and the Geological Survey. You may 
remember this thing erupted onto the front page of the 
newspaper because I had had the temerity to go out to Menlo 
Park and say these rentals are outrageous, and I am going to 
move the GS out of Menlo Park unless we can do something.
    Maybe we will move them to Arizona. We were back in Menlo 
Park last week. We have done a down sizing there. We have 
struck a rent stabilization agreement with the GSA, and it is 
going to save us about $50 million over the next ten years.
    Now why is that important? Because we were willing to rock 
the boat. A lot of people got excited and that has to be done.
    Now, can I answer your question directly? It is awfully 
hard. We abolished the Bureau of Mines, so I can give you 
savings there. I do not remember what their yearly budget was.
    Mr. Kolbe. I understand.
    Secretary Babbitt. Eighty percent of that is gone.
    Mr. Kolbe. I understand the difficulty of quantifying this. 
That is the reason I was trying to come around to this 
question. You have got a $461 million dollar increase over last 
year's appropriations. And really, what I am trying to say is 
actually the budget increase is clearly larger than that if you 
include these savings. I mean, you are not only able to apply 
those savings, but then you have a budget increase.
    And I was trying to get some handle on what is the real 
increase we have in this budget.
    Mr. Dicks. Does that take into account inflation?
    Mr. Kolbe. Inflation has to be a part of that obviously. 
Labor costs and so forth, that all is a part of that. But I am 
trying to get an idea what the real increase is.
    Secretary Babbitt. Well, that is an interesting question, 
and frankly I do not know whether we could give you a little 
more specificity. Maybe we could.

                       year 2000 computer problem

    Mr. Kolbe. I think my time is about expired, and I will ask 
some questions for the record. But I want to go on with a 
question or a statement to you about an issue I have been 
dealing with in the subcommittee that I chair, and coming to 
realize the complexity and the difficulty of this--about the 
year 2000 computer problems.
    Is this a priority for you? What are you doing personally 
on this issue in your Department, and what are the problems you 
see that you face, and how are you dealing with them?
    Secretary Babbitt. It is a fair question, an important 
question. We are dealing with it in a variety of ways. I think 
what I really would like to do is write you a letter in 
response to that because the Interior issues are somewhat 
different.
    We do not do much entitlement or check writing, and our 
computer systems tend to be focused a little more narrowly.
    Mr. Kolbe. We are finding in every agency that did not 
think they have a problem there are enormous problems.
    Secretary Babbitt. Well, that is why I would like to write 
you a letter because I agree.
    Mr. Kolbe. Everything that has a date in it has to have a 
change, and it is a tremendous problem. We are finding some 
agencies are on top of it, and some are not.
    Mr. Secretary, I will submit a series of questions. If you 
could just respond to those, it would be very helpful to me.
    Secretary Babbitt. Okay, I am notified by Mr. Berry that we 
have just been moved into the ``best'' category by OMB for our 
plan.
    Mr. Kolbe. Good. So you are on target for March '99.
    Secretary Babbitt. Oh, I think so.
    Mr. Kolbe. I will submit a series of questions.
    Secretary Babbitt. Now, there are some surprises out there, 
and everybody who says they know they are on target for '99 had 
better qualify.
    Mr. Kolbe. Thank you.
    Mr. Regula. Mr. Nethercutt.

              interior columbia basin ecosystem management

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    I found your comment interesting a little while ago that we 
will never have a perfect understanding of ecosystems. I could 
not agree with you more, and I think an example on the ground 
of that comment is right in the Pacific Northwest, with the 
Interior Columbia Basin Ecosystem Management Project.
    As you know, we have spent some $30-plus million on the 
study. We have urged your Department, others within your 
Department, and other agencies, to extend public comment 
periods, so we can understand the economic consequences to the 
regions, the rural forested regions of my state and other 
states. I commend those agencies for extending that comment 
period.
    I see in the budget request that there is a request that 
looks like, another $25 million, not to say another $10 million 
beyond--for the Forest Service, that is requested for this 
project. I understand you made some reference to it earlier in 
your testimony, and I am sorry I missed that. But my 
understanding is that you said the project is intended to--
departments must go forward to avoid litigation.
    I have been concerned about the implementation costs of 
this project and this study and so-called body of science that 
is out there, and what it will do to the lifestyle of the 
people of the Pacific Northwest, the people of my district, for 
example, in Colville, who have a production economy using the 
forest in a balanced way to run those communities.
    And so my question is, how much more money do you believe 
the agency will put into this particular project? If the $25 
million that I have alleged is correct--I would appreciate your 
confirming that if it is not--then I would be happy to be 
advised of it.
    Second of all, I think your Department is going to have 
some difficult challenges ahead in the implementation of 
whatever decision comes out. It looks to me like the natural 
consequence of not having enough money to implement whatever 
the decision is, will have a no decision effect, which will be 
a decision that will negatively impact my region and other 
western states.
    So I would appreciate having your thoughts on it, as well 
as the explanation of the funding request for this next fiscal 
year.
    Secretary Babbitt. Okay. The $25 million I think is BLM and 
Forest Service. I think our increase this year is $8 million, 
but it is a lot of money.
    Mr. Nethercutt. It is BLM and Fish and Wildlife Service.
    Secretary Babbitt. That is right. That is correct.
    Mr. Nethercutt. Forest Service comes under USDA----
    Secretary Babbitt. Yes.
    Mr. Nethercutt [continuing]. But I think it is $10 million 
under Forest Service, under the Ag budget, about $1\1/2\ 
million for Fish and Wildlife, and about $22 or $23 million----
    Secretary Babbitt. That sounds about right, yes.
    I recognize that there does not seem to be much enthusiasm 
for the alternatives that are in the draft impact statements 
from either the environmental group or the industry. I mean, 
this is a process in search of friends to join its one 
defender, who is now talking to you.
    Mr. Nethercutt. There are times when I wish you would 
recuse yourself on other things, Mr. Secretary. [Laughter.]
    But anyway----
    Secretary Babbitt. My approach to this is simply this. The 
alternatives are worse, in my judgment. If we abandon this and 
lapse back into the traditional pattern of land management, one 
plan at a time, decisions in isolation, we are going to get 
back into the specific rivers kind of litigation where there 
will be injunctions against activities for failure to factor 
the cumulative impacts across the landscape. So it seems to me 
that calls for a coordinated response. If this one is not 
right, we have got to find the right one.
    Now, let me say a word about the costs. As I read the 
restoration alternatives, there are some big numbers here. They 
are principally for forest restoration and stream restoration. 
Now, I think the forest restoration has got a lot of positives. 
First of all, the money is all jobs, trying to get these 
forests thinned out and get fire back on the land.
    There are also forest products that come out of this. They 
are not the traditional forest products, but you can see, I 
think, up in the Blue Mountains and in Oregon--and presumably 
in your part of the country--some industries which are 
retooling to take a different kind offorest product. If we 
could get this restoration underway on a broader basis, I think it has 
some potential to support local wood products industries.
    They cannot do it on their own because the bottom line is 
this stuff is not economical if they are bearing all of the 
costs of restoration in terms of preparation and some of the 
thinning. That is the bottom line. It has to be subsidized by 
this kind of restoration effort.
    So I would argue that this is not about resource jobs, the 
present, or nothing. I think it is a more mixed kind of thing. 
It is about a transition in which there will be a resource 
economy. It will be a different one.
    Mr. Nethercutt. It sure will be a different one, because 
the levels of harvest are so low under the plan, and the 
mentality in my region is that the Department of the Interior 
is seeking to move people from the forests and the small timber 
communities into the cities and retraining for, you know, 
waiter jobs, not retraining within the context of what these 
people know and where they want to live.
    So I am not going to assume that that is your policy, but I 
do not see anything in the study that is going to stop one 
lawsuit if someone does not like what the decision is. I do not 
see it anywhere.
    Secretary Babbitt. Well, I would respectfully differ with 
that, and my evidence would be the forest plan in the 
northwest. There is no litigation of any significance going on 
on the west side of the Cascades now. And the reason is that we 
put a big plan up front, took it in front of a judge, and got 
it approved.
    Mr. Nethercutt. I understand. And I heard your comment 
about HCPs, and generally I can agree. But there is a 
tremendous cost to that. I mean, those people that you 
mentioned who got their HCP spent literally millions of dollars 
dealing with your agency--and I do not mean that 
disrespectfully--dealing with Interior agencies costs them a 
fortune to do it. Little guys cannot do that.
    Secretary Babbitt. Little guys----
    Mr. Nethercutt. Big ones can.
    Secretary Babbitt. Little guys cannot do it. What we have 
to do for the little guy is put out a boilerplate kind of 
product which says, you know, ``Here is a set of guidelines. If 
those are workable, go do it.''
    Mr. Nethercutt. Thank you.
    Mr. Regula. Mr. Moran?
    Mr. Moran. Thank you, Mr. Chairman.
    My colleague here, Mr. Dicks, had mentioned that his forest 
lost 98 percent, so there are some other points of view on 
this.
    But first of all, I want to tell you, Mr. Chairman, what a 
great job you are doing. Because from day one, you have proven 
to be a terrific choice. You have the guts and the integrity 
and the intellect we need as Secretary of the Interior, and you 
have used that to guide this Department in a principled, common 
sense approach, in my estimation. I want you to understand that 
a lot of us appreciate the difficulties that you encounter, and 
we are proud of the job that you are doing.
    I am glad that David Obey gave you credit for making the 
right decision on that casino issue in Wisconsin. And that 
Republican candidate for State Senate who politicized that 
issue so much, he discredits the other Indian tribes that I 
think are very legitimately pursuing gambling interests.
    You know, the American law has worked throughout most of 
American history against the interests of Native Americans, and 
so it does not bother some of us that it finally is being used 
in their interests. We think you did the right thing.

                     watershed restoration efforts

    Let me get back to an issue here that probably would not 
come up if I did not mention it. But you have talked in your 
testimony about the watershed restoration, the fact that the 
Vice President is leading this effort to celebrate the 25th 
anniversary of the Clean Water Act by funding these watershed 
restoration efforts in local communities and watershed 
councils, and your budget includes an additional increase for 
the U.S. Geological Survey to participate in that.
    They evaluate the impacts of pollution and non-point 
sources of pollution, Pfiesteria in the Chesapeake Bay, and so 
on, and you have additional funding for the Bureau of Land 
Management, for Office of Surface Mining, the Fish and Wildlife 
Service, to improve the quality of watersheds.
    What I want to get at is that since EPA is the primary 
agency for these efforts--and, in fact, they started this 
unprecedented effort to get manure out of our rivers and 
streams by regulating large livestock farms, just like 
factories and other waste-producing industries--that regulatory 
effort will affect, in a very positive fashion, those 
communities that are living downstream, obviously. But is EPA 
using the data that the U.S. Geological Survey is gathering? 
Because they have some great data, and there is a lot of effort 
going on across the Federal Government in this area. Do we have 
an umbrella coordination mechanism so that you are able to give 
the EPA the data it needs rather than repeating the effort over 
in their budget? How are we coordinating this and making it 
most efficient and using the good work that your various 
agencies are doing in pursuit of this initiative that the Vice 
President talked about?
    Secretary Babbitt. Congressman, I think that is a 
perceptive question, because I think of the USGS as doing the 
research out on the ground and EPA as formulating the 
regulatory response. I think at the field level, out of the 
regional offices, the level of coordination and use is really 
very, very good.
    I would like to think a little more about whether or not we 
ought to be doing more at the top level to examine our budgets 
and see how they relate to each other and to ask whether or not 
we are doing the right job of setting longer-term priorities in 
terms of their regulatory need. So there is a nice example of 
that coming up right now with all of this farm stuff.
    Mr. Moran. Yes. I have a suspicion that EPA is trying to 
reinvent a lot of wheels over there to carry out this 
initiative when you have much of the data and you have the 
professionals. And while they may be working at the local 
level, it does not appear that we have the kind of coordination 
we need at the top level.
    So thank you. I have some stuff on the Endangered Species 
Act, but I am not going to get into that. We probably have 
gotten into that enough.
    Do I have time?
    Mr. Regula. You have a couple of minutes.

                      disaster information network

    Mr. Moran. A couple of minutes. Well, thank you, Mr. 
Chairman.
    You are setting up a new disaster information network 
within the U.S. Geological Survey. Tell us a little abouthow 
you are going to work with the local communities in advance of natural 
disasters.
    We are finding with El Nino, obviously, that this is 
becoming a concern for a whole lot of communities now across 
the country, and particularly those who are located in more 
active natural hazard areas from the impact of storms and the 
loss of life we have seen in Florida and other States.
    You are trying to set up this multi-agency integrated 
program office, it said in the budget, and you put in an extra 
$15 million. Again, this is a similar kind of issue. We have 
FEMA over there, and we are setting up something here, but the 
objective is the same. The professionals seem to be coming from 
the same level of knowledge and interest. How are we 
coordinating at the federal level? What needs to be coordinated 
at the local level?
    Secretary Babbitt. Mr. Moran, before I answer that, I would 
like to respond to Mr. Kolbe's comments and say that I did not 
intend to impugn Mr. Skeen personally, and I have written him a 
note to that effect, because I admire him enormously. We have 
had a strong and mutually productive relationship, and I just 
want Mr. Kolbe to know that I have responded to his comments.
    Mr. Skeen. Thank you.
    Mr. Chairman.
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. Thank you very much, Mr. Secretary. There is no 
offense taken and no offense intended either way. It is just a 
good discussion.
    Thank you, Mr. Chairman.
    Secretary Babbitt. Okay. Now, Congressman, I think the 
parallel is very interesting, because FEMA has the lead on 
disaster. They are the people who respond, and I might add they 
have done really quite an exceptional job I think of 
reinventing that agency and being out on the front lines. That 
is not our job.
    Our job is to get information. It really is an exact 
parallel--to get information out. And there is an interagency 
committee working on these information issues that has been 
established by the Vice President.
    The reason that this interagency committee suggests the 
Geological Survey as at the center of the funnel for the 
information is this: we have, and this committee has helped 
establish, an information center in Reston which deals with all 
of the satellite information and has the screens to scrub 
classified satellite information.
    In these disaster scenarios, more and more the satellite 
technology is central not only to getting baseline data, but to 
real-time monitoring of what is happening. That is the reason 
that the plan that has been put forward is focused on that 
facility.
    But just as we do not regulate water quality in any way, we 
do not propose to be doing anything on the ground at the time 
of a disaster other than getting information out to FEMA and to 
the community.
    Mr. Moran. Okay. My time is exhausted.
    Thank you, Mr. Chairman.
    Mr. Regula. I would say to the members, if you would like 
to submit questions for the record, you may. And I hope we can 
have a prompt response to those from your agency. We will try 
to get another round here and get finished at a decent time.

                   Headwaters funding and management

    After being out in the Headwaters with the BLM State 
Director last year, I am pleased to note that BLM is the 
designated manager of the property. Your 1999 budget includes a 
request for $400,000 in BLM's budget for development of a 
coordinated research management plan. Will this involve the 
State and county in the effort? And can I assume that these 
funds will not be obligated until the acquisition of the 
Headwaters has been completed? And as part of this, what is the 
status of the HCP vis-a-vis the land owner, MAXXAM Corporation?
    Secretary Babbitt. Mr. Chairman, I heard your suggestion. 
The funds will not be allocated, in accordance with your 
instructions, until the plan is complete. I think I can say 
that. I do not think we needed any force on the ground.
    The HCP agreement, the framework agreement, has been 
reached. I believe there will be a hearing either in April or 
May--there will be a public hearing--with some of the detail in 
the HCP. I am pretty confident that the deal will hold. It has 
got enough specificity in it that both parties' expectations 
coincide on that.
    We have, to my knowledge, not yet worked out with the State 
of California how title to this land will be held when our 
money is put up and their match is put up. There is a lot of 
discussion going on. I would be interested in anybody's 
thoughts on that. Should we divvy it into two pieces? Should we 
take title in common? I am not sure that that has ever been 
done. I do not know if it is workable or not.
    Mr. Regula. Well, then you get into management problems. It 
is bad enough that the access to this tract of land is not 
great, not good at all. And then if you diffuse the management, 
the public never will get to see it.
    Secretary Babbitt. Yes. I would agree that the real issue 
is what is in the management agreement.
    Mr. Regula. But it is planned to have BLM the lead agency 
for the Federal government, is that correct?
    Secretary Babbitt. Yes.

                  Better Management and Staffing Needs

    Mr. Regula. The other day I spoke with the park 
superintendents, and they asked me if I had any one thing I 
would want and I said better management. And I hope you are 
focusing, at every opportunity, with a critical eye, to 
management, not only in the Park Service but all up and down 
the line. And particularly, I have some concerns with Denver, 
as you are well aware.
    I am waiting until the report comes out, but as I said to 
the park superintendents, I hope they are skilled people. I 
hope they are able to manage projects within their park on 
their own initiatives, with maybe some local A&E help. This is 
not a question, but I hope that you are taking a good look at 
management all across the board.
    I do note that your budget request includes 1,463 more 
people. That does not quite square with the Vice President's 
downsizing that I can see, because, the elimination of the 
Bureau of Mines, which was an initiative of this subcommittee, 
comes out of there and we have still have 1,463 more employees. 
And I suspect a lot of those are in the centralized areas here 
in the capital and not necessarily on the ground. You might 
want to comment on that.
    Secretary Babbitt. Mr. Chairman, just a couple of thoughts. 
Our 1993 base was 78,000. We went clear down to 65,000 the 
biggest percentage reduction. Now, the important thingabout 
this management efficiency is you cannot start from x and just keep 
cutting down forever----
    Mr. Regula. No, I understand that.
    Secretary Babbitt [continuing]. Because we do have an 
enormous increase in workload and demands, out on these land 
management units particularly.
    Now, the 1999 request will bring us back up to 69,000, 
which is still 9,000 fewer employees than we had five years ago 
in light of all of the things that have moved.
    We made a huge headquarters reduction. I think we had the 
highest percentage of headquarters reduction of any agency, and 
these people are not going to be in headquarters. What 
percentage of these people are going to be outside of 
headquarters? 90 percent? I would guess 90 percent.
    And let me just say the BIA piece is driven by workload, 
and there is nothing----
    Mr. Regula. No, I understand.
    Secretary Babbitt [continuing]. We can do there. We have to 
get additional policemen.
    Mr. Regula. No, I understand. That is a special situation. 
But are you fostering, as much as possible, a management 
culture among the decisionmakers?
    Secretary Babbitt. The reason I raised the Menlo Park issue 
is because you do break some crockery in attempting to get 
people focused on management issues and to persuade them that 
there are rewards for doing that.
    I think we produced a huge savings out of the 
reconfiguration of that center and out of some hardball 
negotiations, both with private lessors and with the GSA. There 
are obviously thousands of ways to be doing that on the margin.

                        new FWS regional office

    Mr. Regula. Well, that is why I have some skepticism about 
the California proposal of the Fish and Wildlife Service. That 
goes contrary to Menlo Park.
    Secretary Babbitt. I understand your concerns. The Fish and 
Wildlife Service is the most problematical of all of the 
agencies, and the reason is that these issues have just 
avalanched down on what was once a fairly quiet, reactive 
agency, and now, in the context of these larger----
    Mr. Regula. It is the Endangered Species Act requirements?
    Secretary Babbitt. Yes, that is the bottom line. We find 
that an agency which grew up by hiring kids out of college who 
wanted to be biologists and go off and do biology is now really 
a regulatory agency that is way undergraded comparable to the 
National Park System and others. We are constantly having to 
import people skills, negotiation skills, management skills, to 
some shellshocked biologists who coming off these raucous 
public meetings are saying, ``You know, I just wanted to go out 
and study critters, and here I am.''
    Congressman Kolbe has just had a meeting to put them on the 
spot in front of hundreds of people--700 people in Tucson. So 
the agency is really moving, and I have acknowledged in the 
southwest that we have moved far less than elsewhere and we 
need a lot of attention. That is a long answer to a short 
question.
    Mr. Dicks. If you would yield on that point just for one 
brief comment.
    The problem is there are so many people trying to do HCPs, 
and every one of them has to go in and consult with the Fish 
and Wildlife Service. So the time of this agency is being 
enormously stressed, I believe, and that is why I think we have 
to do something about this.
    Secretary Babbitt. Norm, if I could play off that just with 
one suggestion, because I am not sure whether we could do much 
of this in the short term. The Endangered Species Act is 
virtually the only Federal environmental law which was put up 
as a Federal operation without a systematic Federal-State 
delegation backed up by grants to States.
    If we are going to make this thing work in the long run and 
get these HCP things to work, we have to find a way to get a 
State grant program out to those Fish and Game Commissions to 
power them up, so that they can take some of this. It would 
make it work better and more efficiently for everybody. We do 
not do that.
    Look at the Clean Water Act. Basically, what Carole Browner 
does is set standards, hand out grants, and the States 
implement. The Endangered Species Act does not work that way. 
We are trying to push it out, but we find again and again and 
again that State agencies are underpowered and need some help.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Mr. Chairman, I wish Mr. Wamp was still here. He 
indicated that he spent the first half of his life as a 
Democrat and then changed parties. I spent the first third of 
my life as a Republican and then changed parties. I do not know 
why one of us took a wrong turn. [Laughter.]
    I presume it is because of that well-known reluctance of 
the American male to ask directions. [Laughter.]

                       Whittlesley creek project

    Let me simply ask two questions, Mr. Secretary. One is a 
question I will submit to you for the record involving what is 
known as the Whittlesley Creek Project in my district. It 
involves the grass roots efforts of local people to establish a 
wildlife refuge in the Lake Superior area near Ashland.
    Unexpected controversy has arisen because of the long-term 
usage of part of that area as a snowmobile trail. No one 
locally objects to its being used, and there is some confusion 
about the decision of the regional office of the Fish and 
Wildlife Service to try to discontinue snowmobiling on a trail 
which has been used for a good 20 years.

                   Kodiak Timber and Halibut fishing

    And then I would like to simply ask you to also get back to 
me with your reaction to the following. Mr. Livingston and I 
were in Alaska together this summer, and when we were on Kodiak 
it came to our attention that a critical and beautiful area of 
timber is under some pressure to be put up for clearcutting by 
the native corporation there.
    It was explained to us that the reason they are doing that 
is because they have very few other sources of revenue. And one 
of the reasons they do is because when the individual quotas 
were established for halibut fishing, that the particular years 
which were established as the base period to determine what the 
individual entitlement was to fish for halibut excluded the 
Native Americans because they, in that base period, had 
switched to salmon fishing and had not done any halibut 
fishing. And since salmon was selling for two cents a pound up 
there, that was hardly worth the effort.
    It appeared to an outsider that this was a case where some 
of your larger, more sophisticated commercial fishing interests 
were aware of what the long-term plans were on thepart of 
Interior for establishing those rules and those base periods, and that 
the Native Americans, because of that, were substantially 
disadvantaged.
    I would simply like to know whether, in fact, your 
understanding of that conforms with ours, and what prospects 
there might be for making adjustments in that base period so 
that you do not have pressures on the tribe to clear-cut an 
area which otherwise they would not be looking at because they 
would not need the revenue.
    We ran into people whose families had been fishing halibut 
for three generations and who, because of the peculiar base 
period, have been excluded from doing so. And it just did not 
seem equitable, and I think to most people on the trip it did 
not seem equitable.
    I do not expect you to respond now, but if you would look 
at that for the record, I would appreciate it.
    Secretary Babbitt. Certainly. I would be happy to do that 
on both Whittlesley Creek and the Alaska issue.
    [The information follows:]


[Pages 53 - 54--The official Committee record contains additional material here.]



    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Skaggs?

                     colorado division of wildlife

    Mr. Skaggs. Thank you, Mr. Chairman.
    A few things, probably mostly for the record also. Back in 
the early and mid '70s, the State of Colorado split up its 
Division of Wildlife and Department of Parks, and after some 
negotiation I believe got the blessing of at least regional 
Fish and Wildlife about that. The issue now, some 20 years 
later, is being revisited with the threat of some sanction 
against the State because of the current standards being 
applied for the use of funds from the Fish and Wildlife Service 
to acquire some of these lands.
    Anyway, all of us who went to law school are excited at the 
prospect of reviving our knowledge of laches and estoppel and 
things like that, so I hope you would take a look at whether 
the equities in this are ones that weigh in favor of letting 
the State alone.
    Secretary Babbitt. Good. I will have a look at that. I 
think this probably involves the apportionment of Wallop-Breaux 
funds, and the results of the audits that we are required to do 
under Federal law.
    [The information follows:]


[Page 56--The official Committee record contains additional material here.]



                          intelligence budget

    Mr. Skaggs. Good. I was glad that you made mention of the 
USGS facility at Reston and the cooperation there, particularly 
on the use of remote sensing assets that the intelligence 
community has. Mr. Dicks and I both are on the Intelligence 
Committee. As I am sure you are aware, like everybody else, we 
have got our budget problems.
    I am not sure of the extent to which there is any effort to 
kind of spread the budget hit among user agencies for the value 
of the product that is now coming out of the intelligence 
community, in scrubbed version as you described earlier.
    But I wonder if you might take a look at least at your 
agencies and whether they are being assessed or could stand to 
be assessed for some of what comes out of that cooperative 
venture, because there every year as we do our intelligence 
budget, there is, of course, a look at that program and the 
amount that is being directly funded out of the intelligence 
budget to sustain it.
    And I do not know whether you have any comment on that or 
would just respond for the record.
    Secretary Babbitt. Yes. I guess my view is, compared to the 
intelligence establishment, the USGS is sort of a 99-pound 
weakling. Be merciful. [Laughter.]
    Mr. Skaggs. Oh, no. Do not misjudge my disposition on this. 
I just want to be prepared for the questions that are 
inevitably raised.
    Secretary Babbitt. It is an interesting area of endeavor, 
including this issue of, to what extent can you charge for 
products, and to what extent is that even desirable. There is a 
lot of discussion going on now in the entire GIS community 
about should we charge for derived products, or should we view 
that as a public service. It is a complex issue. I think it 
requires some attention, and I do not purport to have an 
answer.
    Mr. Skaggs. Well, I think it is appropriate to say, in 
anopen setting like this, I was very taken by one presentation that I 
heard at a session about a year ago, I guess, involving some Fish and 
Wildlife Service pilots that were spared some very risky survey flights 
in typically nasty weather up off Alaska, because we are now able to 
get through remote sensing much of the assessment of wildlife and 
habitat concerns that they otherwise had to go out and risk their life 
to get. So, presumably, that has value to the Department and we could 
find a way to measure and account for that.

                         weather service budget

    A final question, particularly since you mentioned the 
impact on the agencies in your Department of natural-caused 
disasters, weather in particular. Mr. Kolbe and the Chairman 
and I also sit on the Commerce-Justice Subcommittee, where 
funding for the Weather Service is always a matter of interest.
    To the extent that the experience of you and your agencies 
might inform us of the appropriate budget decisions to be taken 
there on your sister agency, I just would invite, again, a 
submission that would help us judge the impact of the work done 
within that part of the Department of Commerce on saving lives 
and protecting property, and so forth, under your jurisdiction.
    Secretary Babbitt. Mr. Skaggs, if I can respond briefly. I 
think the interface between this committee and the committee of 
jurisdiction over NOAA really raises some interesting issues. 
All sorts of stuff is divided right down the middle, the 
Endangered Species Act being the most notable example. There 
are a lot of other issues there.
    The division of on-shore/near-shore functions, between 
marine sanctuaries and national parks, is another example of 
the division in research and administration between the Mineral 
Management Service off-shore and NOAA functions.
    I think there is an oceans bill moving somewhere that may 
affect some of this, but I think there may be some 
possibilities in all of that.
    Mr. Skaggs. Well, we would be glad to have your further 
advice.
    [The information follows:]


[Page 59--The official Committee record contains additional material here.]



    Mr. Regula. Mr. Dicks?
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Secretary, just a couple of things. There is a great 
deal of interest in our State--I think a lot of it because of 
the Ambrose book on the Lewis & Clark expedition--and I just 
urge the Department to do everything they can to cooperate with 
the other agencies in order to make this a memorable occasion.
    Secretary Babbitt. Do you mean they could reach the Pacific 
Ocean in a reenactment to see a wolf howling in the Olympic----
    [Laughter.]
    Mr. Dicks. That was my second issue. You anticipated me 
beautifully. [Laughter.]
    Now they will think there was a plot between you and me. 
[Laughter.]

                          wolf reintroduction

    I am very concerned about the recent court decision that I 
think held that because this was an experimental population, 
the wolves that have been reintroduced--if this court decision 
is not overturned, I think in the Yellowstone area--maybe it is 
in Idaho--would have to then be taken and killed because they 
had not bureaucratically complied with the law just the way 
this Federal judge wanted it done.
    What is the Administration's view of this? I think it is a 
disaster. I know we are appealing the decision, but do you have 
any comment on that?
    Secretary Babbitt. Well, yes. I take the decision 
seriously. When a judge says you have got to clear out the 
wolves, I get interested.
    We made a few inquiries, and the problem is this. Canada 
will not take the wolves back. We did a little inquiry of some 
of the zoos around the country, and the response from the zoos 
was, ``We have more wolves in zoos than we know what to do 
with. We do not want any of your wolves.''
    Colorado does not seem inclined to make an offer, and the 
bottom line is there is nowhere for those wolves to go.
    Mr. Dicks. So we do need some legislative relief here. Is 
that not correct?
    Secretary Babbitt. It is a real possibility, because the 
court decision is not a frivolous decision. There is a very 
sort of arcane issue there of how you judge populations.
    Mr. Dicks. Which, in fact, was raised by the environmental 
community, much to their embarrassment.
    Secretary Babbitt. Absolutely. So, yes, I think this 
Administration would very much appreciate a sentence somewhere 
which says, ``The wolves are not going to be evicted from 
Yellowstone.''

                           elwah dams project

    Mr. Dicks. Are you still committed to the Elwah Project? 
Take out the two dams, do--you know, wait, wait. Buy the two 
dams, take out one, and then have a period where we assess how 
we are doing? Are we going to negotiate on that point?
    Secretary Babbitt. That, I think, represents the 
possibility of common ground, and we would very much like to 
pursue that with all of the interested Washington parties, the 
Chairman, and others.
    Mr. Dicks. I would just point out to you that there is a 
very analogous situation with the Cushman dam, also in my 
district, that I may want to discuss with you, because we may 
need to have--may need to reason together and come to common 
ground on it as well.
    Thank you.
    Secretary Babbitt. Mr. Dicks, I remember you describing 
that to me in an airport as I was trying to get away from you 
to catch a flight. [Laughter.]
    Mr. Dicks. But I would not let you get away. [Laughter.]
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Yates.
    Mr. Yates. Yes. Mr. Chairman, let me follow up on one of 
Mr. Skaggs' questions.
    Mr. Regula. Okay.

                             el nino damage

    Mr. Yates. We see the damage being done by El Nino to our 
physical properties all over the country. Has El Nino affected 
our national resources as much as it seems to have our private 
resources, to the point of where you may have to ask for more 
money of this committee?
    Secretary Babbitt. Mr. Yates, it obviously has had 
significant impacts in a lot of places that people are not 
necessarily aware of. There is a drought, for example, in areas 
of Hawaii that is having significant consequences for the land, 
the biota, the whole thing.
     Mr. Yates. I am thinking of the shorelines along the 
Pacific, and up in the northwest, the forests, and the parks 
along the area.
    Secretary Babbitt. You can see the park and refuge issues 
in the supplementals that are moving forward, most of that in 
the northwest, in California.
    We have a huge crisis in the Everglades, and it is 
traceable to El Nino. Normally, in the Everglades, the winter 
is a dry season. It has been raining nonstop down there. So, 
yes, I am not sure I could put a dollar figure on it, but this 
phenomenon is having effects everywhere. I rather like the ones 
in my neighborhood. I have not had to shovel any snow this 
winter.
    Mr. Yates. But would it have an effect, for example, on 
Yellowstone, or is it having an effect on the parks and the 
natural resources that are centrally located rather than on the 
coasts?
    Secretary Babbitt. I do not want to get didactic and start 
into a long discourse here, but the effects of these kinds of 
weather episodes on ecosystems, in terms of lasting effects, is 
a very complex issue.
    It is hard to say, in terms of impact on the natural 
resources, that one episode or two or three are going to have 
lasting effects, except where you have endangered species which 
are already on the brink. That is the one worrisome issue, I 
think.
    Mr. Yates. Does it have an effect, have you been told, on 
your water park at the Virgin Islands?
    Secretary Babbitt. Mr. Yates, you are going to have to 
enlighten me on that one, because that is a new one to me.
    Well, if there are changes in water temperature, you bet. 
The warming trend in some areas of the ocean has----
    Mr. Yates. I know it is happening on the Pacific side.
    Secretary Babbitt [continuing]. Has enormous consequences.
    I will tell you one place where that is really causing a 
problem is with the Atlantic salmon runs. And we see this in 
Maine and Canada. The wild salmon runs are on the brink, and 
the best guess as to why is because the ocean temperatures in 
the North Atlantic actually are down. But it has affected the 
food chain and the food supply for the ocean piece of the 
salmon cycle.
    Mr. Yates. Thank you, Mr. Chairman. I have questions for 
the record.
    Mr. Regula. Thank you.
    Mr. Secretary, a couple of----
    Mr. Yates. Mr. Chairman, I should express my appreciation 
to the Secretary for the nice things he said.
    Thank you, Mr. Secretary.
    Mr. Regula [continuing]. Questions, and we will close the 
hearing.
    The many things that you have said--and your request--show 
that you need additional funds. The President's total package, 
just for our subcommittee, is $1.1 billion above our 1998 
allocation. I do not think that is reality. My guess is that 
our allocation will be substantially less than that.

                     reprioritizing budget request

    My question is: can you reprioritize your request based on 
what we are finally allocated?
    Secretary Babbitt. Mr. Regula, I recall that you have asked 
that question once or twice before, and I think my response 
would be yes. I think that we have been able in the past, on 
the basis of informal discussions, to reach a----
    Mr. Regula. We are sensitive to your priorities. You are 
the manager down there, and I think we want to have a measure 
of confidence in your being on the ground. But we will have to 
deal with what is given to us in terms of dollars.
    Secretary Babbitt. I understand that, and I am ready and 
willing to cooperate as much as we possibly can in that kind of 
exchange.

                      recreation fee demonstration

    Mr. Regula. Number two, is the fee system working, in your 
judgment?
    Secretary Babbitt. Yes, absolutely. And, again, it's a nice 
example of how--without any external authorizing legislation 
and in the absence of the ability to get anything moving--we 
got it done through the committee process. It is, I think, a 
resounding success.
    I would say two things. One, we need to keep track of the 
disposition and the use of the proceeds. I very much support 
the decentralized way in which that is being done. The 
condition of that I think is to make sure, both as a manager 
and you as overseers, we have a clear and good feeling about 
the priorities and how it backs into resource protection and 
maintenance.
    Second, we ought to make that permanent. Now, I do not 
know, but it probably takes authorizing legislation.
    Mr. Regula. Yes, it does.
    Secretary Babbitt. It would be very nice to get that done.

                       biological survey in USGS

    Mr. Regula. Third, we had some discussion initially about 
the Biological Survey, and, as you know, we put it in USGS. I 
get an impression that it is working pretty well there in your 
statements about the GS providing good scientific information 
for a multitude of purposes. Is that a fair assessment?
    Secretary Babbitt. Mr. Chairman, I think that is exactly 
right. And let me just say in sort of a mellow mood as we wind 
up----
    Mr. Regula. That is a good beginning.
    Secretary Babbitt. It is a nice example of how this process 
really can work. I know it was controversial. There was a 
knock-down, drag-out fight for two years, but the bottom line 
is I had an idea, and you had an idea, and we finally put the 
two of them together--afterkind of shedding blood for a couple 
of years. I think it has been a really exceptionally good and 
theoretically correct end to a pretty contentious tale.

                      national constitution center

    Mr. Regula. I am pleased to hear that it has worked out 
well.
    An Independence Park statement on the National Constitution 
Center is quite different than the regional office statement 
after the Senate hearing. The park says they want to take care 
of the needs of the park, i.e. backlog, before taking on a new, 
non-Park Service structure. Now, you have two different press 
releases almost. Do you have any comment on this?
    Secretary Babbitt. Well, in the spirit of the wrap up, yes. 
This is a fairly contentious issue.
    Mr. Regula. I get that.
    Secretary Babbitt. It is a real contentious issue. The 
superintendent of the park is a very competent and very 
determined superintendent. She has a management plan. She 
thinks it is a good management plan, and she is not backing 
down.
    Mr. Regula. That does not include the Constitution Center, 
am I correct?
    Secretary Babbitt. Well, no. It has a place for the 
Constitution Center. There is still some disagreement about 
whether or not the Constitution Center can come off the margins 
of block 3 out into the mall. The real source of contention is 
a hotel proposal behind the Constitution Center. That has not 
been worked out.
    Now, I know that there is a funding effort on many 
directions down here for that, and I think that the national 
response has been to try to let us reason together, rather than 
getting too contentious. It is a real issue.
    Mr. Regula. Well, in terms of priority, it might not be 
number one, given the fact that we have limited resources 
coming along here. And we will not get into the Gettysburg 
issue, but that has some of the same implications.
    We will submit a number of questions for the record, and 
appreciate a prompt reply. I think we have had a constructive 
hearing this morning. Obviously, these are difficult issues, 
and I am quite sure you are challenged in your capacity as 
Secretary to referee among the agencies even in terms of 
establishing priorities.
    I hope we will be very careful on the use of the resources. 
I am troubled by the fact that movie companies use this land 
without paying anything, and I think you may share the same 
thing. I noticed the other day one of the major ski lodges 
plans to expand, and I suspect they are not paying what would 
be a fair market value for the use of these lands. I do not 
ski, but my friends tell me that the price of lift tickets has 
not gone down.
    And so I hope we, working together, can continue to enhance 
the management of these facilities and the responsibilities 
that go with them.
    Secretary Babbitt. Mr. Chairman, let me just say I greatly 
appreciate the relationship that we have had over the last six 
years on this committee. I think we have done a lot of really 
good things. In this sort of endless struggle to become more 
efficient, we have made progress.
    I think we have struck out in a lot of important new 
directions, and I very much appreciate my relationship with Mr. 
Yates, yourself, and the committee members. I think we have a 
lot to be quite satisfied about, that we have done our job as 
public servants.
    Mr. Yates. On that note----
    Mr. Regula. The committee is adjourned.
    [The following questions and answers were submitted for the 
record:]


[Pages 65 - 232--The official Committee record contains additional material here.]







=======================================================================

                       Department of the Interior

                       Bureau of Land Management

=======================================================================







                                           Tuesday, March 17, 1998.

                       BUREAU OF LAND MANAGEMENT

                               WITNESSES

PAT SHEA, DIRECTOR
TOM FRY, DEPUTY DIRECTOR
LARRY BENNA, BUDGET OFFICER
NINA HATFIELD, DEPUTY DIRECTOR


[Page 236--The official Committee record contains additional material here.]



                            Opening Remarks

    Mr. Regula. Well, we will get the hearing started. We are 
happy to welcome you, Mr. Director, and we are happy to welcome 
your wife, Mrs. Shea. Your statement will be made a part of the 
record and any summary you would like to give to us, we will 
welcome it.

                       Director's Opening Remarks

    Mr. Shea. Thank you, Mr. Chairman. I appreciate this 
opportunity and would like to introduce the people who are 
seated at the table with me.
    On my left is Tom Fry, who is my deputy director. On my 
right is Larry Benna, who is responsible for much of the 
information that is here, our budget officer. To his right is 
Nina Hatfield, who is the deputy director, also. And then 
seated behind me are my assistant directors for each of the 
areas. And I hope to, when the question arises, defer to their 
expertise.
    Mr. Regula. You should not have a crisis down there for the 
next hour or so.
    Mr. Shea. We hope not. We certainly are electronically 
connected. I think all too often we are these days.
    We also have Mary Ann Lawler and John Trezise from the 
Department. So we are fully represented across the board.
    I do want to thank you for the time and I would like to 
present just briefly a summary of my testimony.
    In August when I became the 15th director, I introduced 
three themes for our organization. The first was to have the 
BLM be a good neighbor, the second was to practice best science 
and the third was to promote multiple use, much like the 
Secretary has talked about in terms of ecosystem management.

                         fy 1999 budget request

    The 1999 budget request is for $1.2 billion, $267 million 
or 22 percent of this is for pass-through money, including fire 
and hazardous material funds to benefit other departmental 
agencies. The budget proposes an increase of $96 million or a 
7.8 percent increase. I think for many years the BLM has 
maintained a very high efficiency and what you are seeing in 
this budget request is an effort to implement our strategic 
plan in a meaningful way and follow much of the direction that 
you have given as the committee chair.
    We will continue to improve how we operate and particularly 
focus on how we can improve our customer service. The Trading 
Post Initiative with the U.S. Forest Service is a good example 
of how the BLM is providing one-stop shopping to our customers. 
We are expanding that to have two pilots, in Oregon and in 
Colorado, and we believe we have realized about a $1.2 million 
savings.
    We would like to thank Congressman Skaggs for the language 
and this committee's language that was in the conference report 
that allowed us to go forward with that initiative. I was just 
with Mike Dombeck yesterday and we plan to expand those trading 
post operations in other areas of the West.
    I also want to mention that we are going to have a briefing 
on the 19th of March with the Assistant Secretary for Land and 
Minerals Management relating to what we are calling a balanced 
approach on oil and gas responsibilities. Instead of issuing 
regulations sequentially and spreading it out over time, we 
believe it would be better to have a whole picture presented, 
so we will be doing that on the 19th of March with Bob 
Armstrong, the Assistant Secretary.
    We will also deploy, for the first time in New Mexico and 
then in Arizona, the Automated Land and Mineral Records System. 
Our 1999 request is for $34.6 million, which includes a program 
increase of $1 million for Release 2. It will allow us, in 
Release 2, to go on the Internet and truly make the more than 
one billion records that we have at BLM available to the 
public.
    Just to give you a couple of other highlights in the 1999 
budget, we are, pursuant to an earlier hearing that I appeared 
before you asking for a $7 million increase for the Land, 
Resource, and Facilities Restoration Initiative. I have talked 
with each of the state directors in the last week and 
reaffirmed with them something that I told them in February. 
That is, their evaluations, in part, will depend on how we 
carefully monitor and use the appropriated funds for 
maintenance, and I heartedly endorse your effort there.
    We also are asking for $6.4 million for the Grand Staircase 
Escalante National Monument. This is the same funding that was 
requested in 1998 and I think the help that we have been 
provided in Kane and Garfield Counties will show you essential 
field operations can be integrated between different 
governmental entities, counties and the federal government.
    We also have asked for a $2.4 million increase in the Wild 
Horse and Burro Program. We will be implementing two internal 
program management reports. We are going to increase our effort 
in the adoption area and I believe there is some scientific 
research on fertility control that we will be continuing in the 
1999 budget.
    We also are asking for $16 million to implement the Clean 
Water and Watershed Restoration Initiative that the Vice 
President recently announced. We are paying particular 
attention to the abandoned mine problems in Montana and 
Colorado, and we have included Utah this year.
    Mr. Regula. Are those strip mines or deep mines?
    Mr. Shea. Deep mines. The strip mines were through the 
Office of Surface Mining.
    We are asking for $800,000 to address the growing conflicts 
over endangered species conservation land use in the 
southwestern states of Arizona and New Mexico.
    And then we are also asking for $298 million for the 
department's Wildland Fire Management Program, which includesa 
$15 million increase. Approximately half of this will be for BLM. Again 
our fire program, I think, is a great example of interagency 
cooperation in our Fire Center in Boise.
    There are several other significant issues. To implement 
the agency's mission, there is $800 thousand for reducing the 
rights-of-way backlog and withdrawal reviews that we have begun 
to experience with the increased population that is in the 
intermountain west, in particular. The rights-of-way problem is 
increasing.
    We have a $3.5 million increase for improving rangeland 
health, to implement the standards and guidelines that the 
Resource Advisory Councils have put in place now.
    We ask for a $500,000 increase for expanding our recreation 
partnerships and our fee pilot programs. We had over 73 million 
visitors to the public lands that BLM is responsible for last 
year, so we are beginning to expand our fee programs.
    We are also asking for a $3.3 million increase for 
integrating noxious weed control measures on our western 
rangelands. In fact, we will be having in Denver a conference, 
a symposium on weed issues on the 8th, 9th and 10th of April 
and we are trying to get actual research scientists--Steve Dew 
is a Professor of Botany at Utah State University--with some of 
our field managers so we can get some meaningful interaction 
between what the range managers need and what the scientists in 
the lab are producing.
    The 1999 budget request, includes reauthorization of the 
mining claim maintenance fee. The current authorization expires 
at the end of 1998. Fees would be indexed to inflation and fees 
would be available in the year after they are collected. The 
budget includes $33 million for this proposal.
    Our 1999 budget supports the goals established in our 
strategic plan and requests the resources to allow us to 
progress towards meeting them.
    One of the reasons I was interested in naming Nina Hatfield 
as my deputy is that she has been the architect behind both the 
strategic plan and its interface with the GPRA and I do think 
it will make the appropriations process more efficient, 
frankly, in the future, because there will be very clear 
standards that can be used to judge whether or not what we said 
we would do has been fulfilled, and I think that is an 
admirable goal.
    So that is a quick summary of our 1999 budget request. I 
have introduced you to the deputies and to Larry Benna and the 
assistant directors, so I would be happy to take your 
questions.
    [The information follows:]


[Pages 240 - 246--The official Committee record contains additional material here.]



                                revenues

    Mr. Regula. What do you generate in revenues in BLM, all 
together?
    Mr. Shea. Approximately $1.1 billion.
    Mr. Benna. A little over $1.2 billion and a significant 
portion of that comes from mineral receipts generated from the 
public lands that are collected by MMS.

                      de-coupling timber receipts

    Mr. Regula. You are proposing new language to decouple 
payments to counties from production as opposed to payments 
based on timber receipts, as is currently the case. What is the 
rationale for this?
    Mr. Shea. Let me give you an overview and then I would like 
Larry to address that specifically. We have found in some of 
the areas that we manage where timber is produced that the 
revenue has not been as predictable as it has been in the past, 
so we believe the decoupling would allow for a better 
predictive value for the revenue stream.
    Larry.
    Mr. Benna. I think one of the advantages of this is that it 
would provide a stable level of funding for----
    Mr. Regula. For the counties.
    Mr. Benna. From timber. In the O&C counties, particularly, 
where the majority of BLM timber receipts are generated, 
payments to counties are now based on a declining payment scale 
that was put in place by the Budget Reconciliation Act of 1993.
    So the payments that would be provided under this proposal 
would be higher than that declining scale and they would also 
be level over the next five years, as opposed to the declining 
scale.
    Mr. Regula. Is your proposed cut about equal to the '97 
number?
    Mr. Benna. Yes.
    Mr. Regula. So that you would have a uniform program of 
timber sales.
    Mr. Benna. Right. In Western Oregon the allowable sale 
quantity is determined by the forest plan and we have been 
providing the full allowable cut of 213.5 million board-feet. 
As I said a little bit earlier, the payments to the western 
Oregon counties are no longer tied to receipts from timber. It 
is a payment from a special account from the Treasury.
    Mr. Regula. So, as I understand it, the counties would get 
more money, on balance, out of the proposal that you have in 
the bill.
    Mr. Benna. Correct, both in the O&C and from the public 
domain lands.

                         wild horses and burros

    Mr. Regula. Wild Horse and Burro. A lady brought me a 
picture of one of her wild horses that she got at the auction, 
before and after. It was remarkable what a transformation. She 
said that the horses are used to being in a herd so they are 
looking to identify with someone and it is the owner.
    There has been controversy about this, as you recognize. 
What actions have you taken to deal with the management 
problems?
    Mr. Shea. Let me just observe that some of our biologists 
and veterinarians have said that when these horses are 
transported several thousand miles they may lose as much as 300 
to 400 pounds. So the before and after shots, I think, reflect 
how quickly they can respond to proper care when they are 
adopted.
    We have asked for increased funding. That increase would 
largely go to focussing on the adoption program but also 
increasing the research side. I believe there are some 
fertility control studies that particularly Zoo Montana is in 
the midst of that would allow us to have, I think, better 
management of the operation there.
    In January we did name and conduct our first meeting of the 
Wild Horse and Burro Advisory Committee. It is allowed for 
under the 1971 act. We have nine individuals who are outside of 
government who are volunteers, but many of them have had 
literally years and years of experience with horses and we have 
people from the Humane Society.
    I am looking to them to make some very specific 
recommendations. We recently reorganized that area so that they 
report directly to the assistant director and I think 
thatstreamlining is going to have a positive effect.
    But our biggest problem right now, just to be very frank, 
is that we have several thousand horses that have been taken 
off the range and are waiting for adoption. We are going to 
have to mount, I think, a fairly concerted public relations 
campaign to get people interested in adoptions. I do have some 
adoption certificates if anybody would like to fill out some of 
the forms. We will be happy to facilitate that, providing you 
qualify.
    Mr. Regula. I have enough already.

                          Acres Managed by BLM

    You mentioned you manage 73 million acres?
    Mr. Shea. 264 million.
    Mr. Regula. I am sorry; 264 million.
    Mr. Shea. And 500 million mineral or subsurface acres.
    Mr. Regula. That is, I think, the largest of the land 
agencies.
    Mr. Shea. It is. We have been prone in the past to compare 
how much per acre we get but we won't do that today.

                           Office Colocation

    Mr. Regula. I am pleased to note that you are working with 
the Forest Service on a common building and I sense from your 
testimony that you hope to do more of working with other land 
agencies in joint efforts. That makes a lot of sense to me.
    Mr. Shea. Jamie Clark (FWS), Bob Stanton (NPS) and I went 
through the confirmation process together and then we were 
sworn in together on August 4. We have taken a great deal of 
time to collaborate where we can. A great example is in 
Escalante, Utah, where we have a single facility. When a 
citizen comes in they can go to the Forest Service, Park 
Service or BLM, obtain permits or ask questions and I think it 
is one-stop shopping that makes a great deal of sense.
    Mr. Regula. I like that. I think government is government 
and we are all serving the same people. It lends itself to an 
efficient management. I hope we can do that on fees, where you 
get one permit that will take you to forests, parks, wherever.
    Mr. Shea. I have been joking with Bob Stanton that we need 
to have the Golden Eagle pass so that it goes across all 
jurisdictions.
    Mr. Fry points out that the photograph you have is where we 
have actually consolidated our office with the Forest Service. 
And Elaine Zielinsky, our state director there, yesterday told 
me that on the Resource Advisory Committee we actually are 
doing it jointly with Forest Service and BLM together. So that 
is even across departmental lines.

                               volunteers

    Mr. Regula. That is great.
    Volunteers--do you use a lot of them?
    Mr. Shea. We do, absolutely. We just, last month, had a 
wonderful ceremony recognizing seven volunteers from across the 
country. Two years ago, when I was in my preconfirmation cocoon 
where I couldn't have any official contact with BLM, I met one 
of the father-son volunteers down in Kanab, Utah. The father 
had been volunteering for 10 years. He was 72 years old and 
said this was absolutely one of the best things.
    And the person from the BLM who is managing the office 
there--actually, it was in Bigwater--said they could not 
function unless the volunteers were there. So I think there are 
some real opportunities, both with senior citizens and with the 
student population, as well.
    Mr. Regula. The Aging Committee hosted a luncheon of people 
who are seniors and are very actively working. One of them was 
102 and goes to work every day. But the thrust of all this is 
that having a mission is vital in senior years. I think the 
volunteers are helping with a service, but you are helping the 
volunteers, too.
    Mr. Shea. Absolutely. We need to provide the facilities and 
different opportunities. And interestingly, as we move more 
into the digital age with our ALMRS project, I think the senior 
citizens are going to lead the way in getting better educated 
by having more access to these public land records.
    I did have coffee with Senator Mansfield a month ago and 
yesterday was his 95th birthday. It was just before St. 
Patrick's Day. He is a great example of going to work every day 
and putting in a hard day's work, and I think it has a lot of 
benefit.
    Mr. Regula. They had 50 of them, one from each state. My 
district happened to have the one senior from Ohio. He has two 
jobs and he is 72. So I think the volunteer program is great.
    Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Good afternoon. Sorry I missed the first part of your 
presentation. Mr. Dicks said before he departed that you had 
said something nice about me while I was gone. I would like to 
give you an opportunity to do it again. [Laughter.]
    Mr. Shea. I thanked you for your initiative last year in 
the conference report.

                          Net Receipt Sharing

    Mr. Skaggs. We need all the help we can get here with our 
fragile egos, as you know.
    Diving right in, I have some concerned word from home about 
the IG report and the review of mineral leasing receipts 
allocations and what the off-sets were for your costs, I guess.
    Do you agree with the IG's findings on those calculations? 
If so, what are you going to do about it? And if not, why not?
    Mr. Shea. What I am going to do is defer to Larry and Tom 
on the receipt question. I have not seen the IG's report. One 
of the things I found in being new in office is that there are 
a number of IG reports that are coming through and I am having 
to deal with each of them as they come along.
    Tom.
    Mr. Skaggs. I am referring to report number 98-79.
    Mr. Fry. Mr. Skaggs, you have me on that one.
    Just very briefly, we have always had people who have been 
concerned about net receipt-sharing. Since we have been at BLM 
we have taken the position that our books are open, that 
anybody can come look and see how we calculate those numbers. 
And to anyone who is concerned about that, we would be more 
than happy to walk them through those numbers.
    The question of whether or not we have net receipt-sharing, 
of course, is a congressional question. It is an issue Congress 
has to cross about whether or not we are going to have that 
program. But to the extent we have it, we have a formula that 
we go by. We think we have followed the formula correctly and 
we are more than happy for anybody to look at those numbers.
    Mr. Shea. We will get a response to you.
    Mr. Skaggs. That implies that you disagree with the IG's 
assertion that the formula was not applied correctly over these 
three years.
    Mr. Fry. I will be candid with you. I haven't seen that 
report.
    Mr. Skaggs. Then if we could get some information for the 
record about that particular one and what you plan to do about 
it one way or another.
    [The information follows:]


[Page 251--The official Committee record contains additional material here.]



                        Naval Oil Shale Reserve

    As I think you are aware, the DOD authorization bill for 
this year transferred some oil shale reserve lands into your 
jurisdiction and I don't know that that has been finally 
accomplished yet. I understand there are some negotiations 
going on about--I'm not sure what, exactly. I just want to get 
a status report from you on that transfer. Again, if it is 
easier to do for the record, that would be fine. If you are 
prepared to speak to it right now, that would be fine.
    Mr. Shea. The transfer has been proposed. We have evaluated 
it. We have not gotten the final transfer. It has to be 
consistent with the management program and I would like to give 
you a full and complete answer on that. It is midstream and 
hasn't been completed yet.
    Mr. Skaggs. And I will get you some additional questions 
that bear on that same transaction for a response for the 
record, too, if I may, please.
    [The information follows:]


[Page 253--The official Committee record contains additional material here.]



                           Wilderness Review

    Mr. Skaggs. I do know that you know about the Tenth Circuit 
case having to do with your review of roadless areas, I guess 
as it pertains to Utah and presumably to similar exercises 
underway in Colorado. I just wanted to give you an opportunity 
to explain where things stand in the overall roadless review 
area and in particular what the Bureau is doing by way of 
public participation in this process.
    Mr. Shea. Judge Murphy's decision came down last week. We 
were quite pleased that the plaintiffs in the case were 
determined not to have standing to proceed, to challenge the 
Bureau's right to reinventory wilderness areas. It will take 
approximately 52 days under the appellate court rules before 
that decision is, if you will, enforceable. It will take us at 
least that long to regather the BLM personnel that were doing 
the inventory in the first place in Utah.
    We were going about it in a very systematic and public 
manner, where we were very active in soliciting the opinions 
and expertise of the public. We will renew that effort. In 
Colorado we are following a similar effort with State Director 
Ann Morgan, identifying the areas, looking particularly at the 
roadless question.
    My own personal attitude is that we cannot fulfill our 
statutory mission of knowing what the inventory is if we 
haven't done that kind of scientific study. I think Judge 
Murphy clearly articulates the right of the BLM, as an 
administrative agency, to do that under its statutory 
authority.
    Now, the one question that remains is whether or not the 
management of an area, as a ``wilderness area,'' before 
Congress has acted, is an appropriate management tool. And 
Judge Murphy remanded that back to Judge Benson for 
determination at trial on that question or to subsequent 
motions.
    Mr. Skaggs. Was there any hint from the circuit court 
opinion about what is to be dealt with at trial on remand on 
that issue?
    Mr. Shea. Only the sixth cause of action remains and that 
is the question of whether or not BLM managing an area as a 
wilderness area without congressional delegation is beyond the 
scope of their authority.
    Mr. Skaggs. That would have pretty broad implications 
through the other public lands agencies which do the same 
thing.
    Mr. Shea. It certainly would and it does seem to me, again 
reading the appellate court decision, there are always a lot of 
different points of possible conjecture. Whether or not a 
motion for summary judgment would get the question removed from 
a trial I think is something that the Department of Justice 
attorneys and the solicitor's office in the Department of the 
Interior will be carefully following.

                         Satellite Information

    Mr. Skaggs. I was unaware of that pretty important twist.
    I know a big hunk of your budget is dedicated to dealing 
with possible calamities and natural disasters, fires, 
whatever, and I have been trying to make a record with your 
colleagues from your sister agencies about the usefulness and 
value of whatever derived product you get out of the USGS 
operation out in Reston that tries to make intelligence product 
available after it has been scrubbed appropriately for use by 
our public lands agencies. I want to invite you to fill us in 
on that.
    Mr. Shea. I received my clearances back. I had worked for 
the Senate Intelligence Committee back in 1975 and '76 so I 
renewed my clearances and went to USGS for a briefing, met with 
about five members of the Civil Application Committee that is 
an interagency group that do have clearances to look at what 
products are available.
    I told the Chairman the story that last year we had a fire 
in Alaska and were able to use some national technical means. 
But between the time of the satellite flying over and the 
actual information getting to the fire crew on the ground it 
was 20 hours.
    There is a group in Finland that has a contract with a 
French satellite company that can get it to you in real time. 
So some of our fire people were suggesting that we might 
contract with them.
    I met with Mark Schafer two weeks ago to explore how we, in 
the BLM, could better tie into the resource side of USGS, 
particularly on the inventory and monitoring side. I think 
there are some very interesting technological developments. We 
have been talking with the Air Force aboutusing some of their 
unmanned aircraft surveillance out in Nellis Air Force Base to do some 
surveys in that area. But it is an area that I think there are some 
enormous savings that could be done and it is really a question of 
getting the cooperation between the federal agencies, specifically DOD 
and the Department of the Interior.
    Mr. Skaggs. Well, I would appreciate it if there is 
elaboration that you could include for the record on some 
stories that will flesh this out and any approximation of value 
received from that product. I think it would help Mr. Dicks and 
me in particular, since we are also on the Intelligence 
Committee, having to deal with that budget.
    [The information follows:]


[Pages 256 - 257--The official Committee record contains additional material here.]



    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.

            clean water and watershed restoration initiative

    Mr. Wamp. Thank you, Mr. Chairman.
    My primary interest, being from the Southeast, is in this 
Clean Water and Watershed Restoration Initiative. I am 
interested in the $16 million request for that initiative for 
FY99. Reading your testimony and some of the back-up, I see 
there is coordination between Fish and Wildlife, EPA and other 
agencies. I just wanted BLM's perspective on how the 
Administration plans to carry out clean water initiatives 
throughout the country and how the $8 million for soil, water 
and air management within that $16 million request is disbursed 
across the country and how you coordinate those activities with 
these other agencies over the next few years.
    Mr. Shea. One of the problems that we have at BLM is that 
97 percent or more of our acreage is really west of Colorado. 
We have approximately 300,000 acres of surface land east of the 
Mississippi. So most of the clean water activity that we will 
be following will be in the Western states.
    But as I said earlier, the interaction with Jamie Clark at 
the Fish and Wildlife Service, Bob Stanton at National Parks 
and Mike Dombeck at the Forest Service has increased an 
enormous amount in the last six months.
    I think the area where there will be the greatest 
collaboration will be in establishing protocols for appropriate 
monitoring and if there are successes, for instance, in 
cleaning up an abandoned mine site in Utah, for instance, or in 
Montana, that has some application for a source pollution 
problem in the Southeast, we will be exchanging that 
information in a more efficient manner than we would have in 
the past.
    In my judgment, in the past oftentimes what BLM was doing 
was not known in the Forest Service, for instance, or the 
National Parks. That will not be the case now.
    Mr. Wamp. I noticed where the Vice President has been 
working with the Department of Agriculture on this. Are they 
the lead agency in the clean water initiatives?
    Mr. Shea. They certainly have been most involved in the 
architecture, if you will, of it, but in the implementation it 
will fall where the jurisdictional responsibilities are. So, 
for instance, on the acreage that BLM has, we will be the 
primary responsible agency there.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. I would just like to follow up on Mr. Wamp's 
question.
    I notice that the BLM has been included in the Vice 
President's Clean Water Initiative. However, our analysis 
indicates that the majority of funds included under this 
initiative are programs that this committee has supported and 
funded in past appropriations bills. Other than the level of 
funding, is there any difference between the so-called Vice 
President's initiative and the programs that we have funded 
before he ever got into the act?
    Mr. Skaggs. Mr. Chairman.
    Mr. Shea. I don't want to decide who got in the act first. 
All I know is that we are going to have $16 million more and I 
do think, again on the science side and on the monitoring side, 
we are going to have a greater focus.
    Mr. Regula. $16 million would help you to focus.
    Mr. Shea. It certainly will and I want to thank this 
committee for its effort and I will thank the Vice President if 
I have a chance.
    Mr. Regula. For adopting our program.
    Mr. Shea. Whichever is greater, I will be thankful for.
    Mr. Regula. We call that a leading question.
    Mr. Kolbe.

                           mission of the blm

    Mr. Kolbe. Thank you very much.
    Mr. Shea, welcome. You and I have had a chance to talk in 
my office, prior to your testimony today, about some of these 
issues. I thought I would get on the record a little bit of 
this.
    We have some very difficult and obviously very contentious 
issues, particularly in the Southwest, that deal with 
endangered species. Well, we have them all over the country, in 
the Northwest as well.
    I would like to get for the record what you see as the 
mission of BLM in terms of the purposes of the public lands 
that come under your jurisdiction. What do you believe your 
purpose is and what are the uses of those lands that come under 
your jurisdiction? That is a general question.
    Mr. Shea. Let me, if I might, answer that in two parts. 
First, I think FLPMA is very clear that we, as a federal 
agency, are to promote multiple use; that is, both conservation 
and development. And I think some people of the more extreme 
varieties of the political spectrum would say that is a 
contradiction; you can't have conservation; you can't have 
development.
    But I like to point to Oregon and Washington, where good 
conservation allows for appropriate development. I think the 
Secretary has been very clear in his sense of multiple use, 
that you have to look at the whole area because if you fix one 
part, and I think the weeds are a great example. If we go in 
and do an effective management of nonnative invasive weeds but 
we don't take care of the whole watershed area, it is simply 
going to repeat itself the year after that.
    So I think we are beginning to see a need to develop a 
regional approach to these things and I think the BLM is in a 
very good position, given its acreage in the West, to take that 
approach.
    So the short-term goal, in my judgment, is to promote 
responsible multiple use, which is both conservation and 
development. But I also have what I call the Michael and Paul 
standard. Michael is our 12-year-old and Paul is our 10-year-
old. I want them to look back in 30 years and be able to say 
that their father, when he was Director of the BLM, did a 
responsible job, that there are sustainable economies there, 
that people can get meaningful employment but, at the same 
time, that the public lands that have been entrusted to the BLM 
were properly managed.
    So I think it does not have a single simple answer. I can't 
say we ought to be able to do X because if we do X 
consistently, then we are going to be harming Y.
    The one thing I will say after seven months in this job is 
the number of different tasks that the BLM is expected to do 
under its statutory and regulatory responsibilities is 
enormous. But if I do a good job, in 30 years Michael and Paul 
will be able to, I hope, have some pride in what we did.
    Mr. Kolbe. I appreciate that answer. I know it was a 
general question. It comes from the fact that in the past 
perhaps BLM tilted more toward the user side. So now, as you go 
through, as we, and this has been on-going for several years, a 
shift in our thinking, the user side may think that the tilt is 
all in the other direction, but maybe it is towards more of a 
balance.
    I guess what I just wanted to make clear is that in your 
view, it makes good land management sense to talk about uses of 
public lands, as well as the conservation. Your goal is not to 
deny economic uses of those public lands.
    Mr. Shea. No, not at all. Just this morning I met with the 
Public Lands Council and many of them were, as you were 
indicating, quite upset that many of the traditional uses, that 
livestock, for instance, are being lessened on public lands. 
But, as I also indicated, we had 73 million visitors last year 
on recreational use of the public lands.

                              results act

    I would like, if I might, ask Nina Hatfield, my deputy, to 
speak about the GPRA, which, as I mentioned earlier, really is 
going to be a significant process that will allow the Congress 
and the executive branch to engage in a meaningful dialogue 
about what are the plans, what is the strategic plan, how are 
we implementing it? I think she has been the key architect for 
much of the BLM's progress and if she could say a few words 
about that, I think that would go further to answering your 
question.
    Mr. Kolbe. Okay. And then I do have one other question 
before my time is up.
    Ms. Hatfield. I think our strategic plan points out the two 
major goal areas that we are trying to serve current and future 
publics and that is primarily in the direction of providing 
opportunities for a variety of multiple uses that Director Shea 
referred to, like opportunities for environmentally responsible 
recreational use, as well as environmentally responsible 
commercial uses.
    But I think throughout the strategic plan we have 
recognized that those uses need to be done in an 
environmentally sound manner that allows us to maintain the 
public lands for future uses, as well.
    But it certainly does reflect in the strategic plan the 
fact that our user base is changing to some extent from those 
traditional users to recreational users, for example, who are 
coming out and expecting to have facilities in some cases or, 
in the case with BLM, a lot of open spaces that they can enjoy.
    And so our strategic plan, I think, tries to take us in a 
direction where you can have the uses but it is done in an 
environmentally responsible manner.
    Mr. Kolbe. Can I be indulged for just one more question?
    Mr. Regula. Certainly.

               ferruginous pygmy owl biological opinions

    Mr. Kolbe. Let me just bring this to a very specific thing. 
We have one of the most contentious issues going right now, and 
I am sure you are aware of it, the ferruginous pygmy owl in 
Southern Arizona. It is different from most of the other 
endangered species debates that we have had in this country 
because this one is an urban issue. It is affecting all urban 
development there. But it also affects some of the rural areas, 
including some of the BLM lands.
    I am puzzled because it is my understanding that we have 
two biological opinions, both written by the Fish and Wildlife 
Service but by different people, one for the BLM lands and one 
for the Forest Service lands, and virtually adjacent to each 
other--in fact, intermixed, I believe--dealing with some 
allotments on grazing in the area north of Tucson, in Pinal 
County.
    In the case of the Forest Service biological opinion, there 
was a decision that it would not in any way affect the grazing, 
not affect the habitat for the pygmy owl. In the case of the 
individual who wrote it for the BLM, the conclusion was that it 
did. The concern, of course, is that this is going to lead you, 
or force you, into a decision that will remove all grazing from 
these allotments.
    Can you reconcile for me the disparity in these two 
opinions and where you are going with this?
    Mr. Shea. I can't, if you will, reconcile. I can tell you 
the process by which the reconciliation will occur.
    Secretary Glickman and Secretary Babbitt convened a meeting 
in Phoenix several months ago. They had representatives from 
the Forest Service, from the Fish and Wildlife Service, 
National Parks, BLM, Air Force. There were a number of federal 
agencies there.
    What we were finding in New Mexico and Arizona was a group 
of people from many different sides of issues were deciding 
that these issues should be resolved in courts and we were 
finding ourselves hit almost on a monthly basis with lawsuits. 
In fact, just last week we resolved one in New Mexico and when 
I met with Mike Dombeck yesterday I shared with him the terms 
of the settlement, I think because he is hoping to be able to 
resolve some of their disputes.
    Interestingly, this morning when I met with the Public 
Lands Council, one of the ranchers whose property is affected 
by the species you were mentioning was there and raised that 
issue specifically with me.
    I think the scientific hinge as to the 
differentinterpretations depends on whether or not the habitat that 
they are examining for purposes of the endangered species was manmade 
or whether it is a natural habitat. In the Forest Service, as I 
understand it, they determined that it was a natural habitat and in the 
BLM it was manmade and, therefore, there may be different applications.
    What we have to do between the Department of Agriculture 
and the Department of the Interior is give a consistent view. 
The Southwest Initiative is one of the forums in which that 
consistency is going to be approached. Obviously with the 
reauthorization of the Endangered Species Act one of the issues 
pending before Congress, we will be following carefully what 
the Congress determines the resolution to be there.
    I do want to make it clear from a personal perspective that 
there is much merit to having the Endangered Species Act there 
because I think it otherwise can easily have critical flora and 
fauna disappear not because we intend them to do but worse, 
unintentionally let it happen.
    So it may be an owl in Arizona or a minnow in Utah, but I 
think the process that requires communities to come together to 
examine how their habitat is being affected is a very important 
one that BLM and the Department of the Interior subscribe to.
    Mr. Kolbe. Thank you, Mr. Chairman. You have been very 
indulgent. I will have another couple of questions in another 
round.

                     facilities maintenance backlog

    Mr. Regula. Just to comment, I want to, Mr. Director, 
congratulate you on what you have done on the maintenance 
backlog. As you know, I have been interested in that and I see 
that you addressed it, I think, very effectively.
    Mr. Shea. Larry and his staff have been extraordinarily 
helpful in putting that together. Nina and I, in each of our 
phone calls with the state directors each month, remind them 
that one of the points of evaluation will be how they have 
actually spent the money on maintenance.

                            recreation fees

    Mr. Regula. That is great.
    One question on fees. Are they working well for you?
    Mr. Shea. Yes. We would like to be able and are proposing 
to expand those. There is a deep belief on the part of the 
public when they use that--Little Sahara in Utah is a great 
example--when the money is actually put to work there, people 
have a very positive attitude.
    One of the challenges that the Vice President made to 27 
bureau heads on August 4, the day I was sworn in, was to have 
people believe in their government. And it is interesting that 
we talk about the different bureaus and departments. A citizen 
doesn't make any distinction between Forest Service or BLM and, 
frankly, doesn't make any distinction really between Congress 
and the executive branch. We are the government.
    So one of the things that we are doing with the fee 
program, I think, is finding ways of renewing a contract with 
the citizenry, that there is a relationship between what they 
are paying in taxes and what they are able to use on public 
lands.
    Mr. Regula. Great.
    Do you have much of your land being occupied for ski 
resorts?
    Mr. Shea. I wish. The Forest Service does.
    Mr. Regula. Not much BLM?
    Mr. Shea. Actually I just want it noted for the record this 
is the first time in 42 years that I have not been able to ski. 
No, we don't have any ski resorts on BLM lands.
    Mr. Regula. I noted they were going to expand and I think 
maybe the fees we are getting for public lands are a little 
skimpy.
    Mr. Shea. Believe me, if we get in the ski business I will 
make sure that the fees are appropriate.

                              film permits

    Mr. Regula. Do you have any movies being made on BLM lands?
    Mr. Shea. We do and John Berry testified, I believe--he has 
proposed, as the Assistant Secretary for Policy Management and 
Budget, that we look at the possibility of having an agent to 
negotiate a fair market value, and I subscribe to that.
    Mr. Regula. We would be pleased to help you on that one 
because I have never gotten a free ticket for a movie. 
[Laughter.]

         interior columbia basin ecosystem management projects

    Mr. Nethercutt. Mr. Chairman, I thought you were going to 
say you had never been in a movie. There is a chance here for 
that.
    Mr. Shea, welcome, sir, and thanks for being here.
    I notice in the budget that you have requested a $3.3 
million increase for noxious weed management nationwide. About 
a third of that, $980,000 is intended to be used for the 
Interior Columbia Basin Ecosystem Management Project.
    If that project doesn't reach a record of decision during 
fiscal year 1999, do you still plan to go forward with that 
noxious weed work planned in the area?
    Mr. Shea. Yes. Our people tell me that the United States 
loses approximately $100 million a year to nonnative weeds 
invading areas. The story I tell is in Tooele County, just west 
of Salt Lake County, in 1927 there is a county record of the 
commission meeting and there was a two-acre parcel of land that 
was infected with knapweed and the county commissioners had to 
debate whether they would spend $100 to eradicate that two 
acres. They decided not to and we now have over 150,000 acres 
of knapweed in that area.
    So the $3.3 million is a modest start but the area where I 
want to stress, and before you came, we were discussing that 
the BLM is sponsoring a science symposium in Denver on weeds on 
April 8, 9 and 10 and we are getting actual research 
biologists, botanists, with field managers because oftentimes 
what happens, I think, is the field people know what they need 
to do but they don't always know what the scientific basis of 
doing it is. Then you have laboratory scientists who know 
answers to thousands and thousands of questions but not 
necessarily the ones that the field wants.
    So I am trying to force some interaction there and the $3.3 
million addition will go to that. If it is not spent directly 
in the Columbia Basin, there will be other places where it will 
be spent.
    Mr. Nethercutt. Would they be within the project areas?
    Mr. Shea. Yes.
    Mr. Nethercutt. I want to be sure; if you don't get a 
decision, you are not going to take the money and spend it in 
Tennessee; you will spend it within--sorry to pressure you like 
that.
    Mr. Wamp. It won't be Tennessee, Mr. Nethercutt. We have 
already been down that road. We are east of the Mississippi.
    Mr. Shea. The Secretary, I think, has developed a process 
that encouraged collaboration by different states and the 
Interior Columbia Basin is one that has moved the furthest. We 
can look at the southern part of California forthe desert 
population. We can look in Arizona and New Mexico and the Southwest 
Initiative. We can look at the Colorado Plateau. But generally the 
money we are asking for will be spent in the region specified in our 
budget.
    Mr. Nethercutt. You are requesting an additional almost 
$6.8 million to implement the Interior Columbia Basin Project 
and I understand you are going to plan to dedicate about $16 
million in existing funds for implementation. Is that accurate?
    Mr. Shea. That is correct.
    Mr. Nethercutt. How many FTEs do you plan to have dedicated 
to this effort in the next fiscal year?
    Mr. Shea. I am going to defer to Larry Benna on the 
question of how many FTEs. I do not believe that there is a net 
increase.
    Mr. Benna. There may be a small one, Congressman.
    [The information follows:]

          Interior Columbia Basin Ecosystem Management Project

    In 1999, the first year of implementation of the Interior 
Columbia Basin Ecosystem Management Project the BLM does not 
anticipate a major need or increase in permanent employees. 
Over 80 percent of available funds are expected to be used for 
on the ground management including weed eradication, stream 
restorations, forest thinning, vegetative management and NEPA-
related work. Remaining funds would support implementation 
transition activities including sub-basin reviews, watershed 
analysis and technology transfer to field units.

    Mr. Shea. That is not the major part of what we are 
proposing to do. Most of what we are doing there is going to be 
contract work of a scientific and sociological basis, looking 
at how the impact will be felt in the area. We can get back to 
you, though, with the precise number.

                            year 2000 issue

    Mr. Nethercutt. That would be great.
    I see Mr. Kolbe's book on ``Time Bomb 2000.'' I assume your 
agency is working--maybe that has already been discussed--on 
the Y2K problem.
    Mr. Shea. Yes.
    Mr. Nethercutt. Are you prepared for that, and assuming you 
are under existing budget numbers?
    Mr. Shea. We were just upgraded yesterday, my e-mail told 
me, by OMB from the ``at-risk'' category to ``if you can 
continue on this path, you will be prepared.'' And with ALMRS 
certainly being our major effort----
    Mr. Wamp. Would the gentleman yield?
    Mr. Nethercutt. Sure.
    Mr. Wamp. The day before they come here they all get 
upgraded. It is the second time in two weeks.
    Thank you.
    Mr. Shea. There must be a conspiracy.
    Well, I can tell you with the Automated Land and Mineral 
Record System, ALMRS, from day one that has been a 2000-
friendly information system process.
    Where we worry, and I think any federal agency has to worry 
about this, we have an enormous amount of interaction with 
counties and states. So it is going to be fittingly ironic that 
we get prepared, spend the money in time to do it but then some 
external agency that is not within the federal umbrella will 
come in with a system that is not, and can cause some enormous 
problems.
    Mr. Nethercutt. I think my time is about expired, Mr. 
Chairman.
    I would just say, Mr. Shea, you bring up a refreshing 
attitude and a welcome one to the agency. I appreciate your 
involvement in the Midnight Mine issue out in our part of the 
country and I appreciate the background and practical 
experience, real-world experience you have had and I wish you 
well and look forward to working with you.
    Mr. Shea. I do hope we will continue to seek a common 
solution with Midnight Mine. I think there is one there if we 
persist and get the federal family together.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Regula. Let me congratulate you on your cost-sharing 
partnerships. I would like to see a lot more of that in 
government and I think your agency is leading the way. That is 
a very positive approach.
    Mr. Skaggs.

                  economic benefits from public lands

    Mr. Skaggs. Thank you, Mr. Chairman. A couple more items.
    I was intrigued with Mr. Kolbe's asking you about your 
mission statement and as I was listening to your response. It 
reminded me of a now fairly regular conversation we have with 
your colleague at the Forest Service about the extent to which 
the Forest Service contributes to GDP through its traditional 
role of timbering and managing the forest for harvest versus 
managing for recreation. I think it is something like a ten-to-
one ratio of recreational uses and what is derived forthe 
nation's economy from that kind of activity versus timbering.
    Do you have any comparable at least back-of-the-envelope 
sense about how things for BLM break down between resource 
extraction activities, on the one hand, and recreation on the 
other?
    Mr. Shea. I don't have at the tip of my tongue the numbers. 
I know that we have them and I would like to prepare a letter 
response to you on that.
    [The information follows:]

                  Economic Benefits From Public Lands

    The total estimated direct and indirect annual value of the 
BLM's commercial activities is $27.5 billion (source--1997 BLM 
Annual Report). The annual economic impacts of recreation on 
BLM managed lands are estimated to range between $8.0 to $15.5 
billion (source--State and National Economic Impacts Associated 
with Travel Related Expenditures by Recreational Visitors to 
Land Managed by the U.S. Department of the Interior, 1/16/98). 
As part of the BLM's Strategic Plan, efforts are underway to 
further study and quantify the economic benefits from public 
land activities.

    Mr. Shea. I do know that we are increasing our visitors, 
recreation visitors, by 7 to 12 percent per year. We just 
recently came out with a book which I think many of you have 
gotten called ``Beyond the National Parks,'' which lists over 
200 different areas that people can go and visit public lands 
that are administered by the BLM.
    We have not done the economic extrapolation of how much 
economic activity that reflects. I know in some rural parts of 
Colorado or Utah the attitude is, ``Well, they come; they don't 
spend any money,'' but at least some of the camping equipment I 
have seen requires spending some money in the local areas. I 
would like to give you a better answer if I might by letter.
    I do think we need to be, and that is where I think the 
Chairman's effort on the maintenance is so important, that if 
the public does come and they don't have a good experience, not 
only are they disgruntled about the government but they won't 
come back again. And we want to, as a good neighbor, invite 
them back with appropriate use, as Nina was mentioning.

                          weather information

    Mr. Skaggs. I think it is real important for us to have at 
least a rough fix on what the proportions are in this sense, in 
making good judgments about your budget. And my hunch is there 
is some lag time in what is really going on out there and what 
we think is going on out there.
    The other thing, and then I will need to leave for another 
committee assignment. I have been trying to get a similar 
record established with federal land management agencies of the 
significance of weather information that you receive in either 
avoiding costs because you are able to prepare for natural 
phenomena or however it may affect your agency's holdings. 
Again, Mr. Regula and Mr. Kolbe and I are all on the 
subcommittee that funds NOAA and I would like to get some sense 
of how it matters to you what goes on the NOAA side of the 
government.
    Mr. Shea. The most critical area for us is the fire side. 
As you know, with the tragedy in Colorado, much of that was due 
to not the best weather information, particularly as it related 
to humidity, that was available. So we are heavily dependent on 
good weather and timely weather information.
    The tragedy that happened in Northern Arizona last summer 
with the French hikers is a good example, to me, where we could 
use some of the defense technology, specifically that the Navy 
has, to provide early warning situations for flash floods. And 
I think as we have increasing recreational use, there will be a 
reasonable expectation that kind of information be made 
available and we try to take some appropriate steps.
    When we get into longer term questions as it relates to 
rangeland management and our implementation of standard and 
guidelines, then the weather information is again critical, not 
in real time but in terms of planning time. And I think there 
it is sort of the old cutting off your nose despite your face. 
If we don't adequately have the weather information, if NOAA 
can't provide it, then the longer term effect is going to be 
far more costly. So I am a strong supporter of NOAA and a 
weather system that we can rely on.
    Mr. Skaggs. Let me invite you to flesh out with examples 
and any further ability that you may have to actually attach 
dollar value, if you can submit that for the record.
    [The information follows:]

                          Weather Information

    The significance of weather information, to either avoid 
cost by preparing for natural phenomena or affect our 
operations, may be best illustrated by looking at fire 
management activities. Fire, be it a prescribed fire or a 
raging wildland fire, or the smoke from either is a weather 
driven event. Federal, state and local agencies spend millions 
of dollars annually in preparedness activities to reduce the 
risk to life, property and resources from wildfire, and improve 
the safety margin for the use of fire under prescribed 
conditions. One of the key elements in working with fire is the 
role the National Weather Service (NWS) fire weather 
meteorologist. Knowing short term and long term forecasting for 
local humidities, wind direction and speed, movement of fronts, 
possibilities of dry lightning, and upper air stability are 
just a few of the key meteorological considerations requested 
hundreds of times daily across the country. These components 
can spell the difference between success or failure on 
prescribed fires, and the loss of life and property on wildland 
fires. Beyond the issues of life, a single escaped wildland 
fire, that could have been prevented if accurate weather 
information was available, can easily cost the government tens 
of thousands of dollars to suppress and rehabilitate.
    The National Wildfire Coordinating Group (NWCG), an 
organization that represents the federal agencies, the 50 State 
Foresters, and the US Fire Administration, want the NWS to 
maintain its leadership role in the fire weather program. 
However, the user agencies in NWCG are concerned that this 
role, which is needed now more than any time in the past, is in 
jeopardy. Since an Intergovernmental Fire Weather Users Summit 
in Santa Monica, California in 1994, several events have 
occurred which caused serious concerns about NWS's ability to 
provide an acceptable fire weather program. The user agencies 
of this critical service are prepared to accept responsibility 
for portions of the program where NWS is unwilling or unable to 
meet the needs. Actions by wildland fire agencies in different 
areas of the country to allocate limited personnel ceilings and 
even more scarce funding for fire weather services illustrate 
the importance of a viable National Weather Service fire 
weather program.

    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Kolbe.

                    southwest conservation strategy

    Mr. Kolbe. Thank you, Mr. Chairman. I just have one other 
question to ask.
    You had talked about the Southwest conservation strategy, 
and I just wanted to give you an opportunity to describe that a 
little bit more. It has been described as an effort to recover 
species at risk in the Southwest, particularly Arizona and New 
Mexico, such as the Southwest willow flycatcher. And also your 
testimony notes that we have had a tremendous increase in the 
number of appeals of decisions and lawsuits that have been 
filed, costing, I think, more than $10 million a year.
    Senator McCain and I introduced and sponsored legislation 
that was signed into the law by the President a month ago that 
creates--you and I talked about this a little bit in my 
office--the Udall Center as an environmental mediation 
organization for trying to settle some of these disputes. The 
idea is to bring together--to find a neutral place to bring 
together the different parties on some of these issues and I am 
hopeful that maybe we can find some ways that we can work with 
BLM on this to make this a going concern.
    Could you just give me some detail of how the Southwest 
conservation strategy would work and how the $800,000 that you 
would spend there might actually reduce some of the lawsuits we 
have?
    Mr. Shea. Let me, if I might, first tell you that after our 
meeting I did call Denise Meredith, our state director there, 
and encouraged her to get in contact with the Udall Center, to 
use that facility.
    The alternative dispute resolution that represents, to me, 
is one of the prime points of coordination that will go on in 
the Southwest Initiative. When we met in Phoenix, it was the 
first time in, I think, several years, if not decades, that all 
of the federal agencies had gotten together in the field, as 
opposed to gathering in Washington, D.C.
    And the instructions from Secretary Glickman and Secretary 
Babbitt were very clear. They wanted to have field-based 
coordination. They didn't want the people in the Forest Service 
or Fish and Wildlife or BLM to be calling back to Washington, 
people in Washington having a meeting and then sending out 
instructions to the separate units. And the co-chairs, one from 
Fish and Wildlife and the other from National Parks, are 
actually there, one in Phoenix and one in Denver.
    And the secretaries believe and certainly it has been the 
practice to date that getting the local BLM, Forest Service, 
Fish and Wildlife employees empowered to make decisions is 
going to resolve the matter much more quickly.
    I think one of the things that happens in litigation is 
that somebody brings a lawsuit, there is an established course 
of discovery, but much of the communication is not with the 
people in the field; it is with the people in Washington.
    So when we empower them, as the secretaries have attempted 
to do with the Southwest Initiative, I believe you will get 
those people making decisions that will facilitate locals 
coming together, through mediation, and avoiding litigation.
    I told the Public Lands Council--in fact, Assistant 
Secretary Bob Armstrong was the one who said this--he said, if 
we could get just one half of the amount of money that is spent 
in litigation and apply it to on-the-ground solutions, many of 
the contentious areas would disappear. They wouldn't all 
disappear. There would still be some litigation. But many of 
them, specifically in the Southwest, would go away and you 
could have the multiple use that was environmentally 
responsible.
    Mr. Kolbe. Thank you very much, Mr. Shea. I appreciate the 
approach you are taking and certainly a lot of us wish you 
well. There are a lot of others out there that are probably 
determined to see that approach fail, but I think ultimately it 
has to succeed if we are going to get beyond this kind of 
confrontation approach to land management, land use and 
conservation efforts.
    Mr. Chairman, I have a whole series of questions which I 
will submit for the record dealing with the San Pedro National 
Riparian Conservation Area. We have again one of the most 
difficult battles going on down there over the water in that 
valley, as you know, and the growth of the Sierra Vista area 
and particularly Fort Huachuca, which is one of the most 
important military posts for the U.S. Army. I have some 
questions which go to the water use in that area and the 
management. But, Mr. Chairman, I will submit those for the 
record, and I thank you very much, Mr. Shea.
    Mr. Shea. Thank you, Mr. Kolbe.
    Mr. Regula. I think a number of members will have questions 
for the record and we appreciate a prompt reply on those.
    Mr. Shea. We will get them back to you very quickly.

           transfer of oil and gas inspection and enforcement

    Mr. Regula. What is the status of your negotiations to 
transfer inspection and enforcement activities to the states? 
This kind of goes to this partnership sharing issue.
    Mr. Shea. I will let Mr. Fry answer that.
    Mr. Fry. As the Chairman knows, a couple of years ago, out 
of the Vice President's office, as part of reinventing 
government, we started looking at the possibility of delegating 
some of the inspection and enforcement functions from the BLM 
to the states. We have had lots of discussions with the states 
about those delegations.
    I think that it is fair to say that where we are today is 
that some of the states are not particularly interested in 
delegation but would like to have the entire program turned 
over to them, the entire operation of oil and gas on federal 
lands, as opposed to a delegation of just the inspection 
andenforcement program.
    So in some recent meetings that we have had with the IOGCC 
we have said we are willing to talk about some of those kinds 
of transfers, but we think that that needs to be on a state by 
state basis. We think we need to make sure that we meet some 
standards, some federal standards that have been set, that 
there is a net saving ultimately for the taxpayer. If you meet 
those kinds of standards, we are willing to work with states on 
an individual basis to look at the transfer of some of those 
additional functions that were not part of the Vice President's 
original proposal.
    Mr. Regula. I assume some states are much better equipped 
to do this than others.
    Mr. Fry. Some are. We already have agreements with some 
states. We have agreements with California and Colorado, where 
some of the functions where we have been involved in the past, 
they are now involved in.
    There has been a lot of debate, though, about what it is 
people do. You kind of get into an apples-and-oranges 
discussion. We talk about transferring oil and gas functions 
but the federal government is involved in a lot of things. We 
end up doing a lot of NEPA compliance. Now, that is not 
something that the states are necessarily involved in.
    One of the things that I have been most concerned about is 
I do think it is bad government when you have two different 
pick-up trucks, one that says BLM on the side and another one 
that says Wyoming on the side show up at the same location, 
doing the same thing. It makes no sense to do that. We have to 
find a way where, whether it is the federal government that 
shows up or the state government that shows up to do some of 
this inspection and enforcement work, that it is consistent and 
is not duplicative of efforts.
    So that is where we would like to end up at the end of the 
day and we are still hopeful that something can be worked out 
where we will avoid those kinds of anomalies.

                              ward valley

    Mr. Regula. Well, along those lines, I notice that the BLM 
has insisted on performing additional testing at the Ward 
Valley site when the State of California has indicated that it 
is willing to perform these tests. Is there a reason for that? 
I mean, Ward Valley has been around for years.
    Mr. Fry. Ward Valley testing--my goodness. There has been a 
continuing debate between the Department of the Interior of the 
federal government and the state about the testing. We want to 
make sure that the tests that are done ensure that there will 
be a safe environment for the nuclear waste disposal facility 
that is proposed right now by the state.
    We have never seen the standards by which the state wants 
to do their tests. There were lots of negotiations to try to 
work out a standard protocol but we have never seen exactly 
what the protocol of the state is, so we have never been sure 
exactly whether or not that safety standard would be met. That 
is something that I am sure your people would continue to be 
willing to talk about.
    Right now, as you are probably aware, we have some tribes 
who have raised not only some environmental issues but some 
tribal religious issues who have taken over camping at the 
site, so we are right now not going forward with anything.
    Mr. Shea. Mr. Chairman, that is a situation that is very 
much in the stages of on-going negotiation. As Tom said, we 
attempted to come up with an agreement as to the protocol on 
the science that would be performed so that a single drilling 
operation could be done. We were not able to get that 
information from the state, so we are proceeding to approach it 
with deliberate speed. We are not going to be rushing on any of 
this until we can come up with some coordinated response.
    Mr. Regula. I assume you recognize the need to get the 
testing program moved, though.
    Mr. Shea. The testing program must go forward. We need to 
have that information available.

              grand staircase escalante national monument

    Mr. Regula. What actions are you taking to ensure the 
cooperation and coordination of Kane and Garfield Counties at 
the Grand Staircase Escalante? Is it working out pretty well?
    Mr. Shea. Last year we made available additional funding 
for search and rescue. They quite properly were concerned with 
an increase in visitation, that there would be an increased 
demand. That money was not used last year and we believe it is 
being carried forward.
    So Jerry Meredith, our person in charge of the Grand 
Staircase project, has a very good working relationship with 
them and, quite frankly, I think as we come into the final 
planning phase of the Grand Staircase, the areas of 
cooperation, both with the county and the state, will be of 
premium value in putting those as part of the plan.

                       resource advisory councils

    Mr. Regula. The resource advisory councils have been in 
place and operating for several years. In your opinion, how 
effective have they been?
    Mr. Shea. Very effective. A good example is in Colorado 
where a rancher from Grand Junction said that prior to the RACs 
being put in place he would not sit at the same table as a 
couple of people from an environmental group. In fact, it took 
the first two months for the State Director to cajole and 
convince some parties to actually sit around the table.
    What they found was that indeed they still had some areas 
of significant disagreement but they also had some very 
creative solutions for how the standards and guidelines could 
be developed and we believe they will have some great advice 
for the Secretary on how they can be administered.
    So the Secretary is a strong advocate, as am I, of getting 
the local decision groups together, seated around a table, 
making decisions that are then recommendations to the 
Department for implementation.

                              in-holdings

    Mr. Regula. I haven't looked in detail at your Land and 
Water Conservation Fund purchase requests. Are you trying to 
address the in-holding problem? And as a corollary to that, I 
notice you mentioned the right-of-way situation in your opening 
statement. I am sure that is also a somewhat similar problem 
that goes with in-holdings. Are you trying to get those areas 
into the BLM portfolio?
    Mr. Shea. The checkerboard pattern is a wonderful legacy, 
in some sense, of opportunity but it is perplexing as to how 
you solve those problems, specifically in-holdings. I think 
Utah is going to be potentially, with the good work of the 
Secretary and the Department and Governor Leavitt and the 
delegation, a possible point of proud reference for resolving 
some of those matters.
    But Congressman Hansen, as you probably know, is having a 
hearing next week on land appraisals. One of the critical 
questions is how to appraise an in-holding and how to attach a 
value of the statutory right of gaining access to that 
property.
    So I think there are some solutions there. I think, quite 
frankly, if BLM and other land management agencies are able to 
come up with an inventory and monitoring process that is 
scientifically sound and can consolidate their lands around 
those that need to have the kind of conservation effort and 
development effort that is part of our statutory charter, we 
will be roads ahead, no pun intended, to get the problem behind 
us.
    We can't, in my judgment, go into the 21st century with as 
extensive in-holdings as we have, so that is going to be a high 
priority for us.
    Mr. Regula. So it is probably an overwhelming problem, but 
one you are very sensitive to and hope to address?
    Mr. Shea. And I think as the press has been quick to 
report, there are a number of instances where people are 
actually purchasing in-holdings because of their potential 
leverage that they have with land management agencies to buy 
them out.

                           budget priorities

    Mr. Regula. Yes, I can understand that.
    I will have a number of questions to submit for the record. 
We will get back to you on adjusting priorities, if necessary, 
because we are not, at this point, knowledgeable as to what the 
302(b) allocation will be. Therefore, once we know that, we 
want to respect whatever adjustments you would suggest be made 
in your priority choices if there is a greater limitation on 
funding than we might know at the present time.
    Mr. Shea. I appreciate that and we certainly will be 
working with you and the staff to make those adjustments as we 
are required to.

                         cooperative management

    Mr. Regula. I like your good neighbor science and other 
programs that you suggested at the opening. I am quite sure you 
will implement it and this probably will go a long way in 
creating a better feeling on the part of the public that you 
deal with.
    Mr. Shea. I do think the Interior Columbia Basin is a great 
example of good cooperation between county, state and federal 
government and I know there are quite properly some critics of 
how that program is going forward. But I think my response 
frequently has been what alternative do we have if we don't 
look at a regional planning process that involves all those 
levels?
    When I was in Boise in February I sat down with the multi-
federal agencies that were around the table and was very 
impressed with their dedication to coming up with common sense 
solutions that didn't have jurisdictional boundaries behind 
them. It was what is going to make this habitat, what is going 
to make this river, what is going to make the land more 
available for public use or for conservation in some instances. 
So I think that will be a good example.
    Mr. Regula. Well, I am impressed with what you are trying 
to do, working with other agencies and trying to develop a 
cooperative program with the local groups. To the public, there 
is one government. We try to get the mission accomplished in 
the most effective way. It would appear to me that you are 
taking that approach.
    Mr. Shea. Good.
    Mr. Regula. We are pleased to see that.
    I think other than the questions for the record, that will 
conclude our hearing today. Thank you very much for coming and 
stay with it.
    Mr. Shea. We will.
    Mr. Regula. The hearing is adjourned
    [The following questions and answers were submitted for the 
record:]


[Pages 273 - 347--The official Committee record contains additional material here.]








=======================================================================

                       Department of the Interior

                     U.S. Fish and Wildlife Service

=======================================================================









                                         Wednesday, March 11, 1998.

                UNITED STATES FISH AND WILDLIFE SERVICE

                               WITNESSES

DONALD J. BARRY, ACTING ASSISTANT SECRETARY FOR FISH AND WILDLIFE AND 
    PARKS, U.S. DEPARTMENT OF THE INTERIOR
JAMIE RAPPAPORT CLARK, DIRECTOR, U.S. FISH AND WILDLIFE SERVICE
GARY V. CECCUCCI, BUDGET OFFICER, U.S. FISH AND WILDLIFE SERVICE


[Pages 352 - 354--The official Committee record contains additional material here.]





                            Opening Remarks

    Mr. Regula. Okay, we'll open the committee this morning. 
I'll say at the outset that all statements will be included in 
the record in their entirety. We appreciate your summarizing 
your remarks.
    And let's see, Director, I assume you're going to lead off.
    Mr. Barry. Mr. Chairman, if I could, I just would like to 
make a general opening statement, and then Jamie will present 
the official testimony.
    Mr. Regula. Okay.
    Mr. Barry. I've spent 24 years working with Fish and 
Wildlife Service type issues. The one thing that I just wanted 
to highlight today, and particularly to thank the committee, 
has to do with the, I think, recent awareness and support that 
has occurred both with the appropriations committees and also 
with the substantive committees on behalf of the National 
Wildlife Refuge System.
    Last year, as you know, Congress passed the most sweeping 
refuge reform legislation in 30 years. And the appropriations 
committees followed suit and presented the refuge system with 
the largest increase in funding for operations and maintenance 
that they had received in many, many years, if not decades.
    That was money desperately needed and much appreciated. I 
should say that the budget this year the Fish and Wildlife 
Service has tried to build on the excellent base you provided 
in 1998. It asks for a significant increase for both operations 
and maintenance.
    My one comment or observation would be that if Congress is 
able to provide the additional funding that's being requested 
in the budget for the Service for the refuge system today, when 
added to the base, will provide, in those two years alone, 1998 
and 1999, probably the single largest infusion of resources 
into the refuge system in the history of the refuge system.
    I think it's desperately needed, and I should say the 
wildlife refuge system, in my eyes, is sort of the overlooked 
system, that is very well managed.
    Mr. Regula. A well kept secret.
    Mr. Barry. It is. I was down in the Florida Everglades this 
last week, had an occasion to go to the Florida Panther 
Wildlife Refuge. And I noticed a bathroom facility. It looked 
new, so I asked the refuge manager how much it cost. He said, 
$9,000. [Laughter.]
    Mr. Regula. Probably not earthquake proof, though.
    Mr. Barry. No, definitely not earthquake proof. And the 
point was, it was built with their maintenance people. That's 
an example of what I think the Service has proven it can do. 
They take the money that you provide them, they stretch it to 
the maximum. I think you can generally be proud of what they 
have done.
    I would just urge you to continue to look favorably upon 
the refuge system with the funding requests. These two years 
could really make a huge difference in the refuge system and be 
a real turning point in the health and vitality of the refuge 
system.
    The only other thing I'd like to mention, Mr. Chairman, is 
that there has been a past criticism that the Federal 
Government seems to buy too much land and doesn't take care 
enough of the land that it acquires. This year, if you take a 
look at the Fish and Wildlife Service's budget with regard to 
the refuge system, what you will notice is that the actual 
amount of money that is set aside for land acquisition, actual 
acreage acquisition, is almost equal in amount to the amount of 
money that the Fish and Wildlife Service is requesting for 
maintenance of the refuge systems.
    So for the first time, those two activities are in balance. 
They're asking for as much money to maintain the refuge system 
as they are for the acquisition of new refuge lands. I think 
that's an example of where they've heard the message that we 
need to do a better job in taking care of what they have.
    Thank you very much.
    Mr. Regula. Thank you.
    Jamie.
    Ms. Clark. Thank you, Mr. Chairman, and good morning.
    This is my first appearance before the subcommittee as 
Director of the Fish and Wildlife Service. I'm honored to be 
representing almost 8,000 dedicated Fish and Wildlife 
professionals who work for this agency.
    The Fish and Wildlife Service may be a small agency in 
terms of size, but our conservation mission contributes greatly 
to the overall quality of life to all our fellow citizens.
    Before discussing this morning the details of our 1999 
budget, I'd like to take a moment to acknowledge a person who's 
been a great supporter of the Fish and Wildlife Service for 
many years. Though Mr. Yates isn't here this morning, I'd like 
to acknowledge him as a great friend and a great leader for the 
Fish and Wildlife Service. He's been instrumental in expanding 
the refuge system and in conservation of migratory birds and 
endangered species.
    Next year, when I appear before this subcommittee, Mr. 
Yates will not be sitting across the table. He will be sorely 
missed by the Fish and Wildlife Service. I hope, and I will 
invite him, to come back and help us celebrate the 100th 
anniversary of the National Wildlife Refuge System in 2003.

                           budget priorities

    President Clinton's fiscal year 1999 budget request of $1.4 
billion is the highest funding level ever for the Service, 
reflecting the Administration's strong commitment to conserving 
our Nation's fish and wildlife resources. This request builds 
upon your work, Mr. Chairman, and that of this subcommittee in 
appropriating an additional $74.8 million in 1998.
    On behalf of the millions of Americans who enjoy and value 
wildlife, including all of us, thank you for that support.
    The Service's priorities in the coming year include 
continued improvement in the health and vitality of the 
National Wildlife Refuge System, effective management of the 
Endangered Species Act, and progress in focusing our expertise 
on helping restore degraded and depleted aquatic habitats and 
species. The President's budget contains increases for each of 
these priorities, and offers us a great opportunity to further 
shape the future of conservation in America.
    I've been gratified in recent years to see the increased 
commitment from both the Administration and the Congress to 
strengthening the refuge system. It's been a long time since 
things looked so good for the system. Thanks particularly to 
additional funding provided by the committee last year, we've 
begun to take care of the serious operations and maintenance 
backlogs plaguing the system nationwide. The additional $25.8 
million that we seek in 1999 will increase the momentum needed 
to address these backlogs.
    The refuge system sets a proud standard for wildlife 
conservation around the world. I look forward to working with 
this committee in the future to ensure that it's healthy and 
vibrant for 2003, on its birthday.
    The President's proposed additional $35.8 million for the 
Service's endangered species program will enable us to continue 
our efforts to improve the effectiveness of the Endangered 
Species Act. Every endangered species listing I sign represents 
failure, failure to prevent the slide towards extinction. We 
need to continue stretching our imagination and look for new 
ways to succeed and prevent the need to list species.
    Working with private landowners is a key ingredient in our 
search for success. The budget increases we have received and 
are requesting for this coming year will enhance our ability to 
work with partners outside the Fish and Wildlife Service.
    My experience has also shown me that reversing declines in 
species will be closely linked to our ability to restore 
degraded waterways. Invasive species like the zebra mussel and 
a little fish called the round goby are wreaking both 
ecological and economic havoc in our lakes and streams.
    The budget proposes an increase of almost $4.4 million for 
our fisheries program. With these funds, we will continue to 
expand our efforts to control invasive species, to address fish 
diseases like pfiesteria and whirling disease, restore native 
fish species in the southwest and lake trout and other sport 
fish in the Great Lakes. We'll also continue to address the 
backlog of fish hatchery maintenance and rehabilitation 
projects.

                       organizational maintenance

    Mr. Chairman, the Service also needs some organizational 
maintenance, to assure that the agency can manage and marshal 
our resources as effectively as possible. That's why the 
Administration is proposing to divide the Service's Pacific 
region into two regions, establishing a new Pacific Southwest 
regional office in Sacramento, California.
    As I see it, the proposal does two things. It enables us to 
meet the increasingly complex conservation challenges in 
California and Nevada, including Bay Delta Restoration 
agreement, the Salton Sea, and the growing demand for habitat 
conservation plan technical assistance. It also continues to 
focus regional resources in the northwest and Pacific Basin to 
address things like the Pacific Islands extinction crisis, 
anadromous fisheries conservation and implementation of forest 
related habitat conservation initiatives.
    We need to make this organizational change, Mr. Chairman. I 
know you've worked hard to win budget increases for Fish and 
Wildlife Service programs and I wouldn't ask for this unless I 
felt it necessary to provide the support that our employees and 
your constituents deserve.
    In closing, I'd like to take this opportunity to invite the 
members of this committee and their staffs to visit our 
refuges, our hatcheries and our ecological field stations 
nationwide. You'll see first-hand the tremendous dedication of 
our people. And I think you'll return to Washington well 
satisfied with what we are accomplishing with the funding 
provided by this subcommittee and the Congress.
    Mr. Chairman, this concludes my statement, and I'd be happy 
to answer any questions you or other members may have.
    [The statement follows:]


[Pages 359 - 365--The official Committee record contains additional material here.]



                          fixed cost increases

    Mr. Regula. Thank you.
    Mr. Ceccucci, would you like to make a comment?
    Mr. Ceccucci. No, thank you, Mr. Chairman.
    Mr. Regula. Okay. First of all, how much of your proposed 
increases are due to so-called uncontrollable fixed cost 
increases, such as pay?
    Ms. Clark. About $12 million, Mr. Chairman.
    Mr. Regula. Out of the increase that would be represented 
only by fixed costs?
    Ms. Clark. Right. All covered within our increase request.

                          new regional office

    Mr. Regula. On the California situation, if this were to be 
done in the way which you've suggested, what would be the 
additional cost, and how many additional FTEs would you 
require?
    Ms. Clark. For the California regional office, we have a 
reprogramming request before you today that asks for 
reprogramming of $4 million in 1998 and an additional request 
contained in the 1999 Administration's budget of $3.5 million, 
$3 million for the California regional office, and an 
additional $500,000 for Portland regional office to conduct the 
administrative cross servicing. So the Sacramento regional 
office is a total of $7 million overall, but only----
    Mr. Regula. Additional?
    Ms. Clark. No. Additional is only $3 million.
    Mr. Regula. Plus the $500,000?
    Ms. Clark. Plus the $500,000 for the Portland----
    Mr. Regula. So $3.5 million additional cost?
    Ms. Clark. Yes, Mr. Chairman.
    Mr. Regula. How many FTEs?
    Ms. Clark. Eighty-eight for California.
    Mr. Dicks. Are those additional, or are they transfers from 
Portland?
    Ms. Clark. Some of those are transfers. About half of those 
are transfers.
    Mr. Regula. But I think overall it's an addition, is that 
correct?
    Ms. Clark. Yes, Mr. Chairman, there is a net gain of about 
47 FTEs. There will be some FTEs transferred from our Portland 
regional office. That portion of the operational program that 
does work in California and Nevada today.

                 endangered species act reauthorization

    Mr. Regula. How do you feel about the Kempthorne bill? Does 
anyone want to express an opinion on it?
    Ms. Clark. Yes, I have. On behalf of the Administration, I 
testified at a hearing before the Senate Environment and Public 
Works Committee on the Senate bill 1180, and provided, on 
behalf of the Administration, support for the bill. We did 
acknowledge the increased process associated with the bill, and 
acknowledged and recognized our concern about the need for 
increased funding. But overall, the Administration has 
acknowledged support for the bill.
    Mr. Regula. Of course, you have the experience of having 
run the program. If you could write the bill, what would you 
change in the present Act?
    Ms. Clark. In the present Act today? I think that I would 
take a lot of the work that the Administration has done over 
the last four or five years, a lot of the administrative 
reforms that have made the implementation of the Act much more 
clear, much more efficient, much more sensitive to private 
landowner needs and codify that into the statute. I would 
clarify and give up-front acknowledgement for the notion of 
candidate conservation, addressing species needs before they 
cascade onto the Federal endangered species list.
    I would build a law that was steeped in incentives for 
landowners. What we've found is that the American public really 
does support endangered species conservation and declining 
species conservation and habitat conservation. Their fear is 
regulation, and we need to find a way to allow private 
landowners to do good things without fear of regulation.

                       habitat conservation plans

    Mr. Regula. I would assume you would support the expansion 
of HCPs, then?
    Ms. Clark. Absolutely. HCPs are voluntary agreements. We 
provide a tremendous amount of technical assistance, and they 
are creating long-term habitat conservation across the country. 
We're looking to expand the success we've had in California and 
the southeast across the country.
    Mr. Dicks. Mr. Chairman.
    Mr. Regula. I'll yield.
    Mr. Dicks. Could we hear from Mr. Barry? He is one of the 
true experts on the ESA, and I'd like to hear if he has 
anything in addition.
    Mr. Regula. You take your time, Mr. Dicks, I'm finished.
    Mr. Dicks. Okay.
    Mr. Barry. Actually, Jamie hit the exact same list that I 
was thinking of, the administrative reforms that the 
Administration has worked on to promote incentives for 
landowners, the expansion of habitat conservation planning as a 
conservation tool that makes sense.
    Mr. Dicks. Multi-species?
    Mr. Barry. Multi-species, ratification of the 
Administration's no-surprises policy. All of these things have 
provided encouragement to private landowners to step forward 
and work with us. I've worked on the Endangered Species Act for 
23 years. I've never noticed a greater change in attitude on 
private landowner's parts in their willingness to work with the 
Fish and Wildlife Service based on these reforms.
    We have done it all based on our interpretation of current 
law. But it would be very helpful for Congress to ratify what 
we have done administratively and to provide us with clearer 
footing, more firm footing on a lot of these administrative 
reforms. Jamie's list was exactly the list that I would have 
provided.

                 esa incentives for private landowners

    Mr. Dicks. What about smaller landowners? I mean, I think 
there's something we know, it's one thing for the Weyerhausers 
and the Plum Creeks and the Murray Pacifics to deal with these. 
What about the small, individual person, private landowner?
    Mr. Barry. I think Jamie's budget acknowledges the value 
and the need for providing incentives that are targeted 
specifically to smaller landowners. The safe harbor grant 
program that is proposed is specifically targeted to smaller 
landowners. The Fish and Wildlife Service, Congressman Dicks, 
has also gone out of its way to try to develop ways of 
assisting private landowners through other creative means. For 
instance, in the south, the Fish and Wildlife Service is 
developing statewide habitat conservation plans for the red-
cockaded woodpecker with State departments of forestry.
    In which case, what happened in this instance is that the 
State agency would step forward, undertake the expense and the 
effort to negotiate an agreed-upon conservation plan for the 
red-cockaded woodpecker. They would step that down into their 
State forestry practices, and at that point, compliance with 
the State forestry practices would basically put you into 
compliance with the Federal habitat conservation planning 
requirements.
    You would not have to seek a separate HCP as a private 
landowner. You would just comply with State forestry practices. 
That would eliminate the burden of private smaller woodlot 
owners to have to negotiate separate agreements. Those are the 
types of things that Jamie and her agency have done.
    Mr. Dicks. I want to move over to this other issue. The 
thing I like about the HCPs is that they're voluntary.
    Ms. Clark. Right.
    Mr. Dicks. This is not somebody being forced to do 
something. They do this because they think it's the best way 
for them to get certainty in the future. I think that's why 
it's worked, and I'm glad to hear that the no surprise policy 
is still there. That's crucially important.

               regional office for california and nevada

    Let's shift to the regional office issue. I had 
reservations about this, as the Chairman well knows, initially, 
because I was concerned that this would weaken the Portland 
office. But now, after looking at the burden of the Delta Bay 
issue, which is huge in California and all the problems 
associated with everyone who's trying to do HCPs inthe 
northwest and in California.
    It's my judgment that there simply is no way to do this 
without having two separate offices and two separate regional 
directors. Mike Spear is spending almost all of his time 
working on the California issues, so we're left, in the 
northwest, leaderless, at a time when the Fish and Wildlife 
Service is under almost duress from all kinds of people who 
will need to have you do consultations and other things. And we 
need a leader.
    I just feel very, very strongly that on balance, after 
looking at this, that it would be a mistake if we don't go 
forward with separating this and having a good, strong regional 
director in Sacramento and one in Portland.
    I just wanted to give you one last opportunity to, and Don, 
if you want to step in here, too, it just seems to me that we 
have now delayed this long enough, we ought to go ahead and do 
it. We're not trying to take anything away from the refuges. 
But we've got to have an ability, with this increasing work 
load, to be able to deal with California and Nevada and then 
the issues in the northwest, which in many cases are somewhat 
different.
    Ms. Clark. Well, I would like to respond to that, Mr. 
Dicks. The fact is, the Fish and Wildlife Service's 
responsibilities have tremendously expanded over time. We have 
refuge system expansions, we have tremendous regulatory 
responsibilities, and we have tremendous habitat restoration 
demands.
    Region I, our western region, comprises 21 percent of the 
total Fish and Wildlife Service operating budget, close to 
twice that of any other region. The explosive growth in 
California and Nevada is not going unnoticed, either by the 
general public, the Congressional constituency, or the species 
that are continuing to try to occupy those areas.
    I was in the northwest last month, and I can tell you that 
the efficiency of Portland is severely compromised. Our 
Regional Director is always in California, in Nevada, 
addressing those issues. We can debate whether we have, as I 
chatted with the chairman about, the right number of regional 
offices and if they're in the right place.
    But without the kind of agony of moving one of our existing 
regional offices, which would be tough, our recommendation is 
to establish a scaled-down regional office in Sacramento that 
will sustain itself over time. There's a tremendous demand for 
senior leadership in the southern part of the western region to 
address and negotiate many of these very complex issues.
    It is being done at the expense of the northwest today.
    Mr. Dicks. Isn't it also hurting morale not to have a 
decision made here? I mean, don't we have to do something and 
clarify this so that people can kind of get on with their lives 
and sort out who's going to be in California and who's going to 
be in Portland?
    Ms. Clark. The fear factor, as you might imagine, is quite 
high. It was the reason for my trip to the northwest, to assure 
all of our employees a couple of things. Number one, none of 
them would lose their jobs over this issue. And that we were 
working very hard to kind of relieve the stress on our 
northwest employees.
    So many of them are having to travel to California and 
Nevada on such a regular basis, it has just totally disrupted 
their personal lives. And so I've become very sensitive to this 
issue.

                   new region office staffing levels

    Mr. Regula. How many FTEs are in Oregon now that live 
there?
    Ms. Clark. In Region I, Portland, 246 FTEs.
    Mr. Regula. How many would you contemplate having if this 
were to be consummated? How many would be left in Oregon?
    Ms. Clark. Around 200, a little over 200.
    Mr. Regula. And how many would be in California?
    Ms. Clark. Eighty-eight total.
    Mr. Regula. A regional office, if this were completed, of 
200 in Oregon and 88 in California, then how many are in 
California now?
    Ms. Clark. Zero. In the regional office, I'm sorry, we do 
have----
    Mr. Regula. I mean the field office, whatever you want to 
call it. You do have an office in California?
    Ms. Clark. We have a Sacramento Ecological Services field 
office. But we have 78 of those nationwide.
    Mr. Regula. Why can't California be a satellite of Oregon 
or vice versa?
    Ms. Clark. Well, we are looking at a regional office that 
would be cross serviced by the Portland regional office. We're 
looking at a scaled-down regional office, but we're looking at 
staffing it with all of the delegated authorities of our 
regional directors and having the senior leadership in there to 
negotiate and to respond and to manage all of our refuge, 
hatchery, fisheries and ecological services programs.
    Beefing up a field office doesn't allow for the leadership 
nor the delegated authorities that are attributed to our 
regional directorate.
    Mr. Regula. Does Oregon have, what, the State of 
Washington?
    Ms. Clark. Washington, Idaho, Oregon, and the Pacific 
Islands.
    Mr. Dicks. And Hawaii.
    Ms. Clark. Right, Hawaii and the Pacific Islands.
    Mr. Regula. So you----
    Mr. Dicks. And California and Nevada. See, this actually 
works out to be a fairly good division. The problem is, you've 
got an explosion in the northwest of listings. And you've got 
an explosion in California of listings. So when everybody wants 
to come in and do their HCPs, they've got to have a top person 
in that department that they can work with.
    And I have become convinced that there's no way for the 
people in Portland to do everything in the northwest with the 
spotted owl, the marbled murrelet and all the salmon listings, 
and then you've got California with a whole series of other 
listings that you really need to separate this. You've got to 
have two strong management staffs so that people can get 
serviced in California and Nevada and in the northwest.
    That's why we think you've got to do this at this juncture.
    Mr. Regula. Are you going to be able to stay? I'd like to 
go to the other members.
    Mr. Dicks. Right. My problem is, I've got the Intelligence 
Committee, and the Appropriations Subcommittee on Defense.
    Mr. Regula. I want to talk about the priority choices given 
our allocation, but we'll discuss it more. Are you finished?
    Mr. Dicks. I'm fine. Thank you very much.
    Mr. Regula. Mr. Kolbe. Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.
    It perversely occurs to me that we should link this 
issuethat we were just discussing with splitting up the Ninth Circuit 
Court of Appeals, and we could have a really exciting debate. 
[Laughter.]
    Mr. Kolbe. Let's do it!
    Mr. Skaggs. I thought that would get Mr. Kolbe's attention. 
[Laughter.]

                      regional director morgenweck

    Mr. Skaggs. Anyway, good morning. Let me just start off 
with throwing a bouquet at the Service, and particularly the 
regional office that I deal with most in Denver. We're sort of 
in sight of the end of what has been a protracted and difficult 
negotiation dealing with the relocation of a water pipeline 
through a national forest, but one that implicates consultation 
with the Service.
    I just want to commend Ralph Morgenweck and the solicitor's 
staff that's worked with him in a very sensitive, subtle, 
complicated negotiation which we hope will be brought to 
fruition. It's reflected in some language that the Chairman's 
been kind enough to recommend possibly be included in the 
supplemental bill. So we're within reach. But it's only because 
both the Federal agencies and the City of Boulder have tried to 
go the extra mile to avoid this going to court. And I 
appreciate that very much.
    Ms. Clark. Thank you, I'll be sure to pass that on to 
Ralph.

                  audit of colorado wildlife programs

    Mr. Skaggs. You may have heard that I brought this up with 
the Secretary yesterday. This has to do with the effort that is 
being made, as I understand it, for the Service to revisit an 
understanding reached with the State of Colorado, at the 
regional level, anyway, back in the early 1970s, when the 
Department of Parks and the Division of Wildlife split at the 
State level and an understanding was reached after a couple of 
years' discussion with the Service's, I think blessing, how to 
handle that split in terms of any issue of compliance with 
State properties and fees.
    Just this last winter, the Interior IG in a report that the 
Service asked for has concluded that these arrangements aren't 
adequate after all. I'm told that early in February, the 
Service issued some kind of edict to the Parks Department that 
they were going to have to do some give-backs or go back and 
reallocate--anyway, it is not an acceptable way of dealing with 
something that the State, I think, in good faith, thought had 
been dealt with adequately, now almost 20 years ago.
    I think we need to get this resolved in a way that honors 
people's good faith belief that they were in compliance over 
these couple of decades. I don't expect you to be fully briefed 
on it at this point. Maybe you are and want to respond. But I 
just want to give you my sense that this is something that 
needs to get worked out.
    Ms. Clark. Mr. Skaggs, actually, the first I did hear about 
it was after the Secretary's hearing yesterday. But I did talk 
to Ralph Morgenweck, who assured me that it is clearly on his 
radar screen. In fact, he's involved in it personally with 
Colorado, and he is working it out. I know that there had been 
some confusion, and there's been some kind of miscommunication 
on not only the activities, but the expectations.
    I think it's early yet to figure out how it's all going to 
fall out in the wash. We'll be happy to keep you informed of 
the progress, but Ralph is very much involved in it.

                     preble's meadow jumping mouse

    Mr. Skaggs. Going back to some ESA issues, the subcommittee 
provided a $400,000 amount to fund a working group that's 
trying to develop a conservation for the Preble's Meadow 
jumping mouse, which is one of those little critters that can 
have great reach in terms of front range for Colorado 
development.
    I don't think there was anything in your budget that 
contemplates the continuation of that working group's efforts 
beyond the end of this fiscal year. It may well be that they 
can't get this done this year, and I just wanted to make sure 
that we would have your support, and I hope the Chairman's, if 
we need a little bit of continuation in the next fiscal year to 
get this job done.
    Ms. Clark. Well, we are absolutely continuing support of 
the conservation of the jumping mouse, as I know you're aware. 
We are fast approaching a decision on whether or not we'll have 
to list the jumping mouse. We've been working very closely with 
the States involved.
    Regardless of the outcome of the listing decision that 
we're statutorily obliged to make, we plan very seriously to 
continue in the conservation arena for the mouse.

                     rocky mountain arsenal refuge

    Mr. Skaggs. For the Rocky Mountain Arsenal Refuge the 
Administration's budget has a substantial request, but I'm told 
from folks that follow this closely at home that it may not be 
up to the task that awaits us. This is an area that, because 
it's close in to a major metropolitan area, is liked, and is 
already getting lots of visits.
    Would additional funding there be able to be put to good 
use? I realize you had to make some decisions with OMB, but I 
just want to lay the groundwork for trying to boost this a bit 
when we get to that point in the process.
    Ms. Clark. The Rocky Mountain Arsenal National Wildlife 
Refuge is one of those really tremendous urban refuges. I've 
been there numerous times myself. They are slated for a portion 
of our requested increase, for sure. It's certainly safe to say 
that we have a significant backlog nationwide and we've been 
working with all of our refuge managers and regional offices to 
balance our targeted increase to achieve the greatest gain for 
wildlife and our dedicated public.
    I'd be happy to continue to evaluate that status, and 
certainly, all support from the committee is always welcome to 
further enhance the refuge system.

            national eagle and wildlife property repository

    Mr. Skaggs. I wanted to ask you to take a look, if you 
haven't already, at a bill I have in that's pending before the 
Resources Committee, H.R. 2291, it would, I hope, make life 
easier for the Service in being able to put to use the proceeds 
that you might realize from auctioning off otherwise restricted 
wildlife materials. I don't know whether you're familiar with 
it.
    We're hoping, since I believe it to be largely non-
controversial, we might move that along and get you a few extra 
bucks that way.
    Ms. Clark. It is, I hope, non-controversial. It is from our 
perspective. In fact, I have looked at the bill and think it's 
a tremendous step forward. We have a knot at the repository 
that needs to be fixed, not only for education purposes, but to 
respond to Native Americans that really need and use these 
parts for religious practices and ceremonial purposes.
    We have expressed support for this bill, and we continue to 
hope and to help shepherd it through and really do appreciate 
your leadership on this issue.
    Mr. Skaggs. Thanks, Mr. Chairman.
    Mr. Regula. Mr. Kolbe.

                   threatened and endangered species

    Mr. Kolbe. Thank you, Mr. Chairman.
    Ms. Clark, welcome. Let me ask a couple of questions here 
in general about the Endangered Species Act. I think in your 
statement you referred to the fact that there are about 1,107 
species that are currently listed.
    What's the breakdown of those between threatened and 
endangered?
    Ms. Clark. Boy, that's a great question. I don't know that 
I can answer that off the top of my head. But I'd be glad to 
get that back to you for the record, unless I can turn to one 
of our assistant directors.
    We'll be glad to get that back to you.
    [The information follows:]


[Page 374--The official Committee record contains additional material here.]



                            listing program

    Mr. Kolbe. I think you also say in your statement that you 
plan to list about 100 species in the current fiscal year, and 
your plan is about 100 species in 1999. Is that correct?
    Ms. Clark. Yes, it is.
    Mr. Kolbe. Yet your request for the listing activities is 
almost a 50 percent increase from 1998 to 1999. That can't be 
all just inflation and the normal inflation. So what's going 
on, if we're talking about listing roughly the same number of 
species, and we're having this kind of an increase in the 
listing program budget?
    Ms. Clark. Right. And I think it's an issue of semantics. 
As I'm sure the committee is probably painfully aware, because 
we've talked about it on numerous occasions, we're still 
managing our way out of the moratorium. We have a significant 
backlog of proposed species that require final determinations, 
plus we still have a fairly sizeable hopper of candidate 
species that are waiting some reconciliation, a proposal or 
conservation agreement, to address their status.
    Mr. Kolbe. That's separate than the actual listing 
activities?
    Ms. Clark. That's all part of the listing activities. But 
we're talking about resolving the status of 100 species, which 
is either adding them to the list or completing conservation 
agreements. But we also have the requirement to propose species 
as well. So it's proposing species and adding species to the 
list.
    Mr. Kolbe. So when you say you're adding 100 species, as 
threatened or endangered, that doesn't include the numbers that 
you might have under consideration for proposing?
    Ms. Clark. That's correct.
    Mr. Kolbe. Is there going to be a huge increase? I'm still 
trying to understand why we're talking about a 50 percent 
increase from one year to the next.
    Ms. Clark. We're also looking at part of that increase in 
helping us manage, quite frankly, the enormous litigation 
workload. Litigation surrounds this program and has increased 
in this program since the moratorium. It requires us to expend 
resources in quite frankly, managing the court system, along 
with our solicitors and the Department of Justice.
    Also, something that we have escaped in the past few years, 
in working through the court systems, is the current statutory 
requirement to designate critical habitat. Absent a 
reauthorized Endangered Species Act, that addresses the 
regulatory provisions of critical habitat, if that does happen, 
by 1999, we're going to be back in the critical habitat 
business, at least addressing critical habitat designation 
responsibilities.

                        listing decision backlog

    Mr. Kolbe. What would you expect to be your potential 
backlog? You talked about working through a moratorium. What 
would be your potential backlog at the end of 1999 if you list 
100 this year, list 100 next year, and the others that you deal 
with through other methods? What is your backlog going to be at 
that point?
    Ms. Clark. We currently have a backlog of about 100 
proposed species, and we have a backlog of about just over 200 
candidate species. Now, the candidate species list shifts. It's 
a dynamic list as we add species or we get petitions to respond 
to species.
    I would imagine we will always have a candidate backlog, 
and we're fine with that. Because we've established a very 
strict and stringent priority system that has, if you will, a 
triage approach to addressing endangered species.
    I hope by 1999 we're back in a totally balanced program. I 
expect that if we keep on track, we will be. We will be 
hopefully in some managed litigation program, and that we'll at 
least have addressed our backlog coming out of the moratorium.

                risk analysis on central arizona project

    Mr. Kolbe. If I might just shift for a moment to something 
else that's a little more parochial, I suppose, a little more 
specific to my area, the pygmy owl. But first, I want to ask 
you a question about the risk analysis that you do and how 
consistent you are with this.
    I'm referring to the fact that when you have a biologic 
opinion that finds that an action would jeopardize a species, 
but there are reasonable and prudent alternatives, I just want 
to know how you do the risk analysis. Let me give you the 
example which I know you're familiar with.
    Fish and Wildlife Service prepared a biologic opinion 
dealing with the Central Arizona Project, which stated that the 
proposed delivery of CAP water to water users that get water 
out of the canal is likely, that's your word, to jeopardize the 
continued existence of threatened and endangered species. The 
opinion reports that the possibility of the presence of water 
in canals that are in the 100 or 500 year flood plain of the 
Gila River, ``coupled with the opportunity to reach the channel 
of the Gila River provides the potential for CAP transferred 
non-native fish species to move from CAP to the Gila River 
channel, although the Gila River is usually dry throughout this 
reach.''
    To me, this is like saying that if there's a great flood 
that happens every 500 years, and if this flood is great enough 
to cause the water to gush over the berms that are on both 
sides of the CAP canal, and if the Gila River has water in it, 
and if there is waterbetween the canal and the Gila River, and 
if there are non-native fish at this exact point, and if there are 
native fish in the Gila River at that moment, then and only then are 
the native fish species in jeopardy.
    Without that perfect or imperfect, I suppose would be more 
correct, worst case scenario, it seems it's impossible that you 
could have jeopardy. So I guess my question is, what kind of 
risk probability do you put in these things? I could devise a 
scenario with a little creativity that would tell you that 
building an interchange here in New Jersey would affect a 
species in California. And yet the probability would be so 
ludicrously improbable that you wouldn't consider it.
    So I'm just trying to get some idea of what is the risk 
probability that you use in these things?
    Ms. Clark. We do conduct, as you know, not only a 
tremendous introspection, but the development of reasonable and 
prudent alternatives. We work very closely with the action 
agency. They often are the experts, on not only what their 
authorities are, but what the specific, long-range operational 
outcomes of the proposed project will be.
    In that particular case, as you're well aware, we worked 
for a number of years with the Bureau of Reclamation to work 
out an acceptable arrangement.
    The entire endangered species program is one of risk 
assessment. And right now, the southwest is probably 
experiencing more stress ecologically than anywhere else in the 
country. We're trying to address that. The vast majority of the 
native fishes of Arizona and New Mexico are suffering from non-
native species invasions. We continue to think it prudent to 
try to preserve what's left of the Arizona native fish 
community.

                   biological opinions of the service

    Mr. Kolbe. I don't disagree with that conclusion. But we're 
not talking really about risk assessment for the species. We're 
talking about the risk, the probability of a particular action 
that could have any impact whatever on that species. And the 
scenario that you've come up with in the case of the Central 
Arizona Project is so utterly remote, I think, by almost 
anybody's, that I've talked to, view of it, that it just 
doesn't bear even really considering as a real possibility.
    Mr. Barry. Congressman, if I could just make one 
observation. As Jamie alluded to, when you go through the 
consultation process, the Fish and Wildlife Service will 
provide a draft biological opinion first to the action agency. 
That provides them with an opportunity to react to the 
Service's conclusions and to provide a differing point of view 
with some of the conclusions or with the factual material that 
they're relying upon.
    I'm not familiar with the particular biological opinion 
that you're referring to. I can't tell you on what basis or 
grounds the Fish and Wildlife Service drew the conclusions and 
arrived where they did. It does provide an opportunity, though, 
for the action agency, the Bureau of Reclamation, to come back 
to the Fish and Wildlife Service and to indicate that they 
disagree on this point or that point, and to engage the two 
agencies in further discussion.
    So again, I'm not sure in this instance what the give and 
take was back and forth between the agencies. But the reason 
the Service does provide draft biological opinions is to 
provide people a chance to review their analysis, critique it 
and provide different thoughts.
    Mr. Kolbe. Well, just to conclude this, Mr. Chairman, I 
understand that's what you do. The truth of the matter is, in 
this case, the Bureau of Reclamation was a willing partner in 
all this, because there's an agency running out of things to 
do, and they were looking for other ways to spend their money. 
If there's a good opportunity to spend it on fish barriers in 
dry riverbeds that have only a 500 year flood chance of them 
jumping from one stream to another stream to another stream, 
they're happy to do that, because it's to their advantage, to 
their benefit, to increase their budget.
    So I would just say they were a willing partner in all 
this. I was trying to get at your responsibility for providing 
some reasonable kind of probabilities in this scenario.
    Mr. Barry. The only other thing I'll just say is that in 
1979, then Congressman John Breaux offered an amendment to the 
Endangered Species Act on the Floor of the House. Basically, it 
required Federal agencies, the wildlife agencies in the 
consultation process, to render an opinion at the end of the 90 
day consultation process regardless of the adequacy of the data 
or information that they had.
    Congressman Breaux, on the Floor of the House, said that in 
situation of doubt, the Fish and Wildlife Service should give 
the benefit of the doubt to the species. So when the Service 
looks at the legislative history of the Endangered Species Act, 
what they were told was that they have to render a judgment at 
the end of 90 days regardless of how adequate they feel the 
data are. And if things are gray, it's expected that they are 
to provide the benefit of the doubt to the species.
    That may have in fact been part of the decision making 
process here.
    Mr. Kolbe. Thank you, Mr. Chairman.

                           delisting actions

    Mr. Regula. How about delisting? How many have you 
delisted? You said you added 100, am I correct?
    Ms. Clark. We are working towards adding----
    Mr. Regula. Adding 100?
    Ms. Clark. Right, somewhere in that neighborhood.
    Mr. Regula. How many would you anticipate you might delist?
    Ms. Clark. Our delisting program has been on the shelf 
since the moratorium. We do issue public policy guidance on how 
we're going to manage the listing program. The listing priority 
guidance that goes out for public review and comment 
incorporates a triage approach to overcoming the backlog caused 
by the moratorium.
    We have the fiscal year 1998 and 1999 guidance out for 
public review today that does bring back the reclassification 
and delisting program into our balanced approach to 
implementing the Endangered Species Act. It's out for public 
comment, and our intention is to begin scaling up up the 
delisting reclassification program later this year.
    Mr. Regula. You're not delisting any of them?
    Ms. Clark. Not today. But we hope by, my hope is by later 
this spring and into the summer, we'll be back into the 
delisting program.
    Mr. Regula. What's the total of endangered and threatened?
    Ms. Clark. The total number of species is 1,126 inthe 
United States.
    Mr. Regula. That's just in animal life?
    Ms. Clark. Animal and plants, that's both. It's around 
1,126 species as of the end of Febuary. That's tilted a little 
bit, there's a little bit more plants than there are animals.
    Mr. Regula. Historically, how many have been delisted?
    Ms. Clark. Historically, I don't have that exact number. 
But very few.
    You're talking in the history of the Act. We can certainly 
get that list for you for the record.
    [The information follows:]

         Threatened and Endangered Species Delisted Since 1974

    A total of 27 species were removed from the endangered and 
threatened lists, including 23 species in the United States and 
four foreign species since 1978. A copy of a Special Reprint 
from the Code of Federal Regulations, which identifies the 
delisted species, is provided to the Committee.


[Page 380--The official Committee record contains additional material here.]



                             snail darters

    Mr. Regula. I remember coming here and the snail darter was 
the big item. I understand they've found lots of snail darters 
in the meantime.
    I don't know if the snail darter is still on the list?
    Ms. Clark. It's still on the list. There's more, but it's 
not recovered.
    Mr. Regula. Jump in here anywhere, Mr. Skaggs.
    Mr. Skaggs. I did that with the mouse. [Laughter.]

                     funding priorities for fy 1999

    Mr. Regula. Or anything else that you'd like to pursue.
    First of all, I think it's unrealistic to think we're going 
to have $80 million extra. The President's total for our 
committee is $1.1 billion for fiscal year 1999. That's not 
reality. So what we get in the way of a 302(b) allocation I 
think will be substantially less than that.
    Therefore, we're going to have to make some tough priority 
choices. And we will consult with you as we do that, because we 
welcome your advice on what ultimately has high priorities with 
you, assuming that you won't have the $80 million. As you know 
from last year's experience, the committee feels that this is 
an important function, and we want to continue to recognize 
that.
    Is funding for the proposed new regional office in 
California a higher priority than fixed cost increases?
    Ms. Clark. Somehow I knew this question was going to come 
up.
    Mr. Regula. All your employees are waiting back there to 
hear the answer.
    Ms. Clark. I know, I'm sure they are. Mr. Chairman, the 
budget that was submitted to the Congress represents the 
priorities of the President and our Secretary. What you have 
before you is our balanced approach to implementing natural 
resources management and land management expectations of us. I 
will be happy to continue to work with the committee in setting 
and balancing priorities.
    But we think that our entire budget is a priority.
    Mr. Regula. Well, I have a series of questions along these 
lines, but I assume at this moment you'd rather not make any 
priority judgments.
    Ms. Clark. I'd rather not.

                        volunteer participation

    Mr. Regula. What's your experience in using volunteers?
    Ms. Clark. It's great. I actually was a volunteer on a 
national wildlife refuge early in my career. We have today over 
28,000 volunteers scattered throughout the Fish and Wildlife 
Service, donating about 1.3 million hours of volunteer time to 
the Fish and Wildlife Service.
    I don't think we could run the refuge system without our 
volunteers. They're tremendously beneficial. Many of them have 
talents that just don't exist in the Fish and Wildlife Service 
and have been extremely valuable to us. I think we worked up 
the kind of person-hour costs and came up with over $13 million 
worth of donated time. Tremendously valuable, all over the 
refuge system and in other parts of the agency.
    Mr. Regula. Well, I think it's a great program, to use 
volunteers. I know the Green Thumb people are in town this 
week, honoring those who've been involved. This is one form of 
that type of effort.
    Anything we can do that would enhance the volunteer program 
as far as the bill is concerned?
    Ms. Clark. We have expressed our certain support for it. I 
think it's great, and our ability to get our job done is very 
much dependent on a strong volunteer work force.

                         outreach with schools

    Mr. Regula. Do you emphasize education? In other words, 
where you have facilities, do you have school groups coming in? 
Do you do outreach? Do your personnel go out to a school and 
talk about endangered species, talk about the importance of the 
programs to our environmental heritage?
    Ms. Clark. If there's one thing our employees like to do, 
it's talk to school groups and talk to a lot of our 
constituents about not only our mission, but the value of fish 
and wildlife and plant conservation. We have tremendous 
capability in our agency and what we're working very hard to do 
is to target and prioritize our outreach.
    Some of our national wildlife refuges and our fish 
hatcheries are some of the best education tools going, living 
out there on the land and in the wild, helping people learn 
about the importance of conservation. Much of our approach to 
outreach is through visting our refuges and hatcheries.
    Mr. Barry. Mr. Chairman, I'd also just add that when 
Congress passed the National Wildlife Refuge Improvement Act 
last year, environmental education was specifically recognized 
as one of the priority public uses on the national wildlife 
refuge system. So for the first time ever, environmental 
education has finally been recognized in terms of what the 
refuge system can contribute. And the Fish and Wildlife Service 
is, I think, stepping forward to the challenge and following 
through on that.
    Mr. Regula. That's great. Do you do publications that a 
teacher could get copies of?
    Ms. Clark. That's what I was just going to follow up on. We 
are really beginning to focus our effort on teaching the 
teachers. By teaching the teachers and getting them involved in 
what we do, they go on to teach their classrooms. So adult 
learning and adult education is a big part of what we do.

                      public visitation at refuges

    Mr. Regula. What's your visitation experience? Is it going 
up? Most people don't have an awareness that refuges or Fish 
and Wildlife facilities are also availablefor visitation. At 
least in most areas, I'm sure that's true. Is it increasing?
    Ms. Clark. It is increasing slightly. As I've had this 
conversation with you and others, our national wildlife refuges 
are a best kept secret, and we need to share them with the rest 
of the country. We have over 30 million visitors a year. Eighty 
percent of that visitation is concentrated on, I think, only 20 
percent of the refuges nationwide. That is because of where 
many are located, given their remoteness. But where we can 
facilitate visitation and education initiatives, we really work 
hard to do that.

                 recreational fee demonstration program

    Mr. Regula. Are you using a fee program?
    Ms. Clark. Yes, we are, 71 of our refuges currently are 
involved in the fee demonstration program. It's in its second 
year, and it's been tremendously successful. Our income has 
increased dramatically, and the bulk of it goes right back into 
upkeep of visitor services and facilities. It's been quite 
positive, and we're learning from the program and kind of 
expanding and extrapolating lessons learned to other refuges.
    Mr. Regula. You don't get any serious objection from the 
public, I assume?
    Ms. Clark. No, we haven't. In fact, none to my knowledge. 
I've heard none at my level.
    Mr. Regula. Mr. Skaggs.

                     satellite sensing information

    Mr. Skaggs. Thank you. I wanted to continue a line of 
questioning with you and with some of your sister agencies that 
I started with the Secretary yesterday, again just trying to 
flesh out the value of the information you may get from remote 
sensing capabilities largely in the control of the intelligence 
community, but which are now being scrubbed and made available 
through the USGS center out in Reston.
    If you've got either survey data or anecdotal stories about 
the use to which the Service has been able to put that kind of 
satellite based information, I'd be very interested. If for the 
record you are able to come up with any approximation of its 
dollar value to you, and being able to get some things done 
that otherwise would have involved hiring people or whatever it 
may be.
    Ms. Clark. I can give you some general response to that, 
and we'd be glad to provide you dollar amounts to the extent we 
can, and specific examples for the record. Alaska is a great 
place where techniques and tools like remote sensing and 
satellite imagery work well. In other parts of the country, it 
certainly saves costs of our own personnel going out on the 
land to survey wetlands areas. It's tremendously useful for 
documentating and monitoring of land use changes over time. 
It's extremely helpful in a lot of our environmental decision 
making. I started my career working as a wildlife biologist for 
the military, and know first-hand the tremendous utility of 
these defense technology tools.
    I was out at our USGS headquarters learning about the 
expanded capability they have in that arena. I believe we need 
to work a lot closer with them to make full use of this 
capability and make it available to our folks. But I'd be glad 
to get you more specifics for the record.
    [The information follows:]

                       Use of Remote Sensing Data

    The U.S. Fish and Wildlife Service is evaluating the use of 
National Technical Means (NTM) remote sensing capabilities in 
various natural resource management programs.
    The Service has determined that NTM data has significant 
potential for monitoring wetland losses and gains. This 
application is especially promising in wetland status and trend 
studies that use sample plots to measure changes in larger 
areas. NTM data is also suitable for updating National Wetlands 
Inventory maps for selected areas when conventional data 
sources (e.g. aerial photography) are not available. NTM 
unclassified digital orthophotos at two meter resolution are 
now being produced by the U.S. Geological Survey for Alaska and 
some other areas. A copy of the Alaska Wetlands and Hydrography 
(December 1996) report on the use of NTM data is provided to 
the Committee.
    Another potential use of NTM data is in monitoring walrus 
populations in Alaska. The Service is determining if walrus 
signatures can be detected in ice pack habitats to help monitor 
walrus populations in remote locations. If successful, remote 
sensing data could eliminate the hazardous risks associated 
with ground surveys. The annual savings would range from 
$150,000 to $200,000.

    Mr. Skaggs. It will come as no surprise that this is a 
matter of some controversy, well not controversy, but at least 
it's under pressure, given the other demands on the budget of 
the intelligence committee and the intelligence community. So 
anything that you can do to supply me and others on the 
Intelligence Committee that care about this program with good 
information to share with our colleagues on that committee, it 
will redound to your benefit.
    It may also redound to asking you to pay for it, but we'll 
cross that when and if we come to it.
    Similarly, I wondered if you could either extemporize today 
or add to your comments in responses for the record the 
importance to the Service's mission of good advance weather 
information. Again, this ties into the Chairman's and my other 
subcommittee, which funds NOAA and the Weather Service. I'd 
like to get an idea of how this affects the costs, either 
incurred or saved, to our public lands agencies and 
naturalresource agencies.
    Ms. Clark. I believe that as much advance warning as 
possible is hugely important for the safety of our employees. 
Also, it gets us in a position to batten down the hatches on 
many of our facilities, as well as get into an emergency 
response mode with other Federal agencies and the public in 
addressing emergency conservation needs and endangered species 
issues, without getting in the way of responding to health and 
safety issues.
    The El Nino, which everybody blames for the storm, 
incidents that are happening, has really done a great deal of 
damage to us on our refuges. We had major typhoons coming 
through Guam within the last year. Without the advance warning, 
the island and our refuge there would have been in deep 
trouble. It was only through the advance warning that our folks 
had enough response time so that no lives were lost.
    Mr. Barry. Mr. Skaggs, if I could also just add something, 
I just came back from a tour of the Everglades area, where I 
know, Mr. Chairman, you visited the area just a few weeks ago. 
Because of the weather satellite forecasting capabilities, the 
Corps of Engineers, National Park Service, Fish and Wildlife 
Service, and the Florida Water Management District have, I 
think, had a significant heads-up as to what was heading their 
way with increased dramatic rainfalls during the dry season.
    They're now heading into the wet season. And they're about 
as saturated as they've ever been. They could see this coming, 
they knew it was happening. So it takes a long time for the 
agencies to work together to develop some strategies they can 
implement. They have been at it now for quite some time. But 
the reason they were keyed off that they had to really start 
planning when they did was because of the weather systems, and 
the projections as to what the El Nino pattern would be in 
South Florida in particular.
    Mr. Skaggs. I think, again, the artificial jurisdictions of 
appropriations subcommittees sometimes get in the way of 
important information getting from the right hand to the left 
hand around here. And I think if, again, you can flesh out for 
the record the case you would like to be made to the 
subcommittee that funds both long-term climate research under 
NOAA as well as more near-term weather prediction and what 
difference that makes, and what monies you either will save, or 
if you don't get warning, have to spend, it will help us make 
an informed judgment about budgeting on that side, as it 
affects some other area of the Federal budget.
    Ms. Clark. Glad to.
    [The information follows:]

                      Advanced Weather Information

    The U.S. Fish and Wildlife Service relies on advanced 
weather information to plan field operations, protect the 
safety of its employees and facilities, and protect endangered 
species and their habitats, such as the following:
    Aircraft Safety.--The Service uses light aircraft to 
conduct land inventories and wildlife surveys, such as 
determining spring wetland conditions over the prairie pothole 
country and identifying summer waterfowl populations for 
regulating the fall hunting season. Reliable advanced weather 
information is essential to the safety of personnel involved in 
this work.
    Habitat Management.--Habitat management is key to many of 
the wildlife conservation activities, such as special 
vegetation plantings to improve endangered species habitats, 
undertaken on Service lands. It is important to have advanced 
weather information to predict the appropriate scheduling of 
these operations.
    Refuge and Wetlands Management.--The Service requires 
advanced weather information to adjust water level controls for 
farming operations on refuges and to optimize wetlands for 
various fish and wildlife species.
    Endangered Species Protection.--Severe weather can 
devastate endangered species populations and their habitat. The 
Service uses various methods to protect limited habitat areas 
of endangered species when weather warnings are available. For 
example, the entire population of the endangered tree snail in 
South Florida was moved to safe quarters before Hurricane 
Andrew impacted the habitat.

                     awards program for volunteers

    Mr. Skaggs. I was intrigued, Mr. Chairman, with your 
inquiry about volunteers and what we might do. I'm aware that 
the Park Service relies extensively on volunteers, Forest 
Service maybe lesser involvement at some of the other public 
lands agencies.
    Is there any either departmental or Service program of 
recognizing and awarding recognition to volunteers?
    Ms. Clark. There is. In fact, we acknowledge volunteers 
individually on refuges. It wasn't too long ago I attended a 
dinner and celebration for our volunteer work force at Patuxent 
National Wildlife Refuge, just up the road in Laurel. We also 
have a major award that we announce every year, coming up next 
week, as a matter of fact, at the North American Natural 
Resources Conference for ``Volunteer of the Year'' award.
    So we have all kinds of patches and all kinds of trinkets, 
acknowledgements of our volunteers that happen all over the 
country.
    Mr. Skaggs. That's a volunteer of the year for the Fish and 
Wildlife Service?
    Ms. Clark. Yes, there is.

                 botanical capabilities of the service

    Mr. Skaggs. I wonder whether we should give some 
Congressional recognition in some formal way to those efforts 
as well, because it is typically so inspiring of good attitude 
and morale throughout to know that those efforts arerecognized. 
If we can help, maybe that is something we can do that would be helpful 
to you in the volunteer program.
    What is your botanist staffing, and given the number of 
listings on the plant side, are we prejudiced in favor of 
animals?
    Mr. Regula. If you will yield, I think you were here when 
the president of the Garden Club of America spoke. Maybe not. 
She raised that same issue, that the Service is heavy on 
biologists, but light on botanists. I'm interested that you're 
bringing that question up.
    Mr. Skaggs. I was cued by Mr. Sloss, who was here for that.
    We're all just mouthpieces for our staff, you know that. 
[Laughter.]
    Ms. Clark. Yes. Amazingly, botanists are biologists, too. 
But it was a couple of years ago that we actually had some 
committee report language that directed and encouraged us to 
increase our botanical staff nationwide. We have worked, 
through the funding increases that we've received, to ensure 
that we have botanical capability at all levels and distributed 
geographically throughout the country.
    We have expertise in a lot of areas. We have 
ornithological, or bird, expertise. We have herpetological 
expertise, and we have botanical expertise. But can we do 
better or could we use more botanists? Sure. We hire botanists 
in specific areas of the country, especially where there are 
great concentrations of plants.
    But I don't have the specific number of folks with 
botanical expertise.
    Another fact that I think I'd like to bring up is that 
while there is a career series entitled botanist, many of our 
folks that are labeled fish and wildlife biologists, or general 
biologist, actually have botanical expertise and have a career 
interest as well as a professional, technical interest in 
botany.
    So how you see somebody classified and what they do don't 
necessary always mesh up in the civil service world.
    Mr. Skaggs. Thanks a lot, Mr. Chairman.

                    refuges without full-time staff

    Mr. Regula. I note in your statement you have 513 refuges, 
65 hatcheries, 32 wetland management districts, with waterfowl 
production in 50 coordination areas, and you manage 93 million 
acres. That's a sizeable operation.
    How many of these are without someone at the facility?
    Ms. Clark. Two hundred and nine. I too have valuable staff. 
[Laughter.]
    Mr. Regula. That bothers me. And I have to say to you----
    Ms. Clark. I agree.
    Mr. Regula [continuing]. I'd much rather see some 
additional staffing there than to add any GS-15s. I know that 
you have a recommendation to add 21. And that's an expensive 
operation. I'm always concerned that these agencies get top 
heavy. If you have 209 refuges without even one full-time staff 
person, it seems to me that filling those vacancies ought to be 
a higher priority than adding GS-15s.
    Ms. Clark. Mr. Chairman, I am, too, concerned about lack of 
staffing. I could debate all day long whether or not the Fish 
and Wildlife Service is appropriately staffed, and stay on one 
side of the discussion.
    But the fact is that there is an expectation from everyone, 
primarily the public, that we be responsive to their needs. And 
while I, too, support wholly the importance of our field 
projects and staffing our field as much as we can, the Fish and 
Wildlife Service runs on a three-legged stool. The Washington 
office operations, our regional office responsibilities and 
leadership, and our field units come together to support the 
mission of the Fish and Wildlife Service. We struggle daily to 
try to balance what that appropriate split is.
    We are not a top heavy organization. We have folks working 
around the clock to try to meet our needs.
    Mr. Barry. Mr. Chairman, if I could just offer one thought 
on that, too. The Service manages a number of their wildlife 
refuges through a complex headquarters system. In other words, 
you will find in certain areas a series of wildlife refuges 
that are small in scale, and may not warrant having a person 
permanently posted at that particular site. But they will be 
managed as a complex, out of one central headquarters.
    So frequently, the Fish and Wildlife Service believes that 
there is not an actual management need to have somebody on site 
for some of those smaller areas, and they'll manage them as a 
group.
    The other thing that I would offer in that thought, I want 
to go back to the tradeoffs that you were alluding to here with 
the California office. I've watched the growth of Region I over 
the last 20 years. I think the problem could be analogous to 
asking a 21 year old to continue to wear a 10 year old's 
clothes. The problems in this region have just grown too large. 
You can't fit them into the clothing any more.
    And when you consider what is going on on the ground in 
California, we have GS-14 biologists negotiating billion dollar 
real estate development issues that affect thousands and 
thousands of acres, that get into highly complex issues 
involving taxes, bonding, escrow accounts, things that they 
never encountered when they went to school.
    And we're expecting GS-13s and 14s to handle things of that 
magnitude, when you see the army of attorneys and development 
experts on the other side of the table, with some of these 
large scale projects. That's why I'm personally convinced that 
a case has been made that you need to have high level 
leadership down in California in particular.
    Because our folks are spread way too thin, and a lot of 
people who are dealing with these issues on the other side of 
the table expect to see somebody pretty high up in the food 
chain. And if they see somebody who looks to them pretty 
junior, who may be a world's expert on a particular activity, 
but needs the assistance of somebody with background and skills 
on a variety of other issues which you get when you are a 
regional director.
    I really think you need to have somebody full time down 
there instead of a regional director who is constantly 
shuttling between airports, between Portland and Sacramento.

                      ecosystem management report

    Mr. Regula. Well, I know you have a recommendation on 21 
new GS-15s. If they anticipate doing anything, we'd like to 
deal with this by reprogramming, so that we have some awareness 
of how you're going to respond to that recommendation.
    Ms. Clark. You're talking about our discussion a few weeks 
ago on how we're going to reorganize our regional offices? 
Okay.
    Mr. Regula. Mr. Yates, Jamie had nice things to say about 
you. You should have come earlier. [Laughter.]
    Ms. Clark. Good to see you, Mr. Yates.
    Mr. Yates. Thank you very much. The record will speakfor 
itself. [Laughter.]
    Ms. Clark. Yes, it will.

                      funding needs of the service

    Mr. Yates. Thank you very much. I appreciate all the kind 
things said about me, to make up for a lot of the other things.
    At any rate, what is the state of the Fish and Wildlife 
Service? Have any troubles?
    Ms. Clark. We have no troubles, Mr. Yates, we have lots of 
challenges and opportunities.
    Mr. Yates. That's true. You have those anyway, along with 
your troubles. [Laughter.]
    Ms. Clark. This is true. I'm trying to be an optimist.
    Mr. Yates. I see. Any troubles that you consider 
overwhelming? Like lack of funds?
    Ms. Clark. Lack of funds, and we have a very ambitious 
budget request before the committee to address a lot of our----
    Mr. Regula. Very ambitious.
    Ms. Clark [continuing]. Opportunities. But fair budget 
request.
    Mr. Yates. When you say very ambitious, does that mean 
that, fair and ambitious, is it unrealistic?
    Ms. Clark. Not from my personal perspective and the demands 
placed on the Fish and Wildlife Service. I will leave the 
reality of it to this committee and to the Congress. But it is 
in direct line and support of the President's and the 
Secretary's goals in achieving natural resources management and 
land management protection nationwide.
    Mr. Barry. Mr. Yates, if I could offer just one other 
observation, too. In the area of endangered species 
conservation, the Fish and Wildlife Service in the last five 
years has truly undertaken a whole different tack. They have 
made it a priority to work with private landowners to negotiate 
proactive conservation agreements with those landowners.
    Those things take time and money. They require a lot of 
staffing effort to conclude them to the benefit of the species. 
And the alternative is to go back to the bad old days, when the 
Fish and Wildlife Service relied upon its regulatory program to 
try to enforce the Act, and had very few incentives for those 
private landowners.
    I think that's the tradeoff. If we're going to try the new 
approach, it's going to require, it's going to be much more 
staff intensive. That is reflected in the budget request that 
Jamie's agency has before the committee. The majority of the 
increases are in areas that involve close cooperation with 
private landowners, working with habitat conservation plans, 
safe harbor agreements and so on.
    So I think in that particular instance, what they have 
reflects the additional costs associated with an entirely 
different way of dealing with private landowners.

                  storm damages to service facilities

    Mr. Yates. Has El Nino had any effect on your refuges?
    Ms. Clark. Yes, it has, Mr. Yates. In fact, in parts of the 
country it's had some pretty serious effects.
    Mr. Yates. In parts of the country, is that all along the 
coast, or are there other areas?
    Ms. Clark. Certainly along the California coast, the 
southeast, and up the Atlantic coast.
    Mr. Yates. Not in the center?
    Ms. Clark. Not in the center, but it's amazing what we all 
blame on El Nino. There is some limited activity, like even 
snowstorms now in the central and midwest area that are being 
attributed to the reverberations of El Nino.
    Mr. Yates. How much more money will it cost you as a result 
of El Nino? Have you testified as to that?
    Ms. Clark. We have provided for the record from Fish and 
Wildlife Service that there is about a $31 million storm and 
flood damage report at about 72 facilities for the Fish and 
Wildlife Service, from this recent El Nino event. A lot of 
these are continuing, and probably still yet to come.
    Mr. Yates. El Nino is supposed to be dying down, isn't it?
    Mr. Barry. That's true. But I was just mentioning earlier, 
I just came back from a tour of the Everglades in Florida. The 
problem that we have is that El Nino sent off during the dry 
season unprecedented heavy rains.
    That soil is so saturated, their water control structures 
are at the maximum capacity, and they're now beginning to head 
into the wet season. The wet season normally arrives around May 
or June. They will have a spillover effect, the residual 
effects of El Nino, hitting the Florida area for many months to 
come.
    Mr. Yates. How do you protect against it?
    Mr. Barry. What the agencies are doing is, to their best 
ability to try to disperse the water that has come in, they 
have those canals right now outflowing water at the absolute 
maximum rate. And they are starting to run out of options, 
Congressman. They're trying to move as much of the water as 
they can out into the estuaries and out into the bays. But they 
can only pump so much through the canals.
    Mr. Yates. Will it be flooded?
    Mr. Barry. There is serious flooding going on in parts of 
Florida right now.
    Mr. Yates. And how will that affect you?
    Mr. Barry. Well, the Loxahatchee National Wildlife Refuge, 
for instance, is right near Lake Okechobee. And I was at the 
refuge----
    Mr. Yates. It's tough to use those two words in one 
sentence. [Laughter.]
    Mr. Barry. That's right. I was at that refuge just last 
week, and they have, they're at very high water right now. 
They're very worried about the off-flow into the refuge that 
they anticipate coming from the lake.
    Mr. Yates. Thanks, Mr. Chairman.

               cooperative agreements with private sector

    Mr. Regula. A couple of things. I like the cooperative 
agreements program. I noticed the IG is somewhat critical, and 
I'm sure you're aware of his criticisms in this report. Do you 
anticipate that you will respond and correct these 
deficiencies? Because it is a very positive approach.
    Ms. Clark. It's a very positive approach, and it's also 
very successful in achieving on the ground results. So we are 
working with the IG and addressing those concerns through 
national policy issuance and development, development and 
issuance, we expect that those will be easy to address.
    Mr. Regula. So you think this will smooth out?
    Ms. Clark. Yes, it will.
    Mr. Regula. It's a somewhat new program, and you've got a 
few bumps in the road.
    Ms. Clark. Yes. And it's tremendously, wildly successful as 
well. And harnessing it and just keeping it with some 
sideboards and criteria is important, and we acknowledge that.
    Mr. Regula. It sounds like you're trying to communicatewith 
the private sector before you make a decision, rather than after.
    Ms. Clark. Right.
    Mr. Regula. Is that a fair statement?
    Ms. Clark. Absolutely.

                     maintenance management system

    Mr. Regula. I think there have been some instances in the 
past where it probably was a little egregious, the way it was 
approached.
    At our oversight hearing on backlog maintenance, the 
Inspector General acknowledged that your service had the best 
maintenance backlog system of all the land management agencies. 
But he was critical of your lack of documentation for cost 
estimates, and a failure to link the backlog system with the 
financial system.
    So it's a positive, but----
    Ms. Clark. We still have some work to do.
    Mr. Regula [continuing]. A management challenge. Are you 
working on that?
    Ms. Clark. Yes, Mr. Chairman, we are.
    Mr. Regula. And I think you both acknowledged that you're 
catching up on backlog, that you have put that on a fairly high 
priority?
    Mr. Barry. It has been very discouraging for our refuge 
managers over the years to watch the refuges sort of crumble 
around them. It's amazing to me what our maintenance people can 
do with very little money.
    As I mentioned, down in the Florida Panther Wildlife 
Refuge, the maintenance people down there built a comfort 
station for $9,000. They will stretch things as much as they 
can. It's one of the reasons why last year's appropriation, 
fiscal year 1998, was such a tremendous thing for the refuge 
system. The refuge managers really began to feel that they 
were, they had an opportunity to begin to turn the corner and 
repair a lot of the structures that had deteriorated over the 
years.
    Mr. Regula. Well, I'm always impressed when I get out to 
these various facilities at how inventive employees are at 
making do.
    Ms. Clark. It's amazing.
    Mr. Barry. If you take a look at the new administrative 
center in the Elk Refuge in Jackson, that was built also by the 
maintenance people. And they say----
    Ms. Clark. Volunteers.
    Mr. Barry. Volunteers. And they saved thousands and 
thousands of dollars in that process.
    Mr. Regula. I wish we could do an even better job of 
commending them, and I'm sure you do. But it's throughout all 
the services, volunteers are such a key element. And the esprit 
de corps that I sense in these land agencies is quite good, on 
balance.
    Ms. Clark. Absolutely.

                 national fish and wildlife foundation

    Mr. Regula. The National Fish and Wildlife Foundation 
leverages the funds it gets so that there are $2 in private 
money for every dollar we appropriate to them. Could you take 
more advantage of the Foundation, or would you, by requesting 
an increase for them in fiscal year 1999? Do you find them very 
helpful to you?
    Ms. Clark. The Foundation is a tremendous partner. One of 
our, certainly most important partners. They do a lot of work 
on behalf of fish, wildlife, plant and habitat conservation. 
Actually, the committee got ahead of our FY 1999 budget. We 
were looking at an increase for the 1999 budget and you were 
generous in giving us, or the Foundation, that increase in 
fiscal year 1998.
    That doesn't mean, though that our other resource 
management funds don't and can't go towards initiatives and 
partnership efforts that we share and work with the Foundation 
on.
    Mr. Regula. You've been very pleased with your experience 
with them?
    Ms. Clark. Yes, we have.
    Mr. Regula. Mr. Taylor.

             permits for timber industry in north carolina

    Mr. Taylor. Mr. Chairman, I have a number of questions I'll 
submit in writing. But I'm particularly concerned, in my 
district, about an industry in Rutherford County, and the 
reaction to it by the Fish and Wildlife Service.
    For instance, do any of you have any knowledge about the 
relationship between fish and wildlife and chip mills?
    Ms. Clark. I'm aware of chip mill issues, but I'm certainly 
not an expert. I'd be certainly happy to respond for the record 
to any----
    Mr. Taylor. In the great gaggle of bureaucracy that you 
have, has anyone informed you about the specific issues in 
western North Carolina? For instance, this letter states that 
the U.S. Fish and Wildlife Service ``is very concerned about 
the current and developing increases in timber harvesting 
activities in the southern Appalachians to feed the ever-
increasing demand for high quality paper products.''
    What was that based on? This is by the Department of the 
Interior, Fish and Wildlife Service's, your Asheville field 
office, and is signed by the State supervisor. We have a 
million and a half acres of public land, yet virtually none of 
it is being cut. How could you possibly, as a Federal employee, 
with any certainty, talk about ``ever-increasing timber 
harvesting activities,'' when it's virtually zero and has been 
for three or four years?
    Five hundred thousand acres or more of our federally-owned 
forests are in national parks and have never been cut. The 
other million acres, it's wilderness and a variety of other 
things. What concerns me more than anything is that you are 
passing judgment on a single chip mill in Rutherford County. 
And you're stating, ``at this time the Service recommends 
denial of this permit.''
    Now, this was based on the statement that ``the Service 
considers permitting activities relative to chip mills as 
constituting a `major Federal action.' '' ``This opinion is 
based, in part, on the fact that timber harvesting for chip 
mills poses significant secondary and cumulative adverse 
impacts to fish and wildlife resources.''
    Do you have a clue about what you're saying here?
    Ms. Clark. I have a clue what you're reading to me and what 
our state supervisor is saying in the letter. I don't know the 
specifics of the circumstance, nor have I seen that letter.
    I'd be glad to look into it and get back to you for the 
record.
    Mr. Taylor. Well, let me say, the State supervisor made the 
statement, so it appears that it is the Fish and Wildlife 
Service's national position that you consider timber harvesting 
evil. That's in line with the Sierra Club's views, but it's not 
in line with sanity.
    The only way we can practice sustained forestry is to thin, 
and to utilize 100 percent of the tree, as you harvest it. And 
usually, the low-grade species,that is, small timber sizes, 
must go into chips.
    Now, in our whole end of western North Carolina, we have 
only one source for timber chipping, and this was a possibility 
for a second source. And yet out of the blue, you're 
recommending denial of this permit, not because the site is a 
problem--it isn't--and not because the water permit of the site 
it's on, the sewage treatment and so forth. There's nothing 
wrong with that.
    It's strictly because, all of a sudden, you think timber 
cutting is evil. And just out of the blue, because you object 
to nothing specifically about this one. I would say with 
virtually no timber being cut on Federal lands, Mr. Chairman, 
almost no part of this mill's harvest would be coming from 
Federal lands.
    Mr. Regula. If you will yield, is this a denial of a permit 
on private lands?
    Mr. Taylor. It is a denial of a mill that was ready to be 
built. And it is a privately-owned mill that would service the 
entire end of the State.
    And what concerns me, Mr. Chairman, is just the callous 
disregard for the people of western North Carolina that this 
demonstrates. These aren't foreign jobs, no one's contributed 
to us, that sort of thing. These are jobs that are in line with 
good forest management practices. And out of the blue, your 
organization decided that you'll just deny this permit, or at 
least recommend its denial, because chip mills ``pose 
significant secondary and cumulative adverse impacts on fish 
and wildlife resources.''
    And that is totally false. Our best schools of forestry 
point out that management of timber requires thinning and the 
maximum use of the timber taken. That comes through chipping 
the low-grade parts of timber and selling it.
    And for your agency to take this sort of a sweeping adverse 
position, that's what concerns me. I would like to have an 
insight from your office into this, and see if (a) your 
approach in this area is totally qualified, or (b) have your 
employees been smoking something funny. In what way does your 
insight here differ from all of our best universities in the 
southeast, who think this is a good idea?
    Thank you, Mr. Chairman.
    Mr. Regula. You should probably make a more comprehensive 
answer in the record, with a copy to Mr. Taylor.
    Ms. Clark. Absolutely.
    Mr. Taylor, I would like to make one clarifying point, and 
that is that the Fish and Wildlife Service does not believe 
prudent forest management and appropriate silvacultural 
techniques are evil. In fact, we work all over the country with 
the Forest Service and private timber owners and the States to 
ensure a great balance between----
    Mr. Taylor. And I don't portend that you do. I only have 
your agents, and they feel that way, and I can't say for the 
entire organization.
    Ms. Clark. But in this particular case, I do know that the 
whole kind of expansion of chipping mills throughout the 
southeast is an activity that is being evaluated. I'd be glad 
to respond to that letter and to your request for the record on 
the specifics of the case in this county.
    Mr. Regula. Mr. Taylor, would you like that letter to be 
made part of the record?
    Mr. Taylor. Yes, I would, and I have other questions, 
specifically, I know we won't have time.
    [The information follows:]


[Pages 394 - 395--The official Committee record contains additional material here.]



    Mr. Regula. Make a copy to give to them.
    Mr. Taylor. Mr. Chairman, if this is an indication of the 
spread from the Fish and Wildlife, and it's totally inaccurate. 
And so disproportionate with the education of our best 
universities. I'd like to look into the budget of this 
organization and see if we can't look at that a little closer.
    Because out of the blue, we get this kind of Federal 
mandate on a permit that our local authorities, and moves 
along, and all of a sudden, someone has an agenda that sounds 
more like the Sierra Club than it does prudent forest 
management, I get very concerned about it.
    Mr. Regula. I would hope you could respond to Mr. Taylor 
rather promptly----
    Ms. Clark. I'd be happy to.
    Mr. Regula [continuing]. So that when we do have to make 
budget priority judgments, he will, I know, want to 
participate.
    [The information follows:]

              Permit for Timber Harvest in North Carolina

    The Willamette Corporation, Inc. applied to the U.S. Army 
Corps of Engineers on April 28, 1997, for authorization under 
nationwide permit number 26 to impact wetlands at a 
construction site of a proposed chip mill in Rutherford County. 
The U.S. Fish and Wildlife Service provided comments on this 
wetlands permit application to the Corps on June 17, 1997, 
pursuant to the Clean Water Act, Fish and Wildlife Coordination 
Act, and the Endangered Species Act. The Service's statutory 
mandates are to help make sure that projects affecting natural 
resources are done in an environmentally sound manner that 
ensures that protection of water quality and fish and wildlife 
resources.
    Nationwide permit number 26 specifically authorizes 
activities above the headwaters of a stream for which there are 
minimal adverse effects. A nationwide permit is a form of 
general permit authorizing a category of activities throughout 
the nation. By contrast, individual permits are issued 
following a public interest review and analysis of project-
specific impacts of a proposed action. The Corps can authorize 
activities under the nationwide permit system only when the 
conditions applicable to the nationwide permits are met.
    The Service's concerns and comments about the impacts of 
the proposed chip mill were based on a Final Environmental 
Impact Statement (FEIS) prepared by the Tennessee Valley 
Authority (TVA) on three proposed chip mills in southeastern 
Tennessee and northwestern Alabama in 1993. In the FEIS, TVA 
provided a detailed analysis of effects of similar activities 
on the environment. The Service asked the Corps of Engineers to 
consider these same concerns with regard to the proposed 
Rutherford County chip mill.
    The Service recommended that the Corps treat the proposal 
to build a chip mill under the Corps' individual permit system, 
rather than as a nationwide permit, to provide for more 
thorough analysis, including disclosure of the potential 
impacts of the action under the National Environmental Policy 
Act (NEPA). We did not believe that there was sufficient 
information to demonstrate that the nationwide permit criterion 
of minimal adverse effects was satisfied. The Service was 
opposed to treatment of the project under a nationwide permit 
which did not provide enough information to draw a conclusion 
on the project proposal. The analysis of impacts required under 
an individual permit would provide the information necessary to 
reach an informed position on the project. The Service 
considers the use of a nationwide permit inappropriate for 
facilities of this nature until additional information has been 
provided for review. In spite of our recommendations, the Corps 
authorized wetland impacts associated with the Rutherford 
County chip mill under nationwide permit 26, and construction 
is nearly complete. The Service and Willamette coordinated 
throughout the permit process, and Willamette addressed many of 
our original concerns. According to Willamette, our questions 
did not delay their project.
    In October 1996, James Hunt, Governor of North Carolina, 
commissioned a study of the economic and environmental impacts 
of chip mills in North Carolina. The Governor's study raised 
the same questions which the Service asked the Corps. The 
Governor's study will be conducted by scientists at Duke 
University and North Carolina State University beginning April 
1, 1998. We hope that this study will provide a better 
understanding of the ecological and economic impacts of chip 
mills, specifically in North Carolina. The chip mill in 
Rutherford County, which was constructed under the nationwide 
permit number 26 authorization from the Corps, may be used as a 
case study in the cooperative research project.
    The Service is not opposed to timber harvest or to the 
timber industry and, indeed, works very well with the timber 
industry across the Southeast. There are many examples of 
successful collaboration between the Service and managers of 
public and private forest lands that allow forest management 
activities to go forward while minimizing adverse impacts to 
natural resources. In particular, the Service's Asheville Field 
Office has been instrumental in working with owners of private 
forest land in North Carolina in designing the first Safe 
Harbor program for the endangered red-cockaded woodpecker. This 
program, which is designed to eliminate conflict between forest 
management activities and endangered species, has been a model 
for addressing landowner concerns across the country.

                       habitat conservation plans

    Mr. Regula. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    I have only positive things to say about what the Fish and 
Wildlife Service is doing. I want to again extend my 
appreciation to the Chairman for supporting that increase in 
the operations and maintenance part of the Fish and Wildlife 
Service, because I know it's making a tremendous difference.
    I guess that's probably the way that we say thank you to 
all the volunteers, is by matching some of their volunteer 
effort with some money. I know it's made a real difference.
    Let me take a little different tack on the ESA than has 
been taken by some other members of the subcommittee. There's 
no question that the Administration's commitment to making the 
Endangered Species Act more flexible and workable has generated 
a greater willingness on the part of private landowners to work 
with Federal agencies in limiting developments that might harm 
endangered species.
    For the most part, the Administration has increasingly used 
the habitat conservation plans as the principal means of 
implementing the Endangered Species Act. Yet that approach 
toward species recovery is not without its critics. And one of 
the critics is the Defenders of Wildlife. [T]hey have that 
report, ``Frayed Safety Nets''. It criticizes the no surprises 
policy that assures landowners that once they have that habitat 
conservation planthat they will not have to provide more land 
or money than called for under the plan, even if new scientific 
evidence shows that species are declining, either because the original 
plan was flawed in some way, or because of natural changes in the 
landscape.
    It acknowledges that these habitat conservation plans are 
working in most cases, and they have tremendous potential. But 
in some cases, there is inadequate information going into them. 
Today, I understand, 225 have been developed, so you're really 
going full bore on this, and another 200 are being developed.
    But I think it would be useful to put into the record your 
response to the Defenders of Wildlife report. You might want to 
just address it in a summary fashion and then put a longer 
response into this record for the public record, if you don't 
mind.
    And then I had one other question dealing with the Fish and 
Wildlife Service, if I could. Do you want to answer quickly on 
this one?
    Ms. Clark. Okay, I'd be happy to. The habitat conservation 
plan program is one that is continuing to go through a 
tremendous evolution. It has gone great strides to addressing 
private landowner needs and the potential for private landowner 
conflict between species conservation and economic development.
    We've worked very hard in developing the habitat 
conservation plan program and evolving it through time. You're 
absolutely right, it has grown quickly. And a lot of that 
growth is due to the Administration's commitment to providing 
certainty once a deal is made.
    We are looking and continuing to evaluate the program. The 
fact is, we make decisions based on the best available science 
we have at the time the decision is due. We are incorporating 
biological goals, continuing monitoring and evaluation of these 
decisions. And we incorporate adaptive management in the plans 
where there are significant biological gaps in all of these 
plans. We continue to believe very strongly that species 
conservation needs are being addressed.
    But for the record, Mr. Moran, I'd be glad to provide more 
information.

                      defenders of wildlife report

    Mr. Moran. I think that might be useful, Mr. Chairman. 
You're always going to have tension, and you're trying to walk 
a fine line, I understand. Defenders of Wildlife is doing their 
thing, they're representing their point of view. We've probably 
got even some members on the subcommittee that can pretty well 
represent another point of view.
    [The information follows:]


[Pages 399 - 400--The official Committee record contains additional material here.]



    Mr. Regula. If you'll yield, isn't it a matter of providing 
some certainty?
    Ms. Clark. That's the no surprises, absolutely. A deal is a 
deal.
    Mr. Barry. Congressman, if I could also just add, the 
Defenders of Wildlife study was based on an analysis, I 
believe, of 24 or 26 HCPs out of 225. So it's basically one-
tenth of the sample we have.
    You can draw different conclusions depending on which 
particular HCPs you draw into your samples. So I think in order 
to have a more complete picture, you really need to look at a 
broader sampling of the HCPs than the Defenders of Wildlife 
study included.
    Some of those HCPs, some of the HCPs we've done, we did 
many, many years ago. Some of the ones we're doing now are much 
more complicated, much more sophisticated, much more oriented 
towards large scale landscape based solutions.
    So it really depends on the selection process that went 
into picking the 24 or the 25. There are going to be some that 
we could have done a better job on, there are some that we're 
very proud of. It just depends on what's in that mix.
    Mr. Moran. These are very important points to make. I just 
wanted you to be able to make it for the record.
    And as the Chairman says, there's going to have to be 
compromises made here, and that's one of them, that in return 
for complying with these plans, which in many cases means a 
great deal more commitment than we ever thought we would get 
from some landowners and developers, they need to know what the 
future holds.
    Ms. Clark. Exactly.
    Mr. Moran. They need to know that this is the limit of 
what's going to be expected of them.
    So I understand that, I just think it would be useful to 
put a response to that into the record.
    Is there time for me to raise this other question, Mr. 
Chairman?
    Mr. Regula. If you'll yield one minute.
    Mr. Moran. Sure.

                         headwaters forest hcp

    Mr. Regula. Are you involved in the HCP on the Headwaters 
Forest in California, or is that just BLM?
    Ms. Clark. We are. Fish and Wildlife Service and National 
Fisheries Service, absolutely.
    Mr. Regula. So you're part of that.
    Go ahead, Mr. Moran.

           use of fines and fees to mitigate habitat damages

    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Chairman, in Virginia, we had an interesting case. I 
think that maybe it raises a national issue here, too. 
Smithfield, everybody's heard of Smithfield hams. It turns out 
that the refuse from their pig farms was endangering the fish 
and wildlife habitat in Virginia. They were brought to court.
    The head of Smithfield isn't all that excited about the 
result, because they got fined a lot of money.
    Now, the issue is, when they pay the fine, none of that 
money goes to mitigation efforts to address the problem. It 
just goes right back to the Federal Government, goes into the 
Federal Treasury, never to be seen again. The only person that 
sees it is CBO and OMB in their calculations.
    So my question is, can we make more constructive use of 
these fines instead of infinitesimally reducing the budget 
deficit, could it be used for mitigation efforts? Could not the 
Fish and Wildlife Service get this money from fines directly 
related to illegal actions degrading fish and wildlife habitat?
    For example, the Virginia Wildlife Federation, would love 
to be able to use the Smithfield fine to address the exact 
problems that Smithfield was creating. And yet, we can't get a 
hold of any of that money.
    Is there any way that the Fish and Wildlife Service could 
get that? I know you're going to have to work with OMB and so 
on. But it really seems to make sense.
    Mr. Regula. If you'll yield.
    Mr. Moran. I'd love to yield, Mr. Chairman.
    Mr. Regula. We have another fee program, though. Prior to 
this committee's action, if they collected fees inYellowstone, 
they went to the Treasury. Now they get to keep them. It has changed 
their dynamics.
    Mr. Moran. And that was because of your leadership, and 
that's why this is a relevant issue to bring up.
    Mr. Barry. Congressman, if I could address your point. It's 
a fair question to raise. First of all, the fines I believe 
were imposed under the Clean Water Act. EPA probably is the 
more appropriate agency to address that question to.
    But there have been instances in the past, even in 
Virginia, where there was a creative solution, ultimately, to a 
large liability imposed upon a particular company. I can think 
back in the late 1970s, there was a large oil spill in the 
Chesapeake Bay. Instead of taking the usual tactic, where you 
would impose a fine upon the company responsible for the oil 
spill, the Department of the Interior and the Justice 
Department, and again, I can't recall EPA's particular 
involvement, but they worked out a settlement arrangement 
whereby the company, in effect, paid its fine off into a 
conservation fund, where the monies were directly applied back 
to help restore the habitat that had been affected by the 
spill.
    And the----
    Mr. Moran. You have to get, I think, permission from the 
Federal Government.
    Mr. Barry. Well, in particular, it's the Justice Department 
that becomes very critical. The National Fish and Wildlife 
Foundation has in the past been utilized by other agencies to 
be the conduit for receiving monies of this sort for 
restoration purposes.
    Second, probably between EPA and the Justice Department, 
they would have the predominant voice in this matter. The Fish 
and Wildlife Service has seen very beneficial uses of these 
types of restoration funds in the past.
    Mr. Moran. Yes. And what was cited was the degradation to 
the fish and wildlife habitat. That's the reason for the fine.

                       targeting the use of fines

    Mr. Regula. I assume, in a journal entry a judge could 
order a fine, target the fine.
    Ms. Clark. Right.
    Mr. Barry. That was in effect what happened.
    Mr. Moran. That's what happened previously. But it takes a 
Federal judge to insist upon that, I imagine.
    Mr. Barry. Well, and it takes the Justice Department to 
decline.
    Ms. Clark. Part of the negotiations.
    Mr. Moran. I see. Well, I suppose it's possible that we 
could earmark, if there were any increase, use that as an 
offset, maybe, coming into the Treasury. The problem is, it's 
scored differently.
    Mr. Regula. We get scored, that's what happened on the fee 
program. The fees they were collecting prior to our change were 
scored for the loss to the Treasury, and you have to do it year 
after year. But I think it's important, because the incentive 
then remains with the agency.
    Mr. Moran. Well, thanks. And if you come up with any 
creative ideas, I'd appreciate your sharing them.
    Ms. Clark. Be glad to, thank you.
    Mr. Moran. Thanks so much, Mr. Chairman.

                        salton sea recovery plan

    Mr. Regula. I just have one last question, and that's about 
the Salton Sea. We put a million dollars in last year and asked 
the State to match it. My understanding is the State hasn't 
done anything.
    Ms. Clark. The State of California has not been able to 
come up with the match thus far. We're still working on it.
    Mr. Regula. Now the dynamics again have changed, because 
it's been named the Sonny Bono Salton Sea, or whatever the 
formal name is.
    Ms. Clark. Headed that direction.
    Mr. Regula. Headed that way, yes, there's a bill in to 
establish that.
    Ms. Clark. Right.
    Mr. Regula. Would you want to give us a ball park figure of 
what it would really cost to fix that place?
    Ms. Clark. A lot. I was on the Salton Sea, and it is one of 
the most devastating examples of wildlife damage I've seen in a 
long time.
    Mr. Regula. Shouldn't this really be a Bureau of 
Reclamation project, in terms of the overall scope of it?
    Ms. Clark. I think it's a concerted effort among a number 
of Federal agencies and the State to address the long-term 
needs of the Salton Sea. It's the only wet spot left in 
Southern California that's so critical to the Pacific flyway 
for our birds that migrate. It's taking a lot of us, with our 
respective expertise, to figure out a creative solution.
    Mr. Regula. I assume the mechanics of trying to address 
that problem is a Bureau of Reclamation responsibility.
    Ms. Clark. Partially. The USGS, with their science and 
monitoring capabilities, EPA, the State and our wildlife 
expertise.
    Mr. Regula. I would hope it isn't entirely left to your 
budget.
    Ms. Clark. I hope so, too.
    Mr. Regula. Thank you very much for coming.
    Ms. Clark. Thank you, Mr. Chairman.
    Mr. Regula. We'll have a number of questions for the 
record. We have questions from Mr. Thomas on the California 
condor. I'll put this in as part of our questions.
    Ms. Clark. Okay, we'll be glad to respond.
    [The following questions and answers were submitted for the 
record:]


[Pages 405 - 528--The official Committee record contains additional material here.]



    Mr. Regula. Try to be as prompt as possible in your 
responses so we can complete the record and know where we're at 
when we have to make some of these priority calls.
    Ms. Clark. Certainly. Thank you, Mr. Chairman.
    Mr. Regula. Committee is adjourned.










=======================================================================

                       Department of the Interior

                         National Park Service

=======================================================================











                                           Tuesday, March 31, 1998.

                         NATIONAL PARK SERVICE

                               WITNESSES

ROBERT G. STANTON, DIRECTOR
C. BRUCE SHEAFFER, COMPTROLLER
DENIS P. GALVIN, DEPUTY DIRECTOR
JACQUELINE M. LOWEY, DEPUTY DIRECTOR
DONALD J. BARRY, DEPUTY ASSISTANT SECRETARY, FISH AND WILDLIFE AND 
    PARKS


[Pages 534 - 538--The official Committee record contains additional material here.]



                             Introductions

    Mr. Regula [presiding]. Okay, we will get started this 
morning. We have another busy day.
    We are happy to welcome all of you to the committee 
hearing. Your statements will all be made part of the record, 
and we will appreciate your summarizing. We do have a few 
questions.
    So Mr. Stanton, you are on.

     Opening Remarks of Donald J. Barry, Deputy Assistant Secretary

    Mr. Barry. Actually, Mr. Chairman, if I could, I would like 
to make, again, as I did with the Fish and Wildlife Service 
presentation, a couple of very brief opening oral observations, 
and then Bob will make the formal presentation.
    Mr. Regula. Okay.
    Mr. Barry. I think that in the proposed Park Service budget 
that you have in front of you, the Department has again 
attempted to set the right balance that responds to the 
criticism we have received in the past that we have not been 
taking care of the Federal lands and property that we already 
have. When I look at the dollar figures in the area of 
maintenance, repair and rehab, I see a couple of interesting 
things.
    First of all, when you take a look at the budget's proposed 
park maintenance money and if you take into account the new 
demonstration fee money, where the vast majority of the new fee 
money will be used for repair and rehab type activities within 
the parks, when you also take into account the line item 
construction budget, where I have been told that roughly up to 
$100 million in that budget could be characterized as big 
ticket repair and rehab type things, you have a pot of almost 
$660 million in the fix it up and make it better category.
    In terms of brand new money alone--new money, not money 
that has been in the base in the past--this budget allocates 
approximately $60 million in additional funding for both 
cyclical maintenance and repair and rehab. Moreover, when you 
add to that the new fee project money which is estimated to be 
approximately $115 million or so, you are talking about $170 
million to $175 million of new fix-it-up money.
    The reason I wanted to highlight these amounts is that if 
you take a look at the amount of money in this budget for 
actual line item land acquisition, excluding Everglades 
restoration, the figure totals approximately $48 million. As is 
the case with the Fish and Wildlife Service's budget, we have 
almost a four to one ratio of ``fixing-up-things'' as opposed 
to buying more Federal land. That has been a past criticism, 
that we were acquiring a lot of additional land, but we were 
not taking care of the land that we already had.
    What we are doing is allocating on almost a four to one 
basis new money for doing a better job of maintaining and 
repairing what we have as opposed to acquiring new land.
    We also have additional money for the important restoration 
work in Florida. Mr. Chairman, I know that you were down and 
toured the South Florida restoration effort a couple of weeks 
before I got there. I hope that you were impressed with the 
scale upon which that restoration activity is being undertaken.
    In closing, what I would suggest is that this particular 
budget hits the right emphasis and tone in terms of trying to 
do a better job to take care of what we already have. I am very 
comfortable with the budget proposal we have in front of us. I 
would hope that in future years, we would be able to come back 
to you with a budget that had additional increases in the area 
of resource protection, and park operations, areas in which we 
have maybe not as robust a set of increases in this proposal as 
we would like. But I would hope that in future years, we can 
come back to you and make sure those areas are not overlooked 
as well.

             Opening Remarks of Robert G. Stanton, Director

    Mr. Stanton. Good morning, Mr. Chairman.
    Mr. Chairman and members of the committee, I certainly 
appreciate the opportunity to appear before you to discuss the 
fiscal year 1999 budget request for the National Park Service. 
As the fifteenth Director of the National Park Service, I am 
truly privileged to serve the American people through the 
continued fine and hard work of the dedicated employees, 
volunteers and our many partners in the managementof our 
national parks, and assisting the tribal governments, the States and 
their political subdivisions and various organizations in caring for 
our Nation's cultural, natural and recreational heritage.
    For the purpose of the appearance before you and to give 
you our testimony, Mr. Chairman, and members of the committee, 
I am pleased to be accompanied by Deputy Director Jacqueline 
Lowey to my left, Mr. Denny Galvin, Deputy Director, and our 
Comptroller, Bruce Sheaffer.
    Mr. Chairman and members of the committee, I would like to 
summarize my testimony and present my statement for the record.
    As mentioned by Assistant Secretary Don Barry, the National 
Park Service budget for fiscal year 1999 is $1.75 billion, 
which represents nearly $100 million over the fiscal year 1998 
budget as enacted. This budget proposal specifically addresses 
the needs to upgrade our park facilities and resources, and 
certainly to protect the irreplaceable natural and historical 
resources throughout the National Park System.

                  backlog and construction management

    We have over the past several months been working very 
closely with the Department and certainly with your committee, 
Mr. Chairman, in addressing the backlog maintenance project for 
the National Park Service. To that end, we certainly look 
forward to the recommendations from the NAPA Review, the 
National Association of Public Administrators, which has been 
awarded a contract by Secretary Babbitt. We understand a report 
will be submitted to the Secretary and perhaps to the Committee 
simultaneously on June 15th.
    Again, we await the recommendations of that study and look 
forward to acting upon those recommendations to enhance our 
overall planning, design and construction program in the 
National Park Service.
    But in the interim, we have instituted a number of measures 
to achieve the highest level of efficiency in the 
administration of our planning, design and construction 
program. We have conducted a value analysis of the various 
projects. We are making sure that we are moving expeditiously 
with all environmental compliance, that we are looking at the 
best ways in which to conduct construction supervision, and 
furthermore, that all projects are being evaluated through our 
``choose by advantage'' evaluation system, a system which we 
submitted to the committee and which we are very pleased to 
have received your concurrence in 1995.
    Furthermore, Mr. Chairman and members of the committee, we 
are committed to working with the Department, working with your 
committee, in developing a comprehensive five year plan to 
substantially reduce over that period of time all deferred 
maintenance within the National Park System. We are also 
arriving at a working definition for deferred maintenance and a 
set of criteria that would allow consistency and validity in 
our program as we move forward.

              accountability management information system

    Also, we are committed to developing our comprehensive, 
integrated data base system to facilitate identification, 
budget formulation, tracking and accomplishment of project 
requirements. Our budget includes $375,000 to get the system up 
and fully operational. But in fiscal year 1998, we are 
committing our own resources to moving in that direction.

                        title v funds allocation

    Also, Mr. Chairman, we are looking forward to working with 
your committee with respect to the Title V project listing, 
which includes a number of land acquisitions, as well as 
maintenance improvement projects. We would look forward to 
entering into discussions with you and others as appropriate 
with respect to final disposition of that program.

                  recreation fee demonstration program

    We are very pleased with the authority that this committee 
and Congress as a whole has granted to us with respect to the 
fee demonstration program. As Assistant Secretary Barry pointed 
out, we anticipate realizing through the new authorization in 
the neighborhood of $140 million this year, which will be 
dedicated towards park improvements. This is a great 
opportunity for us. The American people generally have 
expressed their enthusiasm for the fee program, with the 
understanding, obviously, that the fees that they pay are 
dedicated to improving their national parks. And we will 
certainly keep your committee and others advised as to the 
progress we are making relative to improving park projects as a 
result of this new authority.

                 concessions fees legislative proposal

    Also in our budget request, we are proposing that in due 
time, a legislative proposal will be developed that will 
authorize the National Park Service to retain franchise fees 
that are paid to us by concessionaires operating throughout the 
national parks. Currently, the fees paid by the concessionaires 
are deposited in the general receipts in the U.S. Treasury. But 
under the proposal as outlined in the budget request, we would 
seek authority through the legislative process that would allow 
us to retain those fees and dedicate them to park improvements.

                    everglades ecosystem restoration

    Also as mentioned by Assistant Secretary Barry, we are 
continuing a major effort on the part of the Administration, in 
concert with the State of Florida and many other Federal and 
local agencies, in the protection of the Everglades ecosystem. 
The funding requirements are specifically outlined in our 
budget request, totalling $128 million.

                    save america's treasures program

    Also, as we are preparing as a Nation to welcome in the new 
millennium, we are establishing a new funding category entitled 
Save America's Treasures. Under this new program, not only will 
other Federal agencies benefit, including the National Park 
Service, but also tribal governments and State governments to 
assist these very entities in the preservation of those 
irreplaceable cultural items that are held in high esteem or 
endearment by the American people. We are very excited about 
this program, and feel that it will result in a great deal of 
patriotic responses, if you will, by various members of our 
society at all governmental levels.

                      diversity in the work force

    Also, two or three other areas I would like to mention very 
briefly. One is that we are continuing with our efforts to 
improve the diversity within the work force of the National 
Park Service. Certainly if one looks at the National Park 
System, the 376 areas, they truly speak to the rich cultural 
diversity of our Nation. Therefore it is only fitting, in my 
judgment, that the work force of the National Park Service also 
reflect the rich diversity of our Nation. And to that end, we 
are proposing to carry out a new initiative to achieve that 
objective.

                        safety in the workplace

    Also, we are continually concerned about employee injuries 
in the parks and in our offices. I have phrased the expression 
that is my objective to reduce, indeed if not to eliminate, 
human suffering in the work place. That is our ultimate 
objective. Also, one can certainly conclude that there are some 
budgetary implications to injuries on the job. But the 
philosophical idea is to reduce human suffering in the work 
place or in the parks.
    To that end, we have requested $2 million to carry out an 
aggressive evaluation with outside consultants, re-engineer our 
in-house training programs, provide our supervisors and 
employees alike with the best skills in risk management or in 
safety. We have also been using what we call distance learning, 
in which I had the opportunity not too terribly long ago to 
address via satellite communication to 600 employees located in 
some 40 different locations at one time, using that as a tool, 
to discuss the importance of risk management.

          rivers, trails, and conservation assistance program

    Also, we are proposing an increase in our Rivers, Trails, 
and Conservation Assistance Program with respect to engaging in 
increased partnerships in the various communities to link 
various organizations, various citizen groups, joining with 
their Federal Government in protecting our Nation's heritage, 
whether those heritages and resources be in the Federal, or 
State, or private domain, but as a partnership approach. And we 
are requesting $3 million toward that end.

                     urban park and recreation fund

    And lastly, we hope to work with the municipalities 
throughout the country in identifying innovative and exciting 
programs within the urban communities as a part of the Urban 
Park and Recreation Recovery grant program. We are requesting 
$2 million to serve as a catalyst to engage more individuals 
and organizational units of the governments at the State and 
local level in protecting their recreational resources, 
particularly in the urban environment.

         government performance and results act implementation

    In closing, the National Park Service's fiscal year 1999 
request, Mr. Chairman, represents our first opportunity to 
incorporate and relate performance goals and measures to our 
annual budget as required by the Government Performance and 
Results Act. This process, we believe, will help improve our 
operational efficiency, enable us to place greater emphasis on 
program delivery, and better respond to service needs as 
required by the visiting public. To this end, we do have an 
approved strategic plan as well as a fiscal year performance 
plan.
    As we as a Nation and a people reflect on the century past, 
we truly can be proud of the legacy being passed on to future 
generations. As we transition to the new century, from this 
historical age to the next, let us be respectful that the 
National Park System, encompassing the 376 areas, is one of the 
great achievements, in my judgment, of this century, and that 
the decisions we make here will have long and lasting 
consequences to our culture and our country.
    Mr. Chairman and members of the committee, Congress, in the 
preamble to the National Park System General Authorities Act of 
1970, perhaps best described the awesome responsibility that we 
have in these words, with which I will conclude:

    Congress declares that the National Park System, which 
began with establishment of Yellowstone National Park in 1872, 
has since grown to include superlative natural, historic, and 
recreation areas in every major region of the United States, 
its territories and island possessions; that these areas, 
though distinct in character, are united through their inter-
related purposes and resources into one National Park System as 
cumulative expressions of a single national heritage; that, 
individually and collectively, these areas derive increased 
national dignity and recognition of their superb environmental 
quality through their inclusion jointly with each other in one 
National Park System preserved and managed for the benefit and 
inspiration of all the people of the United States.

    Mr. Chairman, members of the committee, this concludes my 
testimony. My associates and I would be more than happy to 
respond to any questions or comment you may have.
    [The statement follows:]


[Pages 545 - 550--The official Committee record contains additional material here.]



                             baseline data

    Mr. Regula. Well, thank you very much. Of course I have 
many questions, but I will restrict my time so we can give all 
the committee members an opportunity.
    I am interested in your last statement there, you said the 
word ``manage'' was very much a part of the National Park 
System. We note that in nearly every instance throughout your 
budget regarding performance goals, the descriptions mention 
``establishing baseline data in fiscal year 1998.'' I have here 
at least five GAO reports from over a period of five years. 
They all essentially have the same theme.
    I will just quote one of them. ``The Park Service has not 
been able to provide detailed support for its backlog for 
repairing and replacing housing.'' Almost each of these reports 
has identical language.
    And now you are saying you are going to have baseline data 
in 1998. Why for five years has nothing been done? I understand 
it was not on your watch, particularly, but I am just trying to 
get an answer as to why this is the case.
    Mr. Stanton. Well, we recognize that there has not been the 
level of accomplishment with respect to establishment or the 
accumulation and verification of baseline data. There have 
been, I think, however, Mr. Chairman, some successes with 
respect to some areas. We have committed ourselves, through our 
strategic plan, and certainly, in conformity with the letter 
and spirit of the Government Performance and Results Act, 
recognized that in order for us to measure our progress, 
through the use of appropriated as well as donated money, in 
taking care of the resources and providing for the visitors, we 
must in fact establish baseline data.
    So that is a commitment that we have made, and we will 
continue to make progress in that area.

                         housing for employees

    Let me just mention with respect to housing, we have 
awarded two contracts. The contractor has joined with our 
National Park Service employees to make a definitive evaluation 
of all employee housing throughout the National Park System. We 
will have the concrete data base with respect to the condition 
of housing, the necessity of retaining that housing, and the 
alternatives for funding housing.
    So that is one critical data base on which we will have 
information, as I committed in October, within a 12 month 
period of time.
    Mr. Regula. That is good. It seems to me one of the real 
challenges that confronts your organization is getting a 
management handle on it. I think that has not been evident 
historically, and now you have the fees to enhance the revenue 
stream.
    Mr. Stanton. That is correct.
    Mr. Regula. In addition to your 6 percent increase here in 
your budget.
    Mr. Stanton. Yes, sir.
    Mr. Regula. I noted that several years ago, we allowed the 
Park Service to reprogram up to $1.5 million from 
administrative accounts to conduct professional training. We 
directed the Service to provide as much training as possible--
via teleconferencing within the regions.
    How much of the training programs, and I would prefer you 
to call them education programs, are designed to enhance 
management skills? I am talking particularly about the 
professional staff.
    Mr. Stanton. We have developed what we call competency 
requirements for each of our major occupational categories, 
including the line managers. And the vernacular, or the 
definition of that term in the National Park Service, would be 
our superintendents, our regional directors, the Washington 
office associate director, those who have major decision making 
authorities.
    There is a competency requirement that the superintendents 
have a working understanding and appreciation for what it takes 
to design and to administer a project or a program. I recently 
have looked at the competency requirements, and it is my 
judgement, Mr. Chairman and members of the committee, that we 
need to add additional levels of training in the business 
management arena with respect to the increasing complexity of 
managing parks. But that is something we recognize we need to 
build upon.
    Mr. Regula. Well, I hope so, because I think the challenge 
prospectively in Government will be to make the use of funds 
available as cost effective as possible.
    Speaking of that, are you confident that you have a good 
oversight system on park fees? Obviously, this is an important 
program to you, and I would not want to see it get a black eye 
because somebody used these funds in an inappropriate way.
    Mr. Stanton. That is a recurring theme, as the associates 
and my two deputies and I interact with our regional directors, 
and they in turn with the superintendents, that the 
accountability of the revenues that are collected at the 
entrance station, at the campground, is critically important, 
not only to maintain the integrity of the system, but when the 
American public passes over a $20 bill at the entrance station, 
they expect that we are depositing that and we are managing it, 
as if it were appropriated money. So we recognize the 
importance of the accountability.
    Mr. Regula. Is your teleconferencing system in place, so 
that if you want to relate something to your superintendents, 
you can do this rather quickly?
    Mr. Stanton. Yes, there are a number of universities, there 
are a number of other Federal agencies that have the 
capability, and I am not that conversant with the technical 
requirements, but in terms of the satellite linkage, we could 
easily move to a studio and telecast or broadcast a message to 
a number of employees at various locations.
    Of interest, Mr. Chairman, and I will not belabor this 
point, is that when we had the distance conferencing on risk 
management at Indiana University, some of our parks are far 
removed and they do not have these satellite connections. They 
have been able to go to other installations within a five 
minute or ten minute drive, and just sit there and get the same 
message. So the use of today's technology, I think, is just 
tremendous, and we are going to try to capitalize on that.
    Mr. Regula. Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman.
    Mr. Director, good to see you.
    Mr. Stanton. Same here, Mr. Skeen.

                            u.s. park police

    Mr. Skeen. As you know, we had a conversation about the 
vacancies in the Park Police.
    Mr. Stanton. Yes, sir.
    Mr. Skeen. I am very much concerned about it, because of 
the inadequacies of the District Police. For a long period of 
time, the Park Police have been one of the cooperators and the 
deliverers of good policing action in the District of Columbia.
    You have about 150 positions you are authorized for, and it 
is my understanding that a significant number of your officers 
are due for retirement now. What is going to happen?
    Mr. Stanton. That is correct, Mr. Skeen. Just briefly, with 
respect to the U.S. Park Police, we are primarily located in 
three geographical areas: here in the Nation's capital and the 
environs; Golden Gate in San Francisco, including Presidio; and 
in New York at Gateway National Recreation Area and at the 
Statute of Liberty and Ellis Island.
    Also, we have a training component at the Federal Law 
Enforcement Training Service in Glynco, Georgia.
    Mr. Skeen. I am familiar with it.
    Mr. Stanton. Right. We have a total of 636 sworn officers, 
again, with the lion's share being here in Washington, D.C., 
and also patrolling the parkways and Wolf Trap Farm Park for 
the Performing Arts.
    Mr. Skeen. What is that figure again?
    Mr. Stanton. Six hundred and thirty-six. Those are sworn 
officers, but in addition to the sworn officers, we have some 
civilians. We do have vacancies, as you mentioned, totalling a 
little over 100. I discussed this recently with Chief Langston. 
We are in the process of recruiting for a new class, a class of 
24. I will be the keynote commencement speaker at a current 
class of 24 that will be graduating at the end of May.
    We will be discussing with the regional director for our 
Northeast Region, Marie Rust, and our regional director for the 
Pacific West, John Reynolds, as well as Terry Carlstrom, here 
of the National Capital Region, to look at the relative 
resources that are available to ensure that the Park Police 
strength in those three central locations are at par, if not at 
the ultimate level at which they are authorized. But we do have 
deficiencies there in terms of funding to achieve that at this 
particular time.
    Mr. Skeen. What about equipment, such as automobiles, 
radios, things of that kind? Are you pretty well stocked with 
them?
    Mr. Stanton. We are pretty much holding our own, but there 
are a number of vehicles, because of the intense use that they 
get with respect to patrolling the parkways and what have you, 
we try to set up a system where we, through General Services 
Administration, purchase perhaps in the neighborhood of 20 to 
30 new cruisers per year. Again, the cruisers are----
    Mr. Skeen. They are new, not new-used?
    Mr. Stanton. They are new, and they have to meet full 
specifications with respect to the vehicle engine and what have 
you. But we are continuing to evaluate the equipment 
replacement needs. We do have a backlog, if you will.
    Mr. Skeen. I think they have been a vital element, 
particularly in the Washington Area and, I am sure, Golden 
Gate, and some of the other places.
    Mr. Stanton. But it is, as you point out, Mr. Skeen, again, 
I will not belabor the point, it is a hand-in-glove 
relationship with the D.C. Government. We administer roughly 20 
percent of the land base of the District, which is about 7,000 
acres. But we also have concurrent jurisdiction in that on an 
as-needed basis, our Park Police can respond to the 
Metropolitan Police and vice-versa.
    So it is very important that we have a certain level of 
proficiency here.

                      vanishing treasures program

    Mr. Skeen. Very good. I am very interested in that 
Vanishing Treasures program you started last year, particularly 
in the south, the southwest. As I understand it, though, the 
budget is 50 percent less this year. Can you explain why they 
are cutting a program that we are just getting off the ground?
    Mr. Stanton. We have to make some judgment with respect to 
the priorities. But by the reduction, sir, there is no 
indication, especially on our part, that this is not a 
critically important program. It is. To preserve some of the 
prehistoric and historic fabric of the various structures, 
particularly in the southwest, it is critical to us.
    The program basically had two components. One is the hands-
on preservation of adobe structures and others in the great 
southwest, but also to train new employees in a particular 
skill, who have been able to preserve adobe structures and 
others.
    Mr. Skeen. Restoration?
    Mr. Stanton. Restoration. And we recognize they need to 
continue that. But I think it is a little over $500,000 
requested in the budget for this fiscal year, and we will be 
able to do hands-on preservation work, plus train a cadre of 
new employees in that particular skill.
    The amount requested for fiscal year 1999 for the Vanishing 
Treasures Initiative is $1,000,000, the same amount as enacted 
by Congress for fiscal year 1998. Of the amount, $547,000 is 
managed at the regional level and $453,000 has been placed in 
various park bases to further the initiative.

                        baca tract in new mexico

    Mr. Skeen. One last question. What is the National Park 
Service's position on the Baca location in New Mexico? It is a 
95,000 acre ranch that is near Bandelier National Monument. Is 
the Park Service interested? Do they want the ranch or not? 
What is the position on it?
    Mr. Stanton. We have an interest in the Baca Ranch. I have 
not personally seen it other than through a video. And it is a 
magnificent piece of property.
    The Administration has included the acquisition of the Baca 
tract or a portion thereof in the Title V, the $699 million 
allocation. And that is before Congress with respect to any 
future acquisition.
    That acquisition would be carried out by the U.S. Forest 
Service, with the understanding that there may be some 
discussion between the U.S. Forest Service or Department of 
Agriculture and the Department of the Interior and the Park 
Service with respect to maybe some adjustment to the boundary 
of Bandelier National Monument.
    There is an interest in the Baca Ranch on the part of the 
Administration, no question about that.
    Mr. Skeen. Thank you very much.
    Mr. Stanton. Thank you, Mr. Skeen.
    Mr. Regula. Mr. Wamp.

                       park operations shortfalls

    Mr. Wamp. Mr. Stanton and Deputy Directors, welcome, thanks 
for coming back today.
    Three questions, and I will try to be brief. First, in this 
fiscal year, this committee approved almost $26 million for the 
parks that had the biggest shortfall for operational 
expenditures in the current fiscal year. Looking at your 
request for next year, that figure is about 25 percent of what 
it is this year, for operational shortfalls in some of the 
critical parks.
    Does that mean that there are not as many operational 
shortfalls heading into this year as there have been in the 
past?
    Mr. Stanton. We still have shortfalls, Mr. Wamp. The budget 
calls for a little over $6 million for 46 parks throughout the 
country. Particularly in some of the smaller parks, some of the 
parks that have increased responsibilities with respect to new 
facilities, and some of the newer parks that have been recently 
authorized by Congress, we want to preserve the resource and 
provide for visitor use.
    But the lion's share of our increase has been in upgrading 
the facilities in the parks and protecting the resources. We 
feel that this budget allows for the parks to maintain a 
quality level of visitor services and are able to preserve the 
resources. It is a little difficult for me at this point in 
time to speculate with respect to the markup or the makeup of 
our fiscal year 2000 budget. But clearly, it would be our 
objective to assure that all the parks have an adequate level 
of operational resources to begin to meet that twofold purpose 
of resource protection and ample visitor services for those 
expenses.
    Mr. Wamp. Someone else may want to follow up on that, but 
it just looked strange to me. I know we have new fee revenues 
coming in to cover some of these operational expenditures, but 
seldom does the Congress approve $26 million one year, and the 
next year the request is only 25 percent of that amount for 
that particular area.

         government performance and results act implementation

    Second question, and I know it is risky to get into these 
GAO reports but I want to ask a question about two of them. The 
one entitled Managing For Results Could Strengthen 
Accountability, the GAO report says, ``No expectations have 
been established for the goals that are to be achieved in the 
parks, and there is no process for measuring progress toward 
these goals. As a result, the agency lacks a means to monitor 
progress toward achieving its goals and to hold park managers 
accountable for the results of park operations.''
    In a one minute response, what are we going to do about 
that?
    Mr. Stanton. Mr. Wamp, may I ask what is the date of that 
report?
    Mr. Wamp. Yes, it was April of last year, 1997.
    Mr. Stanton. GAO recently visited us as a follow-up to 
that, with respect to our compliance with the letter and the 
spirit of the Government Performance and Results Act. If I may, 
I would request Mr. Galvin to respond to that.
    Mr. Galvin. Yes, I might just actually quote from the most 
recent report that GAO did. This is a draft, of course, by the 
way. The observation in 1997 is correct in the sense that these 
linkages are difficult. But here is what they said most 
recently:
    ``Park Service staff we interviewed said that critical 
factors for implementing the Results Act included:--combining 
strong central guidance and support--demonstrating visible 
support from top management--stressing the importance of 
strategic plans . . . , and--holding park managers accountable 
for the results of their plans.''
    They say, ``Although the Park Service is still at the early 
stages of implementing the Results Act, the progress it has 
made and the challenges that remain provide valuable insights 
that could prove useful to other agencies as they implement the 
Act.''
    ``This year is the first year of full implementation. The 
agency has a strategic plan approved earlier in the year, every 
park has a strategic plan and every park has prepared an annual 
performance plan.''
    The Chairman mentioned baseline data earlier and we feel 
that about half of it is good, but about another quarter is 
fair, and another quarter is poor.
    We certainly need to develop better data bases so we can 
measure our progress, and so that we can impart to the American 
public and the Congress what we are doing to achieve these 
goals.

                         manager accountability

    Mr. Wamp. The third question is a transitional third 
question. Let me just say that as we held our hearings on a 
variety of issues, we lacked the ability to determine a person 
accountable for certain actions. Whether it is the park manager 
in some cases, or some person in the construction area of 
housing or toilets or whatever, the accountability is lacking. 
We need to monitor that as closely as possible.

                           backlog management

    The third issue, which is a related issue, is this issue of 
backlog maintenance. Another GAO report from last month, 
February of 1998, says ``The Park Service's estimate of its 
maintenance backlog is not reliable. Its maintenance backlog 
estimates are compiled in an ad hoc basis, in response to 
requests from the Congress or others. The agency does not have 
a routine, systematic process for determining its maintenance 
backlog.''
    In all fairness, we find the same problem at other Interior 
agencies, and we need a comprehensive definition of backlog 
maintenance. You mentioned it in your opening statement, but 
can you go a little bit further? How are you coordinating with 
other agencies? When can we expect this?
    I understand--this is only my second year on the 
subcommittee--but I understand this issue has been lingering 
for a number of years now without a real clear-cut definition 
for what is backlog maintenance. We are not going to spend 
other dollars or backlog maintenance dollars in other areas, 
because the new definition will not allow it.
    Mr. Stanton. Let me comment very briefly, Mr. Wamp, if I 
may, and then I would ask my supervisor, Assistant Secretary 
Don Barry, to comment in terms of his involvement with 
Secretary Babbitt and other members of staff with respect to 
the whole of Interior.
    I had the opportunity, as you well recall, to appear before 
this committee on two occasions with respect to an oversight on 
the planning, design and construction program. Out of that grew 
several commitments, not only on behalf of the National Park 
Service, but indeed, the Department of the Interior.
    One is that there would be a common, working definition 
with attending criteria with respect to deferred maintenance. 
And the second is that there will be a comprehensive plan 
developed over a five year period that will address not only 
Park Service, but also Fish and Wildlife Service and Bureau of 
Land Management, so that all of that kind of data base, or that 
kind of information, could be readily displayed. There will be 
some consistency from year to year with respect to deferred 
maintenance and what the priorities would be.
    Mr. Barry. Congressman, you are asking a very logical 
question. And it is one that the Assistant Secretary for 
Policy, Management and Budget, John Berry, is very interested 
in pursuing. John has the entire department to worry about. He 
has begun the process of trying to develop common, standardized 
definitions of the terms maintenance, repair, rehab, etc., to 
be applied throughout the entire Department. He sees the 
individual budget recommendations coming in from the different 
agencies, and what you will notice is that one agency defines 
maintenance one way and a different agency defines it a 
different way.
    So right now in the department, there is underway, an 
effort to try to standardize the terminology that the different 
agencies are using. That way, it will be much easier for both 
the Administration and also members of this committee to get a 
sense of how all of the agencies are faring, since they will be 
using common terminology. That effort is just beginning.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. Well, it is obviously a good management 
technique.
    Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Good morning.
    Mr. Stanton. Good morning.
    Mr. Skaggs. I was sitting here thinking, Mr. Stanton, that 
we are all pretty lucky to get to go to work every morning and 
look at the Capitol. And I think probably the only thing that 
even comes close in Government is getting to go to work every 
morning at the Park Service. Do we pay you or do you do this 
for free?
    Mr. Stanton. Well----
    [Laughter.]
    Mr. Stanton. I do get my rewards, as you say, looking at 
the parks daily.

                               donations

    Mr. Skaggs. You and I spoke when you came by the office the 
other day about what still is left to be done at Ellis Island, 
which I happened to visit a few weeks ago.
    Mr. Stanton. Yes, sir.
    Mr. Skaggs. For the record, I understand you all do not 
need any additional authority to establish a donation facility 
of some kind at any of the parks?
    Mr. Stanton. That is correct. We have legislative authority 
to accept donations, restricted as well as unrestricted. And 
once a donation is received, we have the same obligation to 
manage that donation as if it were appropriated dollars.
    Mr. Skaggs. And the donation, say in a collection box 
outside Ellis Island, would stay and be used to continue the 
rehabilitation and renovation?
    Mr. Stanton. Yes, Ellis Island has the authority to 
establish a special donation account. Donations are deposited 
in that account and could be drawn upon for a number of 
preservation or educational or visitor business services at 
that park.
    Mr. Skaggs. If the committee should happen to wish to 
provide some stimulus to the Park Service to establish such an 
activity at Ellis Island, I was going to invite you to submit 
for the record any other comparable sites around the country 
that might lend themselves particularly to a donation approach. 
Any startup costs of any significance in doingthat? Buying the 
donation boxes?
    Mr. Barry. Mr. Skaggs, if I could just offer one 
observation. The Park Service is very interested in doing all 
that it can to promote the donation of funds, private funds in 
support of the National Park System. There is one thing that we 
all need to be very careful of, though. And that is that we 
very quickly find ourselves dealing with First Amendment 
issues.
    What we need to do as we handle things like donation boxes 
in the parks is keep the First Amendment in our rearview 
mirror. We are advised by our attorneys that are specialists in 
this area, that if you are not careful and you allow one group 
to solicit donations in a donation box in the park, you have to 
be prepared to allow virtually every group to have the same 
access for their particular activities and causes as well.
    So it is just one thing that we need to keep in mind, that 
something as simple as a donation box, which sounds like 
something you would want to encourage, can frequently bring 
with it other problems. We just need to keep those in mind as 
we walk through this process.
    Mr. Skaggs. I am talking about a donation that would remain 
at the park for park purposes.
    Mr. Barry. Fair enough. But what we have been told is that 
there may be situations where it will not matter to a court 
what the purposes was, it is the act of allowing people to 
solicit funds in the park, eliminate the ability----
    Mr. Skaggs. I do not want to burden the record with a lot 
of legal briefs. But if you would furnish personally to me 
whatever materials you might have that provide a legal insight.
    [The information follows:]

                             Donation Boxes

    The National Park Service has authority to accept donations 
to benefit the national parks. This authority is the basis for 
the Service having installed donation boxes in more than 200 
parks nationwide. The boxes complement fundraising campaigns 
carried out for some parks by non-profit organizations under 
agreement with the Service. (The most productive campaign has 
raised more than $400 million for the Statue of Liberty/Ellis 
Island.) While the Service-managed donation boxes do not 
generate enormous sums of money, they do enable parks to 
enhance visitor services in small but important ways. There are 
strict accountability measures in place to ensure the security 
and proper disposition of these funds. While the Service is 
comfortable having its own donation boxes in parks, it does not 
allow other entities to do so--even when the other entities are 
non-profit park support organizations. This is based on our 
concern that if a park allows any one organization to install 
donation boxes, it would have to provide equal treatment to 
other organizations and allow them to do the same thing. The 
NPS does not want to create a situation where we lose control 
over in-park solicitation and are forced to allow fund-raising 
activities totally unrelated to the Service's mission.

                         overflight management

    The Administration, the Park Service has asked for some 
money to continue to implement overflight management at Rocky 
Mountain National Park. I think that is a terribly important 
way of preserving the quality of that park, and acting before 
we are faced with the kind of problem you are trying to deal at 
Grand Canyon. I just wanted to invite your comment on that 
particular budget item. How is it going?
    Mr. Stanton. It is going quite well. It is an interagency 
involvement, with respect to looking specifically at overflight 
regulations and other considerations at Grand Canyon, then a 
national regulation, that involves a bi-agency task force. The 
Federal Aviation Administration, National Park Service, and 
also the industry itself has an opportunity to make input with 
respect to how they perceive what the regulations might be.
    I have asked our Deputy Director, Ms. Jacqueline Lowey, to 
be the point person for the National Park Service with respect 
to working with FAA, and with our park managers at the regional 
and park level. Jackie may just want to comment very briefly on 
the purpose of that $400,000 request in the budget.
    Mr. Skaggs. I am told she has some passing familiarity with 
this.
    Mr. Stanton. To say the least, yes.
    Ms. Lowey. As you may know, we received the recommendations 
from the National Park Overflights Working Group this past 
December, and by all accounts, they achieved what many thought 
was impossible: a consensus recommendation for an overflights 
regulation. We are in the process of working with that working 
group and the FAA on a notice of proposed rulemaking.
    We anticipate that the process of implementing that rule 
and continuing to develop that rule and the technical 
information to support it will require additional resources for 
the National Park Service. That is the purpose of the $400,000.
    Mr. Skaggs. Thank you.
    Mr. Chairman, I will be encouraging us to accommodate this 
with all that I can bring to the table when we start to get our 
bill put together.

                  cache la poudre water heritage area

    A couple of other things very quickly. You have requested 
$150,000 to deal with various aspects of the Cache La Poudre 
area in Colorado. I have some information to suggest that that 
may not be enough for the task. If for therecord you can just 
provide some further justification or indication, if things have 
developed so that we need to consider an additional amount there.
    Mr. Stanton. Yes, sir.

            dinosaur national monument inholding acquisition

    Mr. Skaggs. And also for the record, just a report on 
inholding acquisition at Dinosaur National Monument, how are 
things going on that.

              rocky mountain national park willing seller

    And I understand that some water rights are available from 
a willing seller in Rocky Mountain National Park, and might be 
an important item for us to consider, if you can provide 
something for the record on that.
    Mr. Stanton. Yes, sir.
    [The information follows:]

                        Cache La Poudre Corridor

    Cache La Poudre Corridor Commission has not yet been 
established. The NPS currently is working with the Governor of 
Colorado to move through the necessary processes to establish 
this commission.
    In February 1998, an Interpretive Planner from the National 
Park Service was assigned to carry out the National Park 
Service responsibilities for the Cache La Poudre Corridor. This 
employee is preparing as much as can be done for the 
interpretive planning needs of the commission prior to its 
establishment.
    FY 1998 accomplishments and plans include: preparation of 
GIS maps of the Cache La Poudre Water Heritage Area, with 
identification of interpretive sites and other corridor 
features; preparation of a draft charter, bylaws, and other 
operating documents for use by the commission, once 
established; coordination with local communities and 
organizations currently active along the Poudre Corridor in 
Larimer and Weld Counties. This will be an essential component 
of the success of the commission, once established; work with 
Governor Romer's Office to insure that prospective nominees to 
the commission are identified, kept informed, and remain 
interested. This has been done, and the Governor's Office is 
ready to submit names to the Secretary of the Interior when 
appropriate; work with the U.S. Forest Service to establish 
their representation and active participation; arrangement of 
meeting and office space for the commission, once established; 
preparation of a newsletter to inform local citizens, involved 
entities, and prospective commissioners of the current status 
of the Cache La Poudre Water Heritage Area; and developing a 
repository of information about the Poudre Corridor for future 
use by the commission.
    The NPS has requested $150,000 in its FY 1999 budget 
request for Cache La Poudre Water Heritage Area. Additional 
funding of $80,000 could be utilized to allow a full grant of 
$50,000 to the commission and support for the two employees to 
be detailed to the commission in FY 1999, including travel, 
geographic information system use, printing, vehicle rental, 
and supplies.

                Land Issues--Dinosaur National Monument

    Dinosaur National Monument is one of thirty-three inholding 
areas within the National Park System. An inholding area is a 
unit of the System that was authorized before July 1959 or 
fiscal year 1960. The National Park Service pursues, subject to 
the availability of funds appropriated for the acquisition of 
privately owned lands in inholding areas, an opportunity-
purchase program by acquiring interests in tracts offered for 
sale by landowners. There are presently 65 tracts containing a 
total of 4,548 acres of privately owned land remaining to be 
acquired at the national monument. The Service is presently 
working on the acquisition of an 80-acre tract from a landowner 
and the acquisition effort has been complicated by a lengthy 
guardianship proceeding initiated by the landowner's child. In 
an ongoing land exchange effort, the Service is seeking to 
acquire fee and mineral interests owned by the State of Utah 
within the boundary of the national monument. the Service is 
also engaged in efforts to acquire two tracts containing a 
total of 520 acres that comprise the Mantle Ranch property 
within the national monument.
    The Park Service and the Mantle Family previously executed 
an agreement to resolve grazing disputes on Federal land within 
the monument. The agreement provides that the parties will 
engage in good faith discussions regarding the sale of the 
Mantle Ranch to the United States. The agreement further 
provides that, following completion of an appraisal, the 
parties would negotiate in good faith to reach a mutually 
agreeable price. Appraisals of the property obtained in 1996 
and 1997 did not meet Federal appraisal standards and were not 
approved by the Service. The Service cannot proceed with 
acquisition until an appraisal of the property is obtained and 
approved. The NPS recently ordered a new appraisal of the 
property. The Service will seek permission from the owners for 
the current appraiser to inspect the property.

               Land Issues--Rocky Mountain National Park

    At Rocky Mountain National Park, the Service is seeking to 
acquire privately owned easement interests and water rights at 
Lily Lake. The owner owns the right to use and expand the 
reservoir at the lake. The Park Service recently took delivery 
of the appraisal of the easement interests to be acquired. 
Following review and approval of this appraisal by the NPS, the 
water rights will be appraised. When all necessary appraisals 
are obtained and approved, the Service will commence 
negotiations to purchase the interests.

    Mr. Skaggs. And Mr. Chairman, if you will excuse me, I need 
to get to our other subcommittee.
    Thank you very much, Mr. Stanton.
    Mr. Stanton. Thank you, Mr. Skaggs.
    Mr. Regula. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Is it okay if I am a little parochial initially? I want to 
tell Mr. Stanton how happy we are that he is the Park Service 
Director, and welcome your fine staff.

               arlington boathouse land transfer proposal

    Arlington County, you may recall, Mr. Chairman, is the 
jurisdiction in which the leadership of this Congress renamed 
its airport against the overwhelming opposition of the 
community. So they are particularly concerned about an 
agreement that was made back in 1934, Mr. Director. The Federal 
Government came in and said, we want to build a highway along 
your waterfront, the George Washington Memorial Parkway. But in 
return, we are going to give you access, Arlington County, that 
is, to the area right around Teddy Roosevelt Island.
    So now Arlington County has a terrific proposal where they 
would put a little boathouse that would fit right into the 
land, and Arlington County and Fairfax County schools would be 
able to use it, and it would be wholly in keeping with the 
recreational use of our national parks and so on, and use the 
existing infrastructure.
    Now, my question to you is, does equity not require the 
Park Service to transfer the site identified back on this 1934 
agreement so that it can meet its commitment to Arlington 
County? You can answer that yes or no, obviously only one 
answer is correct. [Laughter.]
    Mr. Stanton. With all respect, Mr. Moran, I have asked our 
solicitor to move expeditiously in giving me the result of 
their review of the 1934 agreement. We have reviewed the 
proposal with Arlington County and interested parties. There 
are admittedly a number of concerns with the proposal from an 
environmental perspective.
    But we feel that, as you have outlined, there is an 
administrative, and indeed a legal, obligation to review the 
agreement that was struck in 1934, to make a judgment as to the 
result----
    Mr. Moran. So there is a legal obligation there? Okay, 
good.
    Mr. Stanton. I am awaiting counsel on that obligation, yes.

           arlington national cemetery land transfer proposal

    Mr. Moran. Okay, thank you, Mr. Director. Now, the second 
issue. Arlington Cemetery, we are all very familiar with this. 
We have an important issue coming up. The Department of the 
Interior has recently completed a staff study of the 24 acres 
that the Department of Defense wants near Arlington House. All 
of that land could be transferred to the Department of Defense. 
Or there is a second option to only transfer four acres, which 
strikes me as a pretty reasonable compromise. Or a third option 
of not transferring any of that site.
    Can you tell us where this process stands right now? There 
are a lot of people interested in it, obviously.
    Mr. Stanton. I appreciate that, Mr. Moran. Clearly, we 
understand the needs on the part of Arlington Cemetery to 
increase their capacity to provide final resting places to 
those who have contributed so much to our country. There had 
been an agreement reached between the Department of the Army, 
Arlington Cemetery and the Department of the Interior and 
National Park Service that would be the basis of transfer of 
property from our jurisdiction to the Arlington Cemetery 
jurisdiction. The property in question is administered as a 
part of Arlington House, the home of Robert E. Lee.
    Based on environmental examinations, archaeological values 
have been determined to be in abundance. So, the environmental 
document developed outlines several options. One of the options 
includes the transfer of a little over four acres that does not 
have significant archaeological value, and would not affect the 
historical setting of Arlington.
    Mr. Moran. So that is the one you would most likely 
recommend?
    Mr. Stanton. I do not anticipate a final decision to be 
made until late spring or early summer. There are ongoing 
discussions between our regional staff and the Superintendent 
of Arlington Cemetery.

        oxon cove land exchange in washington, d.c. and maryland

    Mr. Moran. The third item deals with another exchange in 
this area. There are 42 acres known as the Oxon Cove parcel in 
the District of Columbia that is supposed to be transferred to 
the D.C. Department of Corrections. There is some urgency to 
this, because Lorton Prison is closing down.
    This is a parcel that is supposed to house a prison that 
would be built by the Corrections Corporation of America. The 
D.C. Government wants this done. What would happen is the 
Corrections Corporation would transfer to the Park Service 84 
acres on the Prince George's shoreline.
    It is a pretty good deal for the Park Service, it would 
seem. You get twice as much land, exactly twice as much land, 
and the land that you would be giving up is pretty useless. It 
has been suggested maybe somebody wants to put a golf course 
there, but I do not know how you could fit more than three 
holes.
    Anyway, what I want to know is what the status of that is. 
Because at some point, we are going to have a whole lot of 
prisoners without any prisons to house them, and we really do 
not want them running through Park Service land. We would 
rather have a prison there that might contain them better than 
that.
    So do you have any updated progress report on that, Mr. 
Stanton?
    Mr. Stanton. Thank you, Mr. Moran. [Laughter.]
    Seriously, the exchange that you described has been 
directed by legislation, and the exchange is across boundaries 
of the District of Columbia and Maryland. In order for us to 
exchange properties across jurisdictional lines, the State of 
Maryland and the District, that exchange requires Congressional 
approval. That has been so directed.
    We are in the process of conducting an appraisal, because 
there has to be an exchange of like values. The land to be 
exchanged in Maryland, a lot of that is submerged lands, and it 
is difficult to get a true fix in terms of its value.
    It is my understanding through our regional officers that 
perhaps late spring or early summer, an appraisal will be 
agreed upon and presented to all the interested parties who are 
the owners of the property.
    Mr. Moran. But you are aware that the fiscal year 1998 
appropriations bill directed you to effect the transfer?
    Mr. Stanton. That is correct.
    Mr. Moran. I have some national interests, Mr. Chairman, 
but I have a suspicion that these issues might not have come if 
I had not raised them. So I will wait until my next turn.
    Mr. Regula. We will take questions for the record and go 
around again.
    Mr. Dicks.

       elwha river dams and restoration at olympic national park

    Mr. Dicks. Thank you, Director Stanton, and Mr. Barry, good 
to see you.
    Can you tell us what the status is on the Elwha Dam 
project, in Washington State?
    Mr. Stanton. Yes. With respect to the funding for the 
acquisition and demolition of the dam, that is included in the 
Title V request that has been submitted on behalf of the 
Administration by Secretary Babbitt and Secretary Glickman. It 
does call for that funding to be available through that 
authority.
    Mr. Dicks. And it is $86 million, as I understand it, to 
acquire the Elwha and Glines Canyon Dams, and begin dam 
removal, and ecosystem restoration of Olympic National Park in 
Washington State. Can you explain what the Administration's 
approach is going to be on this project?
    Mr. Stanton. As described in the Title V request, we would 
acquire both dams and demolish one. Then there is discussion 
with members of the Washington State delegation and other 
interested parties with respect to whether or notone dam would 
remain in place for a number of years while we are conducting some 
ecological studies to determine the consequences of the removal of the 
first dam.
    A firm decision on that, I believe, has not been determined 
or otherwise reached at this point in time. But clearly, the 
acquisition of both dams and the demolition of one is the 
Administration's proposal.
    Mr. Dicks. I support the idea of acquiring them, taking one 
out. I think I just would point out that there is some 
difference of opinion within the delegation about the timing on 
the second one. We need, I think, to look at that in terms of 
what is the best approach for that ecosystem. If we are going 
to do fish restoration, and that, I think we ought to do some 
scientific work on what will do the best for us in terms of the 
timing of taking out the second dam.
    Mr. Stanton. Mr. Dicks, I had the opportunity to personally 
tour Olympic National Park a month and a half ago, to take a 
look at Glines Dam and Elwha Dam. This would represent a 
magnificent ecological restoration accomplishment, if we were 
able to do this.
    Mr. Dicks. I would point out one thing, too, that is very 
important, protecting the City of Port Angeles' water supply. 
It was in the original legislation and we are very concerned 
about it.
    Mr. Stanton. Right.

                 olympic national park goats management

    Mr. Dicks. Let me ask you, Mr. Barry, you and I had a 
discussion earlier about the situation regarding goats in the 
Olympic National Park. As you know, this has been a very 
controversial item. I would like to know if you can tell me, or 
for the record, what the status is of our new study that is 
being done to look at the, well, I guess there are two issues. 
One, whether the goats are in fact native to the Olympic 
National Park, and number two, the question of--what was the 
second question? Yes, were they the cause of damage or is the 
current population such that the damage is basically de 
minimis.
    Mr. Barry. If you do not mind, Congressman, as much as I 
would love to personally respond to this question that you and 
I talked about almost a year and a half ago, I have not 
personally received any updated briefings on the status of this 
issue in the last six months. So let me turn to Bob and see if 
he can give you more information on that.
    Mr. Stanton. Thank you, Mr. Barry, Mr. Dicks.
    We are in the process of putting finishing touches on a 
proposal that would invite various organizations, particularly 
in the natural resources and scientific area, to offer a 
response about how they could conduct a study to determine to 
our satisfaction once and for all whether or not the goats are 
indigenous, and further, what is the ecological impact of the 
goats on the native flora and fauna of the park, and whether or 
not there is an alternative for the management of the goats 
with respect to stabilizing a certain herd number, or what have 
you.
    I do not know how long this study will actually run before 
the results will be presented to the National Park Service and 
to the Secretary's Scientific Advisory Board. But that is the 
approach we are taking, to develop that scientific data base.
    Mr. Dicks. As you well know, there has been considerable 
opposition to the idea of eliminating the remaining goats.
    Mr. Stanton. Yes, sir.
    Mr. Dicks. I just thought I would point that out.

                lewis and clark expedition bicentennial

    Let us talk about the Lewis and Clark Bicentennial. Can you 
tell us what the Park Service, in fact, what the Administration 
is going to do in terms of honoring the 200th anniversary of 
Lewis and Clerk?
    Mr. Stanton. Yes, I would ask Mr. Galvin to comment on 
that. The National Park Service is joining with a number of 
other land management agencies and the various States which are 
very much interested in the celebration. The National Park 
Service has committed resources to this planning effort. Denny, 
do you want to comment briefly?
    Mr. Galvin. Yes, of course. We are the coordinators on the 
Lewis and Clark Trail, although much of the actual land in the 
Lewis and Clark Trail is either on Forest Service property or 
BLM land. Of course, it passes through towns and cities 
throughout the Western United States.
    Fort Clatsop was the termination of the journey, and we 
have had some ceremonies there. We have in this budget 
requested a fairly significant increase in the rivers, trails 
and conservation assistance program that would enable us to 
participate more actively in the celebrations across the trail, 
and also we received $300,000 in the 1998 budget, in the 
construction budget, for a construction of an interpretive 
center in Nebraska on the Lewis and Clark Trail.

                financial and accountability management

    Mr. Dicks. Let me ask you, last year we talked about a 
number of issues related to the management, the financial 
management of the agency. How are we doing on that, Mr. 
Stanton? Are we able to have good numbers, good reconciliation 
at the end of the year about how money is being spent at the 
Park Service?
    Mr. Stanton. We are making progress, Mr. Dicks. As I 
attempted to describe in my opening remarks, this budget calls 
for some additional resources to allow us to come up with a 
comprehensive project management system that will be reflective 
of our commitment to meeting the letter and the spirit of the 
Government Performance and Results Act. It would be one way in 
which we can hold managers and supervisors accountable in terms 
of the expenditure of appropriated and donated funds.
    I will ask Bruce Sheaffer to give us an update in terms of 
some recent audit reviews, and also the plan that we have 
underway to get this comprehensive system underway, as you 
described.
    Mr. Sheaffer. Under the provisions of the CFO Act, there is 
an annual audit of agencies' financial plans. The Inspector 
General has finished the fiscal year 1997 audit of the National 
Park Service and given it, again, an unqualified audit. So we 
meet the requirements of the CFO Act without qualification.
    Mr. Dicks. Can you guys help the Forest Service? 
[Laughter.]
    Mr. Sheaffer. Certainly, we would be glad to do anything we 
can to help the Forest Service.
    Mr. Dicks. Well, they need help. Have you had any bad GAO 
reports recently?
    Mr. Sheaffer. Well, not regarding the accounting issue that 
we just talked about. There are GAO reports involving a number 
of other issues. If I may, on the issue the Director mentioned, 
and also following up on earlier conversations, we are moving 
in the direction of linking our accounting system with GPRA 
requirements by having the lowest levelorganizations 
established and code accounts in such a way that they can be 
accumulated and summarized at the highest level.
    Also, we will be talking to you some time in the near 
future about budget restructuring, which would totally 
integrate the goals of GPRA and the accounting system.
    Mr. Dicks. What is GPRA again?
    Mr. Sheaffer. Government Performance and Results Act.
    Mr. Dicks. Does the Vice President have something to do 
with this?
    Mr. Sheaffer. It is a Congressional act, in addition to the 
Vice President's interests.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Thank you, Mr. Dicks.
    I guess I would have to comment, Mr. Dicks, physician first 
heal thyself, before we encourage them to go to the Forest 
Service. [Laughter.]
    Mr. Nethercutt.

                       park operations shortfalls

    Mr. Nethercutt. Thank you, Mr. Chairman, and welcome to the 
witnesses.
    You testified a minute ago in response to a question by Mr. 
Wamp about the increase of $6.8 million for basic park 
operations, dividing that up by 46 different locations. I want 
to be sure I understand how that list was prioritized and to 
what extent urban parks versus rural, big parks are affected.
    Mr. Stanton. The listing primarily includes smaller parks, 
those parks that have some new responsibilities in terms of new 
facilities, and some of the newer parks that have been added to 
the system. Those parks that are larger with respect to their 
operating budget would have more flexibility to make some 
internal adjustments. But there are some smaller parks, maybe 
with a $500,000 or $1 million budget, that have limited 
opportunities in terms of adjustment of personal services or 
material supplies and other kinds of requirements. The calls 
have gone out to our regional directors, and they in turn 
provide their sense of priorities to the Washington office. 
There is a process that we go through with respect to the 
criticalness of the needs of a smaller park, whether it is the 
resource protection or whether it is to provide an acceptable 
level of services.
    Again, I would ask Bruce to comment very briefly on the 
process of those 46 parks.
    Mr. Sheaffer. Mr. Nethercutt, we go through a process that 
is very much a bottom up approach, where the parks do their own 
internal evaluation and submit priorities through the line 
management of the Service, as the Director said. The emphasis 
in the budget this year is on relatively small park areas, in 
an attempt to give those park areas some reasonable cushion.
    If the relatively small park areas go for too long without 
some increase in operating base, what tends to happen with pay 
costs and other inflationary pressures is their base budgets 
become inadequate to cover their staff. So they become somewhat 
of a burden on the larger parks and medium parks in attempts to 
try to help them through the year.
    So we have tried to remedy many of those situations with 
what you have pointed out is a somewhat modest increase in the 
1999 budget for park operations.
    Mr. Nethercutt. Can you for the record, or can you state 
today which of the 46 are urban and which are rural?
    Mr. Sheaffer. By all means.
    [The information follows:]


[Pages 568 - 569--The official Committee record contains additional material here.]



    Mr. Barry. Congressman, if I could also add one thing. 
Another reason why the emphasis on the smaller parks, I think, 
is warranted and makes sense is that, with a lot of the larger 
parks, the more magnificent ones out west, they have had 
additional operational revenues made available to them through 
the fee program. To the extent that additional visitor 
facilities or services are being provided now due to an 
increase in visitor fees, that helps supplement the operational 
budgets they might otherwise have. A lot of the smaller parks 
do not have that same ability to supplement their operations 
budget through visitor fees.
    So I think it was a warranted move to try to emphasize 
enhanced funding at the smaller park level.
    Mr. Nethercutt. Do you have a sense of what the number or 
the breakdown is on rural versus urban?
    Mr. Galvin. Just looking at the list, there are 46 parks. 
My guess here is that 35 of them are rural.

                   repair and rehabilitation program

    Mr. Nethercutt. What about the $37.4 million for repair and 
rehabilitation projects going to 36 parks. Is the same process 
that you go through relative to basic operations and funding 
increases, and is it rural versus urban? Maybe you can provide 
that for the record if you cannot answer it now.
    Mr. Stanton. We will provide a definitive listing of the 
allocation of those by region and by park. But there is no 
design at the front end of the process to make a distinctionas 
to where that particular park is located. It is the merits of the 
project that is being proposed.
    [The information follows:]

                       Repair and Rehabilitation

    The selection process used by the NPS in developing the FY 
1999 repair and rehabilitation listing consisted of budget 
calls to the parks through the Regional Offices for projects 
that met criteria as described and defined in the maintenance 
section of the current year budget justifications. 
Additionally, for purposes of this listing, the National Park 
Service as with all DOI bureaus were directed to focus on 
addressing critical health and safety deficiencies. These 
projects were evaluated and prioritized by Regional staff and 
submitted to the Washington Office for consolidation. The 
location of the park unit was not a consideration in the 
determination of the submitted project listing. The listing 
below represents the repair and rehabilitation priorities for 
the NPS in FY 1999.


[Pages 571 - 579--The official Committee record contains additional material here.]



                    save america's treasures program

    Mr. Nethercutt. Let me ask you about the program called 
Save America's Treasures. It is a $50 million request, $25 
million is dedicated to States and Indian tribes for 
preservation activities. You also have the Historic 
Preservation Fund, which is a separate program, for which you 
have requested about $800,000.
    What is the difference between these two tribal 
preservation grant programs?
    Mr. Stanton. The Save America's Treasures is authorized, or 
should I say, we are proposing that that amount be authorized 
under the Historic Preservation Fund, and be earmarked 
specifically to carry out the preservation of cultural 
resources that may be in public ownership at the Federal level 
or in public ownership at the State level or by tribal 
governments.
    It would represent a first time funding category, if you 
will, to emphasize the preservation of our Nation's heritage 
welcoming in the millennium. That is the distinction here.
    Mr. Nethercutt. I do not really quarrel with the mission, I 
am just wondering, with the National Endowment for the 
Humanities, the National Archives and other government 
agencies, I am wondering, given your other needs, why you want 
to initiate a new program that is going to spend a substantial 
amount of money in light of your other ongoing needs.
    Mr. Stanton. I respect that. But it is our view that the 
amount of money that will be made available to other Federal 
agencies, to the States and to tribal governments, that this 
money will become somewhat of a catalyst or become a way of 
interesting others to contribute toward the preservation of 
resources throughout the country.
    It is not intended that the $50 million will meet the total 
preservation needs of our heritage resources. But the 
availability of some of this money would be on a matching 
basis, and again, it would be a way of developing a national 
interest in doing something nationwide for the millennium.
    Mr. Nethercutt. Would it be possible to accomplish the same 
or a similar result by using existing capabilities within the 
Government, whether it is the humanities or the National 
Archives or other?
    Mr. Stanton. I feel awkward in responding to that. Suffice 
to say, however, that with respect to the percentage of the $50 
million that will be allocated to other Federal agencies, there 
will be established an inter-governmental council that will 
make the decision as to how much of that funding the Park 
Service, as an example, will receive, or the Smithsonian, or 
the Department of Defense, or what have you, as a part of their 
preservation of resources entrusted to their care.
    Whether or not we could use some existing organizational 
entity to do that, absent an interagency council, that still, I 
think, could be considered.

                         overflight management

    Mr. Nethercutt. One final question. I noticed your comments 
about the overflight issue. Is there dissatisfaction with the 
current policy relative to overflights? Are you inclined as an 
agency to make a change? Did you feel it necessary to undertake 
this examination? I assume that you were not satisfied with 
existing policy. Or is that an improper assumption?
    Mr. Stanton. I will ask Jackie to respond on my behalf.
    Mr. Nethercutt. You have requested to spend $400,000 for 
the program to try to develop a national strategy.
    Mr. Stanton. National standard. Regulation, if you will, 
yes.
    Mr. Nethercutt. Do we assume that the existing policy is 
not a good one?
    Ms. Lowey. I think that is a fair assumption. Look at the 
Grand Canyon, which is an example of the ``existing policy'' 
and is a very complicated rulemaking. In response to the 
President's directive, we asked a working group to help us 
figure out how we can avoid situations down the road where you 
have such a tenuous situation, where we have Congress going in 
and saying, restore natural quiet.
    What we are trying to do is develop a process to avoid 
problems in the future.
    Mr. Nethercutt. The President's direction, you say?
    Ms. Lowey. Yes.
    Mr. Nethercutt. What was the direction you were given?
    Ms. Lowey. The President issued an executive order 
directing the Federal Department of Transportation and the 
Department of the Interior to review processes, to appoint a 
task force to come up with recommendations on a new process. 
And a key part of that new process is to look at how we can 
avoid problems down the road.
    Mr. Nethercutt. When will that effort be finished?
    Ms. Lowey. We have already received the working group 
recommendations and are working on a draft notice of proposed 
rule-making. It has been a public process involving both 
industry and conservation groups as well as both agencies. We 
are using a regulatory negotiation involving all parties, and 
are looking to have an NPRM this year.
    Mr. Nethercutt. What is their recommendation?
    Ms. Lowey. The recommendation is a process-oriented rule 
that I will summarize for you briefly and can submit for the 
record. It would have the operators apply to the FAA for 
operations specifications when they sought to conduct a tour 
over the park. Then the FAA and the National Park Service would 
work together in a public process to come up with what the 
recommendations call an air tour management plan for parks.
    [The information follows:]


[Pages 582 - 597--The official Committee record contains additional material here.]



    Mr. Nethercutt. And say again when you think that will be 
finished?
    Ms. Lowey. We anticipate a notice of proposed rulemaking 
this year.
    Mr. Nethercutt. Before the end of the year?
    Ms. Lowey. Yes.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Yates.
    Mr. Yates. Mr. Galvin, I could not help thinking as you 
answered a question of Mr. Dicks about Lewis and Clark, how 
close are you to retirement? [Laughter.]
    Mr. Galvin. Well, I am eligible.
    Mr. Yates. The reason I ask that question is, I could not 
help thinking, with all the experience you have had in the 
construction of the historic sites in the Park Service, what an 
excellent history professor you would make at some university.
    Mr. Galvin. I appreciate that endorsement, Mr. Chairman, 
and I will be certain to put it on my resume.
    Mr. Yates. It is an endorsement. You have really been at 
the heart of the preservation of Independence Hall and Old 
South Church and all the battlefields and now Lewis and Clark. 
You have been in this for so many years. I do hope you will 
stay with the Park Service, because I think there are very few 
people in the Park Service who know as much about the Park 
Service as you.
    Mr. Galvin. Well, Mr. Chairman, I certainly appreciate your 
high regard. These days, being associated with the construction 
program is not without its liabilities. [Laughter.]
    However, you are absolutely correct that the opportunity to 
be associated with everything from the removal of facilities at 
Giant Forest at Sequoia to Independence Hall to the recent 
construction of the FDR Memorial really is a privilege.
    Mr. Yates. I would think so.

       elwha river dams and restoration at olympic national park

    As I listened to Mr. Dicks' further interrogation of the 
destruction of Elwha Dam, is this the project which had such a 
horrendous cost?
    How much money did it cost originally?
    Mr. Stanton. I do not know the original construction costs 
for Elwha and Glines Dams, but the proposed acquisition is 
included in Title V; it would be $86 million. But that is plus 
the----
    Mr. Yates. I saw that figure.
    Mr. Stanton. It is $113 million.
    Mr. Yates. For one dam?
    Mr. Stanton. No, for both.
    Mr. Yates. If it cost $86 million for one----
    Mr. Stanton. No, for both, I think.
    Mr. Sheaffer. It is $86 million to buy two dams and remove 
one.
    Mr. Yates. It is $86 million to acquire Elwha and begin 
removal.
    Mr. Stanton. No, to acquire both dams.
    Mr. Yates. Where did I get the idea that it would cost 
hundreds of millions of dollars? Is that another project?
    Mr. Sheaffer. No, I think there were early estimates that 
were considerably above this $113 million estimate, Mr. Yates. 
It has been discussed and refined a number of times. I believe 
it is quite accurate at this point.
    Mr. Yates. And what happens to the lake that results? Are 
there any Indian objections to that?
    Mr. Galvin. The Native American tribes are downstream. They 
have been involved. This has really been multi-agency, 
including Native American interests involvement. Mr. Dicks 
already talked about the Port Angeles water system.
    The objective of all this is to restore what was 
historically one of the richest salmon fisheries on the west 
coast, as I recall, something like eight species of salmon 
spawned in this river.
    Mr. Yates. What is the river?
    Mr. Galvin. The Elwha River. And the Elwha Dam and the 
Glines Canyon Dam are both on the Elwha river. The Glines 
Canyon Dam is the one in the park. That is the one that the $86 
million will not remove.
    Mr. Barry. Mr. Yates, if I could also add something. The 
most significant portion of the cost will be associated with 
the restoration of the river system once the dams have been 
acquired. The cost of the dams themselves, comparatively 
speaking, is fairly small. We then have, as the case in 
Florida----
    Mr. Yates. Very small, $160 million?
    Mr. Barry. No, no, that is for both acquisition and the 
restoration at least of the Elwha portion of it. I am just 
saying that if you parcel out the costs for the acquisition of 
the two dams by themselves and do nothing more, that 
proportionate amount is smaller. Where you have the extra costs 
is when you then go back in and restore the ecosystem that has 
been affected because of the dams. That is where there are 
significant additional costs.
    This is the case down in Florida, where we are finding that 
it is always more expensive to go back later to try to restore 
ecological systems that have been damaged.
    Mr. Yates. Who is going to pay the cost of the restoration 
of the ecosystem?
    Mr. Sheaffer. The cost of the restoration is included in 
the $86 million. Of the $86 million, $18 million is for the 
acquisition of the dams, and the balance is for the removal of 
one and the restoration of one.
    Mr. Yates. Why is the Park Service engaged in restoring the 
ecosystem? Should not that be Corps of Engineers or one of the 
other agencies do the restoration?
    Mr. Skeen. The Engineers probably built the dams.
    Mr. Yates. Well, they are going to remove the dam, but once 
you remove the dam and you start restoring the ecosystem, are 
they going to remove the dam?
    Mr. Skeen. I understand that they are going to eliminate 
one dam and make this----
    Mr. Yates. But why is the Park Service getting the money 
for it, then, if they are going to remove the dam?
    Mr. Galvin. This is partially a result of authorizing 
legislation passed by the Congress and also the fact that the 
river rises and runs through Olympic National Park.
    Mr. Yates. That does not answer my question. They could 
still remove the dam, if that is their function. The Park 
Service is not going to remove the dam.
    Mr. Stanton. Well, the money will be appropriated to us.
    Mr. Yates. You are going to turn it over to the Corps of 
Engineers for removal?
    Mr. Stanton. We can arrange it with the Corps of Engineers 
or other private organization, or Reclamation within the 
Interior Department.
    Mr. Yates. Are they going to ask for the money, too?
    Mr. Stanton. Not in their budget, no.
    Mr. Galvin. We have been using Reclamation for the 
engineering studies on the dams, for the removal of the dams.
    Mr. Stanton. Right.
    Mr. Yates. Then you are going to be the banker for the 
restoration of the environment, are you not?
    Mr. Stanton. That is correct.
    Mr. Yates. Well, what is the view of the Indian people out 
there on this?
    Mr. Galvin. They are anxious for the restoration of the 
fisheries. That is a major objective that they support 
strongly.

                             historic sites

    Mr. Yates. Okay. Mr. Galvin, what is the condition of Park 
Service historic sites? You are in the process of finishing 
Independence Hall. Old South Church has just been finished. The 
Revolutionary War sites are going to be in good shape, are they 
not?
    Mr. Galvin. Generally speaking we have made good progress 
there. Then of course for the bicentennial some years ago, we 
also had money going into the Revolutionary War sites.

                            civil war sites

    Mr. Yates. What about the Civil War sites?
    Mr. Galvin. Civil War sites are influenced by a number of 
things that do not necessarily go to the condition of the 
infrastructure in those parks, particularly the Civil War sites 
here in the northeast; they are being influenced strongly by 
development on their boundaries or around them.
    Mr. Yates. Like Gettysburg?
    Mr. Galvin. Gettysburg, Fredericksburg, Spotsylvania, 
Antietam, Manassas, all are in areas that are rapidly growing, 
which results in a couple of things. One is, it results in 
development on their boundaries, and in other instances, it 
results in, because of congestion, requests to widen roads 
within the battlefield boundaries. So they really are 
influenced more by things going on around them than by what is 
going on in them. And that is a problem.

                   vietnam memorial museum in chicago

    Mr. Yates. It is my understanding that you are cooperating 
with the restoration of the Vietnam Memorial Museum in Chicago.
    Mr. Galvin. I believe we were appropriated money and are 
providing assistance on that memorial, yes. Last year, in 1998, 
we got money.
    Mr. Yates. Thanks, Mr. Chairman.
    Mr. Regula. Mr. Skeen.

   transportation systems at grand canyon and yosemite national parks

    Mr. Skeen. Mr. Director, what is the current status of the 
Interagency Memorandum of Understanding between the National 
Park Service and the Department of Transportation regarding the 
transportation systems for Grand Canyon and Yosemite National 
Park?
    Mr. Stanton. We are very pleased to have the assistance of 
the Department of Transportation pursuant to that agreement. 
With respect to Yosemite, we have developed various 
alternatives and have presented them to the public in various 
workshops in and around Yosemite, as far as San Francisco and 
Los Angeles. And we are looking at alternate ways of 
accommodating visitors in the park minus their personal 
vehicles.
    Similarly, we are looking at alternate transportation in 
Grand Canyon, particularly to accommodate visitors to the south 
rim of Grand Canyon National Park. That, too, will provide for 
the movement of visitors in a bus or light rail, with their 
personal vehicle being parked at some designated area inside or 
outside the park.
    That is the alternate transportation system. We are not 
discouraging increased visitation to these areas, but we want 
to reduce private vehicle congestion in some of the more 
critical area.
    Mr. Skeen. Will we be assured that these two parks will not 
purchase these vehicles until the report has been presented to 
the committee and an agreed-upon plan has been developed?
    Mr. Stanton. Yes.
    Mr. Skeen. Could we get that?
    Mr. Stanton. Yes.
    Mr. Skeen. I would appreciate that.
    Mr. Regula. I think you have an MOU on looking into 
alternate fuel vehicles for these parks. What has been done 
about that, if anything?
    Mr. Stanton. With respect to?
    Mr. Regula. Alternate fuel vehicles, like natural gas 
buses.
    Mr. Stanton. That is definitely one of the major objectives 
here, is to not only provide for the convenience of the public, 
but use a vehicle or vehicles that are most conservation 
efficient, such as you pointed out earlier, alternate 
transportation----
    Mr. Regula. You have not reached any conclusions?
    Mr. Stanton. No, we have not.
    Mr. Galvin. One distinction that needs to be made is that 
in both parks, Grand Canyon and Yosemite, there are already in-
park transportation systems, as opposed to the systems we are 
looking at through planning that bring people in from outside 
the park. And we have purchased vehicles for those in-park 
systems at Grand Canyon, and in fact, this budget includes a 
request to buy some at Zion.
    And for instance, in 1992, we bought three electricpowered 
buses at Grand Canyon, liquified natural gas vehicles we bought in 
1996, five compressed natural gas transit buses were bought in 1997, 
and seven natural gas buses in 1998. Those are all for the in-park 
transportation system that already exists.
    Mr. Regula. To take people from a parking lot in the park?
    Mr. Stanton. That is correct.
    Mr. Galvin. Basically it runs around the south rim. The 
west rim drive is closed in the summer time, so the only way 
people can get out there is to take the transportation system.
    Mr. Stanton. The plans that are being developed for Grand 
Canyon and Yosemite would be on a much larger scale than the 
intra-park system that Mr. Galvin has described.
    Mr. Skeen. I think the question was on those two specific 
instances. As I understand it, you may purchase some 
transportation, but you have already pretty much got your 
transportation plan in order?
    Mr. Galvin. In both parks, there is a sort of regional 
system that has evolved in Yosemite. We are still working with 
the surrounding counties on that. We have made no final 
decisions on location of transit centers at Yosemite.
    At Grand Canyon, we have an approved plan. But we have not 
yet put any systems in place to park visitors outside the park 
in the nearby forest and bring them into the park. That has not 
been implemented, but the plans have been approved. So we have 
bought no vehicles.
    Our hope is that we will get a private concessionaire to 
run that system.
    Ms. Lowey. Just pointing back to the question with respect 
to DOT and the memorandum of understanding, we have been 
working with them, we have had a project team from the Federal 
Transit Administration that has come out and done consultation 
looking at some of the operations and specifications to help us 
in the designing phase of some of what we're doing.
    So the MOU has helped the cooperative effort there.
    Mr. Skeen. It is of great interest to the committee, 
because of some of the problems with the types of vehicles and 
so forth.
    One last question. Norm Dicks mentioned something about 
goats. As an old goater, I'd like to know, are they hair goats 
or meat goats?
    Mr. Stanton. I could not comment, sir. [Laughter.]
    Mr. Skeen. When I came up here, I was assigned to a 
subcommittee. They said, we understand you are in the sheep 
business. The Chairman said, would you like to handle the wool 
part of this thing. I said, I would not mind taking care of 
that. I will try to.
    It is gone now, so I took very good care of it.
    Finally, he said, tell me, what in the world is mohair. I 
thought he was kidding. I said, it comes from a little animal 
called a mo, and you shave it in the full moon, and gather all 
of those little particles up. And it makes some of the most 
exquisite clothing you could ever see. [Laughter.]
    I looked over and his mouth was way down, I said, I am only 
kidding.
    But they used to use goats a lot, in the Forest Service and 
the Park Service, to take care of some of the briars. They did 
a pretty good job. But some of the environmentalists decided 
they should not have any goats.
    You don't need to answer this question. But if you need a 
goat herder, holler.
    Mr. Stanton. Thank you, Mr. Skeen.

           cumberland island national seashore land exchange

    Mr. Regula. I have several questions. The committee has 
urged the National Park Service to review an offer made by a 
land owner on Cumberland Island National Seashore regarding a 
possible land exchange which could save the Federal Government 
nearly $19 million. What is the status of these negotiations, 
and when will the Park Service be prepared to report its 
recommendation to the committee?
    Mr. Stanton. There are ongoing discussions with the land 
owner. There are some concerns that we have as to whether or 
not the exchange would be in the interest of the management of 
Cumberland Island National Seashore. And I have not gotten a 
final recommendation from our regional managers, who also have 
involved the land acquisition staff from my immediate office.
    I would anticipate perhaps within another two or three 
months we will have some idea in terms of whether or not the 
exchange would be in the interest of Cumberland Island National 
Seashore.
    Mr. Regula. I might tell you, at the request of Mr. 
Kingston, I am going to go down and take a look at it in the 
next couple of weeks.
    Mr. Stanton. Very good.

                    save america's treasures program

    Mr. Regula. Mr. Nethercutt touched on the $50 million 
millennium fund to save the Nation's treasures. When I look at 
the budget justification, it's rather vague, other than it is 
supposedly in the Park Service. But who is going to define the 
treasures? Secondly, is there any anticipation of leveraging 
this money with substantial private funding, as we did with the 
Statute of Liberty?
    It seems to me there is a lot of detail that needs to be 
worked out, if we're going to get into this.
    Mr. Stanton. The detail with respect to the criteria that 
will govern the selection has not been established. That will 
be one of the principal responsibilities of this interagency 
committee that will be established by the Secretary of the 
Interior.
    But it would be anticipated that funds that will be 
appropriated to the States, to tribal governments, as well as 
to other agencies, would be used to invite partners to carry 
out major projects. But clearly, as you point out, Mr. 
Chairman, the final ground rules have not been established at 
this point in time.
    Mr. Regula. Would the States have any limitation, or would 
it just be a pro rata distribution based on their population?
    Mr. Stanton. Yes, the distribution to the States would be 
in a similar manner of apportionment as with the normal or the 
regular Historic Preservation Fund.
    Mr. Regula. Assuming that we may have some real constraints 
on our allocation, which would you feel would be more important 
if we have to cut back, States or the Federal?
    Mr. Stanton. Can I get back to you on that, Mr. Chairman? 
[Laughter.]
    Mr. Regula. Okay. Maybe we can help you make that decision.
    Mr. Stanton. Yes, sir.

                  recreation fee demonstration program

    Mr. Regula. On the fee demonstration program, are we doing 
things with those feesthat might not otherwise get done? I 
envision this enhancing the visitors' experience, not being a 
substitute for what we should be doing in our budget. Is that 
happening?
    Mr. Stanton. Yes. The condition of park facilities, as an 
example, I think, has a direct relationship with the visitors' 
experience. It could be the exhibits in the visitors center, it 
could be the conditions of the trails and facilities. There is 
a direct relationship between improved park facilities, their 
accessibility, to the visitor experience.
    Mr. Regula. So it does enhance their visit?
    Mr. Stanton. It does indeed.
    Mr. Regula. Do most of them put up some type of signage to 
indicate to the visitors that their fees are staying in the 
park to be used for that purpose?
    Mr. Stanton. Yes. That is communicated verbally at the 
entrance station by park rangers. Because on many occasions, a 
visitor will have some question about why these fees, what are 
they being used for. And all our employees are trained to 
articulate the intent of the fee program as authorized by your 
committee and Congress in general. There are some printed 
brochures that are available that speak about the benefit of 
the fee program.
    And the public recognizes it is a three year program, and 
they have their opportunity to make comments about the merits 
of the program.
    Mr. Regula. How are you distributing the 20 percent that is 
allocated to the parks such as Golden Gate, that do not, or 
cannot have a fee program as a practical matter, because of too 
many entrances and so on? How do you decide who gets what out 
of the 20 percent?
    Mr. Stanton. It is through a collaborative, cooperative 
effort, in that there are broad guidelines established at the 
national level. Then the individual parks, through their 
regional directors, submit their candidate projects to the 
national office. The decision is not made solely by those of us 
who occupy seats in the national office. But we invite 
representatives from the seven regions to sit at the table and 
determine the merits of any project in terms of its benefit to 
the park system as a whole.
    Mr. Regula. Well, I would hope this would be helpful to 
these parks.
    Mr. Stanton. It is.
    Mr. Regula. The urban parks are pretty heavily used. 
They're very popular.
    Mr. Stanton. That is correct.

       everglades national park interpretive signage replacement

    Mr. Barry. Mr. Chairman, if I could just mention one thing, 
since you and I were both recently down in Florida at the 
Everglades, one of the things that Dick Ring mentioned to me 
that Everglades was going to do with some of the visitor fee 
money was to replace much if not most of their interpretive 
signage. The interpretive exhibits that are out in the 
Everglades themselves, over time, have been damaged by 
sunlight, which has whitened out a large number of signs.
    They are planning on using the fee money to help replace 
the signage with a new technology, sort of a baked-on enamel 
approach, which will make them impervious to damage from 
sunlight. It also gives them an opportunity for them to go 
through and update and upgrade all of the interpretive exhibits 
and interpretive signs that will, I think, provide a richer 
experience to the people who visit the Everglades.
    That would be just one example where the park is utilizing 
its money in a way that will have a direct enhancement of the 
visitors' enjoyment of the park.

                  recreation fee demonstration program

    Mr. Galvin. Mr. Chairman, I might mention, the requirements 
of the Act require us to go back and survey visitors with 
respect to the fee program. That has been done in two phases. 
Last summer, we used a university to go out and do focus groups 
and interview park visitors. Eighty percent of the park 
visitors supported the fee increases, as long as those fees 
were used in the park system and stayed in the park.
    So we have encountered, in the 100 project parks, virtually 
no objection to the increase in fees.

                          vandalism reduction

    Mr. Regula. I was interested at Muir Woods when they said 
their vandalism has been diminished to some extent. Is that 
generally the experience throughout the system?
    Mr. Stanton. Yes.
    Mr. Regula. People become stakeholders when they make 
contributions to the park.
    Mr. Stanton. Yes. I think there is a correlation between 
one's investment or contributions and how they look upon the 
value of that which they are contributing towards. We have not 
analyzed it in terms of any empirical data. But we have 
recognized that people respect the parks when they pay a fee to 
enter.
    Mr. Regula. No question. If you are paying something, 
somehow it takes on greater value to you.

                                presidio

    We have a unique, rather innovative arrangement at the 
Presidio with the Trust. Have you had any problems in making 
this new situation work? Is it working well?
    Mr. Stanton. It is a little early for me to comment about 
the benefits or the status of the various management 
accomplishments on the part of the Trust, in that the Trust, as 
it is presently composed, has been only in the business for a 
short period of time. The Trust has recently appointed a new 
executive director who is working closely with the National 
Park Service.
    My sense is that the Trust and its new executive director 
have identified some priorities and some goals which I think 
will fulfill what was envisioned when Congress authorized the 
Trust. Obviously, the National Park Service will continue to be 
a partner with respect to our obligation of managing certain 
lands and certain facilities at the Presidio. And certainly, we 
have a cooperative relationship with the Trust with respect to 
law enforcement services and what have you.
    But I cannot comment just in terms of what has been 
accomplished with respect to preservation of the buildings, 
getting occupants into the buildings, getting revenue returning 
to the Government for the preservation of the building, what 
have you. Mr. Galvin and Mr. Sheaffer have been associated with 
it much longer than I have, Mr. Chairman. If you do not mind, 
maybe they have comments.
    Mr. Regula. Go ahead.
    Mr. Galvin. Mr. Chairman, we are working through a whole 
series, obviously, this is the transition year the Trust takes 
over Area B in July. I know you are going to be out there later 
this year. Probably the most recent development has been 
discussions about who will do the ongoing maintenance in Area B 
when the Trust gets up and running. We have a letter from the 
Trust that says, at the end of fiscal year 1999, they will take 
over the maintenance function.
    Mr. Regula. This would be within the housing area?
    Mr. Galvin. Yes, within Area B, the 80 percent of 
thePresidio that they control. Obviously they are going to take over 
the housing and other issues. We are working through those issues one 
by one.
    The maintenance function issue is one that we will have to 
watch very closely. Because currently, the maintenance force is 
mostly Bay Area based. Many of them came from other military 
bases within the Bay Area during the shutdown of those. And the 
Presidio legislation, as you may recall, requires us to employ 
them if they lose their jobs at the Presidio.
    So it is a little bit difficult to predict exactly what the 
outcome of that will be. Each of these employees will probably 
be offered jobs by the Trust. Whether those jobs have the same 
kind of benefit package is unclear at this point.
    If they opt not to take a job with the Trust, then the 
National Park Service will be required to find them employment.
    Mr. Regula. Have you resolved the hazardous waste sites 
with the Army?
    Mr. Galvin. We have recently concluded a new memorandum, a 
three-way memorandum between the Army, the Trust and the 
National Park Service that sets up a process for further work 
with the Army on the cleanup of the Presidio. I would say, and 
I think you know, Mr. Chairman, that the Army has done an 
enormous amount of work out there at Crissy Field, which is 
outside of Area B. We are very satisfied with the cleanup 
efforts that they've done and with the cleanup efforts that 
remain.
    There are questions in areas like lead paint removal and 
asbestos removal that need to be worked out principally in Area 
B with the Trust. We have signed a new memorandum with the Army 
that sets up a process to solve this.
    Mr. Regula. I do not know what to do with those barracks, 
for lack of a better term; there was some talk about housing.
    Mr. Galvin. Wherry housing. It looks like the Trust is 
interested in most of the Wherry housing as income producers. 
They are categorizing it in three different categories. Some of 
the units would remain there for a long time, some would be 
medium term and some would come out pretty quickly.
    But the Trust is very definitely----
    Mr. Regula. It is part of Part B, then?
    Mr. Galvin. Yes, that is right. In fact, one of the things 
the Trust is looking at as an income source on the Presidio is 
the housing, and Wherry is part of that mix.
    Mr. Regula. I note that they just got a $10 million gift, 
for rehabilitation along the waterfront.
    Mr. Galvin. That is Crissy Field, right, from the Haas 
family. On that particular development, which is in accordance 
with the general management plan, well over 50 percent of the 
fund raising is complete. We expect that we will do all the 
work with donated funds.
    Mr. Regula. It was an innovative solution to a difficult 
problem.
    Fort Baker, do you get that one?
    Mr. Galvin. Yes, we do.
    Mr. Regula. Do you have any innovative ideas?
    Mr. Galvin. Well, we have another group that's interested 
in developing Fort Baker. And they have done some feasibility 
studies that indicate that Fort Baker, which already is 
partially occupied by a non-profit museum, could work as a 
conference center. They were in, in fact, last week, and we 
discussed it with them. There are some questions about 
upgrading the infrastructure there.
    Mr. Regula. I was there, and it looks like a big ticket 
item to me.
    Mr. Galvin. That is a big ticket item. The development of 
the conference center is a bigger ticket item. But we have not 
yet figured out how to make the infrastructure work. It does 
not look like the conference center would pay for itself if 
they have to bear the infrastructure costs.
    Mr. Stanton. The key for the conference center idea would 
be the location. It is a magnificent location.
    Mr. Regula. Is the Coast Guard still at the facility?
    Mr. Stanton. Yes, but I think the plan is for them to phase 
out over a period of time.
    Mr. Galvin. But we're looking to try to find an innovative 
solution there, so that the buildings are occupied, used, and 
pay for themselves.

                        construction management

    Mr. Regula. You recall we had a hearing about management of 
construction projects, and of course you use the Denver Service 
Center. The Forest Service has a different program, as does the 
Fish and Wildlife Service. Your approach has been much more a 
control system from Denver.
    When was the system of financing Denver created as opposed 
to baseline funding? It seems to me that by rewarding a 
facility by saying, you get a percentage of the cost, does not 
enhance a frugal attitude. What does that system put in place? 
Denver does not appear here anywhere in your budget request. It 
is not baseline.
    Mr. Stanton. It is not baseline. The concept of what 
percentage of a project estimate would be earmarked for design 
or for construction or construction supervision or for 
contingencies, I do not know the origin of that distribution.
    But as far as I know, in the history of the National Park 
Service, a centralized design and engineering arm existed, and 
at one time we had an eastern and a western center. These 
centers I think, were project funded, as opposed to being base 
funded.
    Mr. Galvin. The current system has been in place at least 
since 1971. I have a feeling its historic origins go as far 
back as the Civilian Conservation Corps, when the Park Service 
had an enormous design and construction capability, because 
they were working in State parks, too.
    Mr. Stanton. Mr. Chairman, again, we await the 
recommendations of the National Association of Public 
Administrators, and it is my understanding they are looking at 
how that kind of funding can be restructured.
    Mr. Regula. That is true. It has the characteristics of the 
cost plus system that the military used. And that approach does 
not invite an attempt to be really efficient, because you are 
rewarded for high costs.
    And I guess you're not going to try and make any 
recommendations until you have heard from the NAPA?
    Mr. Stanton. That is correct, Mr. Chairman.
    Mr. Regula. Are you continuing your moratorium on new 
construction, which resulted a little bit from the Delaware 
Water Gap situation?

                         housing for employees

    Mr. Stanton. The only moratorium that I have established is 
on requesting appropriation funding for new housing until we 
have completed our comprehensive evaluation. That is moving 
quite well, and we will have a comprehensive report for you, 
Mr. Chairman, and the committee, in the next year.So the 
moratorium is on that.

                        construction management

    But we are continuing to execute, if you will, the line 
construction program as appropriated by your committee. But 
what we are doing is making sure that the scope of the project 
is sound and that we go through a value analysis review, so 
that when the project is awarded, it represents the most 
efficient project that we think we can develop.
    Then once the contract is underway, we want to make sure we 
are employing the most efficient measures to supervise the 
project and make adjustments where appropriate to again realize 
some of the most efficient ways that project can be 
accomplished.
    Mr. Regula. I have been told there is a second facility in 
Delaware that was scheduled but it is on hold. Is that correct?
    Mr. Stanton. There has been a project brought to my 
attention which was designed some years back that has not been 
awarded, because it has not met the test, if you will, through 
our value analysis. And so the system is working. Had we not 
put it in place, I think, absent stringent review, as we have 
committed ourselves to, we probably could have gone through the 
actual contracting process. But you are correct.

                    chalets at glacier national park

    Mr. Regula. How about the chalets at Montana? Are they 
going forward? What is the status of those?
    Mr. Stanton. There were two chalets in Montana. We are 
nearing completion of one. And the other chalet has been held 
in abeyance pending some donated funds through partnership 
involvement, which was the original agreement.
    Mr. Regula. I think the original agreement was that either, 
a State or local entity was going to come up with half the 
money. So far it has been pretty thin, maybe $30,000 or so. 
Certainly they have not kept their half of the bargain.
    Mr. Stanton. That is correct.
    Mr. Regula. And I suppose on a per person usage, the 
chalets are pretty expensive, really.
    Mr. Stanton. If you were to look at it on that basis, that 
would be correct. But they are extremely significant. They are 
historic facilities within Glacier National Park. But also, 
their location, the remoteness, they do not get heavy traffic. 
But we do have a mandate to preserve them.
    Mr. Regula. A mandate from whom?
    Mr. Stanton. With respect to the historic structures.
    Mr. Regula. Are these designated as historic structures?
    Mr. Stanton. Yes, they are. But there was a question about 
their use for bodily functions, if you will, with respect to 
making sure that the treatment met today's health standards. 
That was a major consideration.
    Mr. Regula. I am sure they are quite nice to use. But in 
the great scheme of things, I think you have to think about the 
millions of people that are not going to use them. There is a 
question whether that type of thing is cost effective, in terms 
of the millions of potential visitors to the system.
    Mr. Stanton. Yes, I appreciate that.
    Mr. Regula. I assume your criteria prospectively will take 
that into account.

        manager responsibilities, development and qualifications

    Are you, taking additional steps in making superintendents 
more aware of management responsibilities? The fee money is, 
one mention of that, and the long term restraint on what will 
be available on appropriations.
    Mr. Stanton. Yes, we are doing that through a number of 
ways. One is communicating my objectives and conveying the 
basis on which I hold superintendents and regional directors 
accountable for their performance. Then as a part of the 
personnel management program of the Federal Government, in 
particular the Park Service, we reinforce that to their 
performance standards.
    Then we ensure that our managers have the necessary 
training and skills commensurate with the responsibility that 
they have in managing large sums of money, managing complex 
projects. So we realize at all levels of the organization, we 
need to have the checks and balances to assure we are 
accountable for the use of resources entrusted to our care.
    Mr. Regula. How do you get your personnel? Do you have 
people that get degrees in park management? Do universities 
have such a curriculum? How do you get people that eventually 
are going to become superintendents?
    Mr. Stanton. There is no positive educational requirement, 
per se, that you must have had this kind of training, 
necessarily, to be a superintendent. However, by and large, 
most superintendents either have spent a number of years in 
park management, conservation, recreation, historic 
preservation types of work or in training programs. Many 
proceed on the career ladder to become a superintendent.
    We do have a number of superintendents who are civil 
engineers, who are landscape architects.
    Mr. Regula. No university is offering degrees in park 
management, is that correct?
    Mr. Stanton. There are a number of colleges and 
universities that offer undergraduate as well as advanced 
degrees in park and recreation administration. We do have a 
number of superintendents who have those degrees. But that is 
not a specific requirement.
    What we attempt to do, however, is that once you become a 
superintendent, there are still certain competency areas that 
we expect the superintendent to have. In order to sort of stop 
gap that, we have a required course for new superintendents. 
Plus, they have a competency requirement that they need to be 
conversant in resource preservation, in managing and designing 
projects, community relations, legislative affairs, budget and 
what have you.
    Mr. Regula. I guess historically, there has not been a 
defined parameter as to what qualifies you, like to be a lawyer 
who has to pass the bar exam, or the teachers now have to meet 
certain standards. You have not quite had that approach on your 
management people historically, have you?
    Mr. Stanton. Not truly defined in that sense. But there are 
certain levels of knowledge, skills and abilities that a 
superintendent should have. In other words, the superintendents 
should be capable of managing and supervising and developing 
programs and leading employees. To the extent you have a degree 
in park management, I think it is better for us. But we do have 
those who have degrees in business administration, and as I 
said before, in the professional disciplines.
    So there is a mixture of backgrounds and academic training 
of our superintendents. Each of them should have, at some point 
in time, early on in their superintendency, competencies within 
a certain core area.
    Mr. Regula. Do you have any program of continuing 
education?
    Mr. Stanton. Yes. We encourage that on the part of all our 
managers. Under the Government Training Act, there are certain 
courses that, if they are job related and they assist an 
employee in performing a job better, then the Government can 
reimburse for those classes.
    Then of course, many employees, for their own career 
development, their own career growth, invest in their own 
academic development.

                     budget resolution constraints

    Mr. Regula. Well, thank you all very much. Let me note that 
we may get back to you, depending on our 302(b) allocation. We 
may get back to you and say, we cannot do all this. We want you 
to participate in scaling back priorities if the need exists, 
rather than for us just to arbitrarily make cuts in what you 
are proposing in your budget.
    We want to make the dollars available, so they are used as 
effectively as possible. So thank you very much.
    Mr. Stanton. Thank you, Mr. Chairman.
    Mr. Regula. The committee is adjourned and will reconvene 
at 1:30.
    [The following questions and answers were submitted for the 
Record:]


[Pages 612 - 855--The official Committee record contains additional material here.]










                           W I T N E S S E S

                              ----------                              
                                                                   Page
Babbitt, Hon. Bruce..............................................     1
Barry, D. J....................................................351, 533
Benna, Larry.....................................................   235
Ceccucci, G. V...................................................   351
Clark, J. R......................................................   351
Fry, Tom.........................................................   235
Galvin, D. P.....................................................   533
Hatfield, Nina...................................................   235
Lowey, J. M......................................................   533
Shea, Pat........................................................   235
Sheaffer, C. B...................................................   533
Stanton, R. G....................................................   533













                               I N D E X

                              ----------                              

                       Secretary of the Interior

                                                                   Page
Additional Committee Questions Submitted for the Record..........    65
    From Congressman Nethercutt..................................   162
    From Congressman Taylor......................................   165
    From Congressman Yates.......................................   169
    From Congressman Skeen.......................................   186
Administration Request vs. Budget Allocation.....................    65
American Heritage Rivers Initiative..............................   165
Better Management and Staffing Needs.............................    49
Biological Survey in USGS........................................    63
Bureau of Indian Affairs.........................................   179
Bureau of Indian Affairs Law Enforcement.........................    90
Bureau of Land Management........................................   177
California Bay-Delta Restoration.................................     5
Charging Fees for Movie Sets.....................................    28
Class III Gaming Proposed Rule...................................   165
Colorado Management of Land Using Federal Aid Funds..............    56
Commerce/Interior Relations......................................    59
Conference Tuition...............................................   230
Congressional Review Act.........................................   103
Construction and Maintenance.....................................4, 169
    Construction and Maintenance, NPS............................    40
    Construction, NPS............................................   218
    Construction and Maintenance, Prioritizing...................    32
Maintenance Backlog............................................100, 168
Cooperative Research Units.......................................   193
Demonstration Fees..............................................62, 169
Denver Service Center............................................    80
Department Oversight/Standardization.............................   101
Detailed Employees...............................................   210
Disaster Information Network.....................................    47
Education of Employees...........................................   191
El Nino Damage..................................................61, 185
Ellis Island.....................................................    32
Elwha Dams Project...............................................    60
Endangered Species..............................................94, 170
    Endangered Species Act.......................................   221
    Endangered Species Issues....................................     7
    Endangered Species Reimbursement Fund........................   186
    Endangered Species Related Lawsuits..........................   231
    No Surprise Rule.............................................   216
    Habitat Conservation Plans...................................    33
Environmental Groups in Colorado.................................    31
Environmental Groups in the Southwest............................    30
Everglades Restoration...........................................5, 175
    South Florida Restoration....................................    67
    Coordination of Everglades Project...........................    35
    Talisman Tract...............................................    36
    Talisman Tract, Appraisal Report.............................    37
Federal Oil and Gas Valuation....................................   186
Fish and Wildlife Service........................................   176
FWS Conference in Hawaii.........................................   200
Headwaters......................................................91, 172
    Headwaters Funding and Management............................    49
Hudson Dog Track.................................................    28
Independence National Historical Park............................    83
Indian Self Determination Act....................................   186
Indian Trust Funds...............................................    38
Individual Fishing Quotas--Halibut...............................    54
Individual Indian Money Accounts.................................    85
Intelligence Budget..............................................    57
Interior Columbia River Basin.................................... 6, 44
Kodiak Timber and Halibut Fishing................................    52
Lack of Legislation..............................................    38
Land Acquisition.................................................   219
Land Exchanges...................................................21, 72
    Land Exchange, Del Webb Corporation..........................    41
    Land Exchanges, Nevada.......................................    23
Law Enforcement Personnel........................................   199
Law Suits, FY 1993-98............................................   198
Legal Costs......................................................   222
Menlo Park Location of the Geological Survey.....................   100
Millennium fund to Save America's Treasures......................   174
Minority Employment..............................................   195
National Constitution Center.....................................    63
National Park Service............................................   173
National Parks...................................................    77
Native Americans.................................................     8
New FWS Regional Office..........................................    50
NPS Construction.................................................   218
Office of Insular Affairs........................................   184
Offshore Technology Research Center..............................   218
Oil and Gas Inspection and Regulatory Functions Transfer.........   167
Opening Statement, Summary.......................................     3
Pacific Northwest Forest Plan.................................... 4, 99
Park Police......................................................   199
Predator Control.................................................   226
Prescribed Burn Policy...........................................   229
Reengineering of Royalty Management..............................   190
Reimbursable Activities..........................................   213
Relationship with Subcommittee...................................    37
Reprioritizing Budget Request....................................    62
Sale of Microbes.................................................    27
Science Issues...................................................     7
Secretarial Order No. 3206.......................................   163
Solicitor's Office Appropriations and Staffing...................   197
Special Trustee for American Indians............................88, 182
Southwest Strategy...............................................     6
Statement of Bruce Babbitt.......................................    10
Streamlining Savings.............................................    42
Surface Management Regulations...................................   162
Travel:
    Costs........................................................   193
    USGS Travel..................................................   224
    DOI International Travel.....................................   202
Valid Existing Rights............................................   222
Value of Donated Support.........................................   215
Value of Mitigation Activities...................................   215
Ward Valley......................................................    93
Watershed Restoration Efforts....................................    46
Weather Service Budget...........................................    57
Whittlesley Creek Project........................................51, 53
Wolf Reintroduction..............................................    60
    Wolf Reintroduction Court Case, Yellowstone..................   221
    Wolf Reintroduction in Eastern United States.................   228
Year 2000.......................................................43, 158
Yellowstone National Park........................................    71
Yosemite National Park...........................................    81

                       Bureau of Land Management

Acres Managed by BLM.............................................   248
Budget Priorities................................................   272
Clean Water and Watershed Restoration Initiative.................   258
Cooperative Management...........................................   272
De-Coupling Timber Receipts......................................   247
Director's Opening Remarks.......................................   237
Economic Benefits from Public Lands..............................   265
Facilities Maintenance Backlog...................................   262
Ferruginous Pygmy Owl Biological Opinions........................   261
Film Permits.....................................................   263
Grand Staircase Escalante National Monument......................   270
Hearing Questions Answered for the Record........................   273
In-Holdings......................................................   271
Interior Columbia Basin Ecosystem Management Project.............   263
Mission of the BLM...............................................   259
Naval Oil Shale Reserve..........................................   252
Net Receipt Sharing..............................................   250
Office Collocation...............................................   248
Opening Remarks..................................................   237
Recreation Fees..................................................   262
Resource Advisory Councils.......................................   271
Results Act......................................................   260
Revenues.........................................................   247
Satellite Information............................................   254
Southwest Conservation Strategy..................................   267
Statement of Director Pat Shea...................................   240
Transfer of Oil and Gas Inspection and Enforcement...............   269
Volunteers.......................................................   249
Ward Valley......................................................   270
Weather Information..............................................   266
Wild Horses and Burros...........................................   247
Wilderness Review................................................   254
Year 2000 Issue..................................................   264

                       Fish and Wildlife Service

Aquatic Nuisance Species.........................................   362
Biological Opinions..............................................   377
Black-footed Ferret Conservation Center, National................   480
Botanical Capabilities of Fish and Wildlife Service..............   386
Brown Tree Snake.................................................   362
Budget Priorities................................................   356
Budget Request Overview..........................................   405
Bull trout, proposed listing.....................................   519
Caddo Lake Institute.............................................   524
California Bay Delta.............................................   357
California Condor..............................................429, 513
Central Arizona Project, Risk Analysis...........................   376
Chicago Wetlands Office..........................................   504
Clean Water Initiative...........................................   438
Coastal Program..................................................   440
Colorado Wildlife Programs, Audit of.............................   371
Construction..............................................363, 405, 477
    Project List.................................................   479
Cooperative Agreements, Private Sector...........................   390
Cooperative Endangered Species Conservation Fund...............364, 481
Eagle and Wildlife Property Repository, National...............372, 510
Ecosystem Approach...............................................   444
    Directorate Decision.........................................   446
Ecosystem Management Report......................................   388
El Nino..........................................................   389
Endangered Species Act.........................................360, 501
    Candidate Conservation Agreements............................   431
    Candidate Species............................................   502
    Delisting..................................................378, 515
    Endangered Species...........................................   373
    Funding and FTE Allocation.................................420, 434
    Grants.......................................................   503
    Habitat Conservation Plans.......................367, 397, 414, 502
        Defenders of Wildlife Report...........................397, 398
            Service Response.....................................   399
        Headwaters Forest......................................401, 432
    Listing....................................................375, 417
        Backlog..................................................   375
    Mitigation...................................................   421
    Reauthorization.......................................366, 406, 426
    Recovery Plans...............................................   502
    Safe Harbor Landowner Incentive Program.....361, 368, 397, 433, 501
    Section 10 Incidental Take Permits...........................   409
    Testimony of J. R. Clark, Director, Before the House, 
      Committee on Resources, On Implementation and Enforcement 
      of the Endangered Species Act..............................   408
    Threatened and Endangered Species............................   373
        Delisted.................................................   379
        Number of................................................   374
Federal Energy Regulatory Commission...........................361, 438
Fines, use of to mitigate habitat damage.......................401, 403
Fisheries......................................................362, 465
    Habitat Restoration Projects.................................   467
Fixed Costs, Increases...........................................   366
Funding Needs....................................................   388
Funding Priorities, FY 1999......................................   381
General Administration.........................................362, 472
Grizzly Bear Reintroduction......................................   517
Hatchery Maintenance and Rehabilitation..........................   362
Headwaters Forest Habitat Conservation Plan....................401, 432
Interior Columbia Basin Ecosystem Management Project.............   520
Interior Columbia River Basin....................................   361
International Conservation.......................................   473
Invasive Species.................................................   362
Land Acquisition...............................................363, 405
    Emergency Fund...............................................   483
    Land Exchanges...............................................   508
Land and Water Conservation Fund.................................   507
Law Enforcement......................................361, 460, 510, 524
Lynx Recovery Plan...............................................   523
Maintenance Backlog............................................435, 442
    Title V funding..............................................   484
Maintenance Management System..................................362, 390
Mason Neck Environmental Center..................................   527
Mexican Wolf.....................................................   428
Migratory Bird Deaths............................................   517
Migratory Bird Management............................361, 464, 509, 515
Mississippi River Museum.........................................   511
Morgenweck, Regional Director Ralph..............................   371
Multinational Species Conservation Fund..........................   364
National Fish and Wildlife Foundation.....................391, 437, 508
National Fish Hatcheries.........................................   359
National Wetlands Inventory....................................361, 440
National Wild Fish Health Survey.................................   362
National Wildlife Refuge Improvement Act.........................   382
National Wildlife Refuges........................................   359
    Bald Knob NWR................................................   463
    Cypress Creek NWR............................................   507
    Florida Panther NWR..........................................   391
    Loxahatchee NWR..............................................   390
    Midway Atoll NWR.............................................   461
    National Elk NWR.............................................   484
    Oregon Coastal NWR...........................................   483
    Rocky Mountain Arsenal NWR.................................372, 462
    Sacramento River NWR.........................................   483
    San Joaquin NWR..............................................   483
    Full Time Staff, Lack of.....................................   386
    Tualatin River NWR...........................................   483
    Visitation...................................................   382
Natural Communities Conservation Planning......................442, 482
Natural Resource Damage Assessment and Restoration.............364, 476
North American Wetlands Conservation Fund......................364, 480
Opening Remarks:
    Acting Assistant Secretary for Fish Wildlife and Parks.......   355
    Director's Summary...........................................   356
Opening Statement:
    Biographical sketches........................................   352
    Director Clark's Statement for the Record....................   359
Organization Chart, Service......................................   456
Outreach, Schools................................................   382
Partners for Fish and Wildlife............................361, 437, 471
Pfiesteria piscicida...........................................362, 526
Platte River Basin...............................................   361
Preble's Meadow jumping mouse....................................   372
Questions Submitted for the Record:
    Additional Committee Questions...............................   405
    From Congressman Moran.......................................   526
    From Congressman Nethercutt..................................   519
    From Congressman Regula, on Behalf of Congressman Thomas.....   513
    From Congressman Skaggs......................................   524
    From Congressman Skeen.......................................   515
    From Congressman Yates.......................................   501
Recreational Fee Demonstration Program.........................383, 441
Red-cockaded Woodpecker..........................................   397
Refuge Operations and Maintenance..............................361, 460
Refuge Operations Needs System...................................   362
Regional Office, Pacific Southwest...................357, 363, 366, 368
    Staffing Levels..............................................   369
Remote Sensing Data..............................................   383
    Aircraft Safety..............................................   385
    Alaska Wetlands and Hydrology report.........................   384
    Endangered Species Protection................................   385
    Habitat Management...........................................   385
    National Wetlands Inventory..................................   384
    Refuges and Wetlands Management..............................   385
    Walrus Monitoring............................................   384
    Weather Information........................................384, 385
Resource Management..............................................   359
Round-nosed Goby.................................................   362
Ruffe............................................................   362
Salton Sea................................................357, 403, 471
    Bird Deaths..................................................   517
Savannah Army Depot Wildlife Management Unit.....................   512
Snail Darters....................................................   381
Snow Goose...........................................362, 458, 464, 509
Southwest Ecosystem Initiative.................................458, 515
Spear, Regional Director Michael.................................   368
Storm Damage.....................................................   389
Timber Harvest Permits.........................................391, 396
    Service Response.............................................   394
Tongass National Forest..........................................   361
Travel, International..........................................484, 486
U.S. Canada Migratory Bird Treaty..............................362, 515
U.S. Russia Cooperative Agreement................................   363
Volunteers.....................................................381, 385
Wetlands.........................................................   516
    Mapping......................................................   440
Whirling Disease.................................................   362
Witness List.....................................................   351
Wolf Reintroduction..............................................   525
Workforce Diversity..............................................   363
Zebra Mussel.....................................................   362

                         National Park Service

Accountability Management........................................   565
Accountability Management Information System.....................   541
Air quality monitoring...........................................   659
Anti-terrorism activities........................................   667
Arlington Boathouse land transfer proposal.......................   561
Arlington National Cemetery land transfer proposal...............   562
Baca Tract in New Mexico.........................................   554
Backlog management.............................................540, 556
    Maintenance backlog........................................829, 855
Baseline data....................................................   551
Biographies:
    Barry, Donald J., Deputy Assistant Secretary.................   534
    Galvin, Denis P., Deputy Director............................   536
    Lowey, Jacqueline M., Deputy Director........................   537
    Sheaffer, C. Bruce, Comptroller..............................   538
    Stanton, Robert G., Director.................................   535
Biological Resources Division Services to NPS (Research).........   659
Budget overall for Operation of the National Park System.........   612
Budget request programmatic increases............................   658
Budget resolution constraints....................................   611
Cache La Poudre Water Heritage Area..............................   560
    Cache La Poudre Corridor.....................................   560
Chalets at Glacier National Park.................................   609
Channel Islands National Park....................................   712
Civil War sites..................................................   600
Concessions Division in NPS......................................   836
Concessions fees legislative proposal............................   542
Concessions management reform....................................   656
Construction and accountability..................................   719
Construction management...................................540, 607, 608
Crime in the National Parks......................................   667
Cumberland Island National Seashore land exchange..............603, 711
Cuyahoga Valley National Recreation Area.........................   839
Dayton Aviation Heritage National Historical Park................   842
Delaware Water Gap project.......................................   837
Dinosaur National Monument.....................................560, 561
Diversity in the work force....................................542, 657
Donations........................................................   558
    Donation boxes...............................................   559
El Malpais National Monument.....................................   715
Ellis Island Family History Center...............................   715
Elwha River dams and restoration at Olympic National Park......563, 598
Everglades (South Florida) ecosystem restoration..........542, 667, 710
Everglades National Park interpretive signage replacement........   604
Financial and management information systems (Park support 
  systems).......................................................   658
Financial management.............................................   565
General Management Plans.........................................   720
    Director memorandum: ``Planning for the Future: Visions and 
      Reality''..................................................   826
    ``Director's Order 2: Park Planning''........................   755
    ``Park System Planning'' (Chapter 2 of ``Management 
      Policies'')................................................   744
Glacier National Park chalets....................................   609
Government Performance and Results Act (GPRA) implementation.......543, 
                                                               555, 716
Grand Canyon National Park.......................................   835
    Transportation system......................................601, 713
Great Smoky Mountains National Park..............................   853
Historic Preservation Fund budget................................   709
Historic sites...................................................   600
Historically Black Colleges and Universities...................709, 849
Hopewell Culture National Historical Park........................   842
Housing for employees.....................................551, 608, 717
Illinois and Michigan Canal National Heritage Corridor Commission   845
Independence National Historical Park............................   719
Introductions....................................................   539
Inventory and monitoring program, servicewide....................   663
Lewis and Clark Expedition Bicentennial..........................   565
Manager accountability...........................................   556
Manager responsibilities, development and qualifications.........   609
Mining program (desert mining and abandoned mine lands)..........   659
National Recreation and Preservation.............................   707
Natural resources inventories in parks...........................   646
Olympic National Park:
    Elwha River dams and restoration...........................563, 598
    Goats management................................................564
Opening remarks:
    Barry, Donald J., Deputy Assistant Secretary.................   539
    Stanton, Robert G., Director.................................   540
Opening statement of the Director, for the record................   545
Overflight management (Air tourism over National Parks)...559, 580, 656
    National Parks Overflight Working Group--Outline of 
      Recommended Rules..........................................   582
Oxon Cove land exchange in Washington, D.C. and Maryland.........   563
Park operations shortfalls.....................................555, 566
    Special needs parks..........................................   645
    Urban or rural designation of park operating increases.......   568
Perry's Victory and International Peace Memorial.................   842
Presidio.......................................................605, 665
Questions submitted for the record:
    Additional Committee questions...............................   612
    From Congressman Kolbe.......................................   835
    From Congressman Regula......................................   836
    From Congressman Taylor......................................   850
    From Congressman Yates.......................................   845
Recreation Fee Demonstration Program.................541, 604, 605, 669
Repair and rehabilitation program................................   570
    Priority Project Nominations for Repair and Rehabilitation 
      List, FY 1999..............................................   571
Rivers, Trails, and Conservation Assistance Program..............   543
Rocky Mountain National Park...................................560, 561
Safety in the workplace...................................542, 580, 603
    Employee accident rates......................................   655
Save America's Treasures Millenium program...........542, 580, 603, 848
Title V funds allocation.........................................   541
Training, professional...........................................   704
    Cooperative program for training Park Rangers................   668
Transportation system at Grand Canyon and Yosemite National Parks
                                                               601, 713
    Alternative fuel vehicles....................................   836
U.S. Park Police..........................................553, 645, 850
Urban or rural designation of park operating increases...........   568
Urban Park and Recreation Fund.................................543, 848
Vandalism reduction..............................................   605
Vanishing Treasures program....................................554, 664
Vietnam Memorial Museum in Chicago...............................   600
William Howard Taft National Historical Site.....................   843
Witnesses list...................................................   533
Year 2000 date conversion........................................   658
Yellowstone National Park........................................   714
    Cooperative Research and Development Agreement (CRADA).......   832
    Snowmobiles..................................................   847
Yosemite National Park.........................................712, 849
    Transportation system......................................601, 713

                                <all>
</pre></body></html>
